<html>
<title> - THE UNITED STATES AND VIETNAM: EXAMINING THE BILATERAL RELATIONSHIP</title>
<body><pre>[Senate Hearing 110-641]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 110-641

  THE UNITED STATES AND VIETNAM: EXAMINING THE BILATERAL RELATIONSHIP

=======================================================================

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON EAST ASIAN
                          AND PACIFIC AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 12, 2008

                               __________

       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html






                     U.S. GOVERNMENT PRINTING OFFICE

45-703 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001













                     COMMITTEE ON FOREIGN RELATIONS

                JOSEPH R. BIDEN, Jr., Delaware, Chairman
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
JOHN F. KERRY, Massachusetts         CHUCK HAGEL, Nebraska
RUSSELL D. FEINGOLD, Wisconsin       NORM COLEMAN, Minnesota
BARBARA BOXER, California            BOB CORKER, Tennessee
BILL NELSON, Florida                 GEORGE V. VOINOVICH, Ohio
BARACK OBAMA, Illinois               LISA MURKOWSKI, Alaska
ROBERT MENENDEZ, New Jersey          JIM DeMINT, South Carolina
BENJAMIN L. CARDIN, Maryland         JOHNNY ISAKSON, Georgia
ROBERT P. CASEY, Jr., Pennsylvania   DAVID VITTER, Louisiana
JIM WEBB, Virginia                   JOHN BARRASSO, Wyoming
                   Antony J. Blinken, Staff Director
            Kenneth A. Myers, Jr., Republican Staff Director

                                 ------                                

                       SUBCOMMITTEE ON EAST ASIAN
                          AND PACIFIC AFFAIRS

                  BARBARA BOXER, California, Chairman

JOHN F. KERRY, Massachusetts         LISA MURKOWSKI, Alaska
RUSSELL D. FEINGOLD, Wisconsin       JOHNNY ISAKSON, Georgia
BARACK OBAMA, Illinois               DAVID VITTER, Louisiana
JIM WEBB, Virginia                   CHUCK HAGEL, Nebraska

                                  (ii)








                            C O N T E N T S

                              ----------                              
                                                                   Page

Boxer, Hon. Barbara, U.S. Senator from California, opening 
  statement......................................................     1
Daley, Matthew P., president, US-ASEAN Business Council, 
  Washington, DC.................................................    43
    Prepared statement...........................................    44
Diem, Do Hoang, chairman, Viet Tan (Vietnam Reform Party), Orange 
  County, CA.....................................................    39
    Prepared statement...........................................    41
Griffiths, Ann Mills, executive director, National League of POW/
  MIA Families, Arlington, VA....................................    32
    Prepared statement...........................................    34
    National League of Families of American Prisoners and Missing 
      in Southeast Asia..........................................    36
    Number of Americans Missing and Unaccounted for From Each 
      State......................................................    38
Hill, Hon. Christopher, Assistant Secretary, Bureau of East Asian 
  and Pacific Affairs, Department of State, Washington, DC.......     5
    Prepared statement...........................................     8
    Responses to questions submitted for the record by Senator 
      Barbara Boxer..............................................    58
Murkowski, Hon. Lisa, U.S. Senator from Alaska, statement........     3
Nguyen, Janet, member, Board of Supervisors, Orange County, CA...    19
    Prepared statement...........................................    21
Richardson, Sophie, advocacy director, Asia Division, Human 
  Rights Watch, Washington, DC...................................    24
    Prepared statement...........................................    26
Webb, Hon. Jim, U.S. Senator from Virginia, statement............     4

             Additional Statement Submitted for the Record

Sauvageot, Andre, Colonel, U.S. Army (Ret.), prepared statement..    61

                                 (iii)


 
  THE UNITED STATES AND VIETNAM: EXAMINING THE BILATERAL RELATIONSHIP

                              ----------                              


                       WEDNESDAY, MARCH 12, 2008

                               U.S. Senate,
    Subcommittee on East Asian and Pacific Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:30 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Barbara Boxer 
(chairman of the subcommittee) presiding.
    Present: Senators Boxer, Webb, and Murkowski.

            OPENING STATEMENT OF HON. BARBARA BOXER,
                  U.S. SENATOR FROM CALIFORNIA

    Senator Boxer. The hearing will come to order. Welcome to 
everyone. Today the Senate Foreign Relations Subcommittee on 
East Asian and Pacific Affairs meets to examine the United 
States/Vietnam bilateral relationship, with a focus on human 
rights.
    The United States/Vietnamese relationship has grown 
dramatically over the past decade. In just a few years, the 
United States and Vietnam have normalized trade relations, 
signed an International Military Education Training Agreement, 
and held a number of high-level visits, including that of 
Vietnamese President Nguyen Minh Triet to Washington last 
year--the first such visit by a Vietnamese head of state since 
the end of the Vietnam war.
    Educational exchanges are increasing, with more and more 
Vietnamese students coming to study in America. Commerce is 
increasing; roughly $12 billion in goods and services were 
exchanged between the United States and Vietnam last year 
alone.
    This is translating not just into improved relations 
between our two countries, but into improved quality of life 
for many Vietnamese. According to CRS, poverty levels in 
Vietnam have been cut in half since the early nineties to less 
than 30 percent. And I understand that Vietnam has even set a 
goal of becoming a fully industrialized country by 2020.
    But despite these positive trends, there is one area in 
particular where we have failed to see significant progress, 
and that is on the issue of human rights. And that is the 
reason I wanted to have this hearing. Despite its public 
denials, we know from press reports and human rights groups 
that Vietnam's one party authoritarian government routinely 
takes punitive actions to silence those who speak out against 
the government's undemocratic policies.
    Democracy activists are frequently imprisoned for their 
peaceful advocacy of opposing political views. In late 2006 and 
early 2007, Vietnam instituted one of its harshest crackdowns 
in 20 years against those calling for a peaceful, political 
change, arresting hundreds of activists, including Nguyen Van 
Ly.
    I have a picture of Nguyen Van Ly to show you. I am certain 
most of you have seen it. Father Ly was arrested in February 
2007, after a short trial in which he was denied a defense 
attorney, and physically muzzled, as you can see, by Vietnamese 
authorities. Father Ly was convicted of ``carrying out 
propaganda against the Socialist Republic of Vietnam,'' and he 
was sentenced to 8 years in prison.
    The Vietnamese Government also arrested two prominent human 
rights attorneys, Nguyen Van Dai and Le Thi Cong Nhan, as well 
as Le Quoc Quan, a lawyer who completed a fellowship at the 
National Endowment for Democracy here in Washington, DC. While 
Le Quoc Quan has been released, the other three remain in jail.
    This all happened shortly after the United States removed 
Vietnam from its list of countries of particular concern, 
granted Vietnam permanent normalized trade relations, and 
supported Vietnam's bid to join the World Trade Organization. 
It also happened in the runup to the Vietnamese President's 
visit to the United States last June.
    Unfortunately, this was not the end of the arrests. On 
November 17, 2007, Mr. Nguyen Quoc Quan was arrested in 
Vietnam. Mr. Nguyen is a U.S. citizen, a longtime Sacramento, 
California, resident, and father of two. He had traveled to 
Vietnam to promote nonviolent, democratic change.
    According to available news reports, Mr. Nguyen was 
arrested for the peaceful distribution of prodemocracy 
leaflets. And here you see his photograph; it looks like it 
might have been taken at the families' home in Sacramento. 
Despite calls from the State Department and Members of 
Congress, including myself and Senator Feinstein, Mr. Nguyen 
remains in a Vietnamese prison today, and is being held without 
charge.
    His wife is here today, Mrs. Mai-Huong Ngo. I invite her to 
stand, and I thank her for her courage, and I want to tell her 
that we will not ever forget her husband, and we will do 
everything that we can to help.
    The stories that I have just highlighted are not the type 
of news that we want to hear out of a country that is one of 
the largest recipients of United States aid in East Asia. It 
certainly is not something that I relish. I got my start in 
politics in the days of the Vietnam war, so I supported 
normalization of relations. But we have to expect something in 
return.
    At the end of 2007, the United States Commission on 
International Religious Freedom summed up Vietnam's recent 
actions this way: ``Vietnam's overall human rights record 
remains very poor and has deteriorated in the past year. Dozens 
of legal and political reform advocates, free speech advocates, 
labor unionists, and independent religious leaders and 
religious freedom advocates have been arrested, placed under 
home detention and surveillance, threatened, intimidated, and 
harassed.''
    The Commission concluded that: ``The U.S. Government and 
its officials must continue to speak with a single, strong 
voice on human rights, including religious freedom. Better 
United States/Vietnamese relations depend upon it.''
    I certainly do agree with those sentiments. During today's 
hearing, it is my hope that we will be able to shed some light 
on the situation, and also identify ways to move the United 
States/Vietnam relationship forward while addressing human 
rights, trade, and POW/MIA issues.
    Before I ask Senator Murkowski and then Senator Webb for 
their opening statements, I want to just go through our 
witnesses today.
    On our first panel, we will hear from Christopher Hill, the 
Assistant Secretary of State for East Asian and Pacific 
Affairs. As many of you know, Secretary Hill has spent the last 
few years serving as our country's lead negotiator to the six-
party talks regarding North Korea. I think I speak for so many 
of us, Ambassador, when I say thank you for your tireless work. 
Secretary Hill just returned from Vietnam, and I look forward 
to his insights into the situation there.
    On our second panel, we will hear from Ms. Janet Nguyen, a 
county supervisor from Orange County, California. The 
supervisor represents one of the largest Vietnamese-American 
communities in the United States. She was born in Saigon, 
Vietnam, and escaped with her family, passing through numerous 
refugee camps before arriving in the United States in 1981. The 
supervisor will give a statement addressing the concerns of the 
Vietnamese-American community in California.
    On our third panel, we will hear from Mr. Matthew Daley, 
the president of the US-ASEAN Business Council. Mr. Daley was a 
career member of the U.S. Foreign Service before retiring in 
2004 from his position as the Deputy Assistant Secretary of 
State for East Asian and Pacific Affairs.
    We'll also hear from Sophie Richardson, the advocacy 
director for the Asia Division of Human Rights Watch. She's 
responsible for the organization's oversight work in Vietnam, 
and she has extensive experience in Asia.
    In addition, we'll hear from Ann Mills Griffiths, who for 
30 years has been the executive director of the National League 
of POW/MIA Families. Having traveled to Vietnam on numerous 
occasions, Ms. Mills Griffiths has extensive experience on POW/
MIA issues.
    And finally, we will hear from Do Hoang Diem, a resident of 
Orange County. Diem Do is the chairman of Viet Tan, or the 
Vietnam Reform Party, an organization dedicated to the peaceful 
advocacy of political change in Vietnam. He escaped from 
Vietnam on April 30, 1975, and arrived in the United States as 
a refugee in June 1975. Diem Do met with President Bush last 
year to discuss the human rights situation in Vietnam.
    I look forward to hearing from all of our witnesses, and I 
certainly look forward to hearing from my colleague, Senator 
Murkowski.

   STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR FROM ALASKA

    Senator Murkowski. Thank you, Madam Chairman, and thank you 
for holding this hearing on what is fast becoming a very 
significant bilateral relationship between the United States 
and Vietnam.
    When you look at the warmth with which the Vietnamese have 
embraced the friendship with the United States, some may 
suggest that this is surprising, but given the recent history, 
you think about the past century for Vietnam, and Vietnam has 
almost continuously been at war. So the opportunity for peace 
is one that they won't pass up.
    The Senate has played a significant role in getting us to 
our current position, with a Senate Select Committee on POW/MIA 
affairs, led by Senator Kerry, conducting an independent 
investigation of the POW/MIA issue, helping to lay the 
groundwork for relations to move forward, along with the 
approval of a bilateral trade agreement in 2001, and extending 
permanent normal trade relation status in 2006.
    So it is inherent upon us to continue down this path of 
building upon our growing relations, to be supportive when and 
where we can, but at the same time not to be afraid to offer 
contrary views if we disagree with one another. In a mature 
relationship, we recognize that you don't always agree on every 
issue, but we will be able to at least share our differences 
and hopefully work through them.
    Madam Chairman, you mentioned California has a sizable 
Vietnamese-American population. I understand it's about as many 
as--as many Vietnamese live in California as we have Alaskans 
in the entire State. But we have a strong Vietnamese population 
in my State, as well. We've got about 1,500; and that might not 
seem like a lot, but for us in the State, we embrace them. 
They've become integrated into our communities and 
neighborhoods. We do have an interest in ensuring that the 
United States and Vietnamese relations remain strong and move 
forward.
    You have appropriately noted the challenges that face us in 
the area of human rights. And, Secretary Hill, in your written 
statement, you certainly speak to the problems that remain in 
the area of human rights. We look forward to hearing this being 
fleshed out further in the testimony here this afternoon.
    I appreciate all of the witnesses that have agreed to join 
us, and for the opportunity to have the hearing.
    Thank you.
    Senator Boxer. Thank you so much, Senator.
    Senator Webb.

     STATEMENT OF HON. JIM WEBB, U.S. SENATOR FROM VIRGINIA

    Senator Webb. Thank you, Madam Chairman. I would like to 
say that I got my professional start--not my political start--
on the Vietnamese issue, by serving in Vietnam as a Marine in 
Quang Nam Province. And I have a special interest in how we're 
going to bridge the gap, not only between our country and 
Vietnam, but also between the Vietnamese community in the 
United States and the Vietnamese who continue to rule Vietnam.
    We have a kind of misperception that's crept into a lot of 
our dialogue over the past 20 years or so that this was a war 
between the United States and Vietnam. It was not. It was an 
effort by the United States to assist an incipient democracy 
that was growing in South Vietnam that was not successful for a 
lot of different reasons.
    But this gives us a special obligation to address issues 
like human rights in a different sort of way than we do with, 
perhaps, any other country, because there is a sizable 
percentage of the population in Vietnam, and a majority of the 
population of Vietnamese descent in the United States who are 
aligned with us in attempting to prevent a Communist takeover 
in Vietnam.
    So these are not simply issues of human rights; they're 
issues of how the government has been treating people who were 
aligned with the United States and the attempt of the South 
Vietnamese Government to obtain a democracy in South Vietnam.
    So that's an insight that I think we need to emphasize when 
we have these sorts of hearings. I've been privileged for more 
than 30 years to be working on this issue in one way or 
another, including working with the Vietnamese communities 
since the late 1970s, and having returned to Vietnam probably 
20 times since 1991, and watching the improvements that, though 
still need to be greater, have been taking place in Vietnam.
    So this is an issue that we should take a very special 
interest in as a country, because the number of people, who 
were attempting to align themselves with us, have been at risk. 
And I look forward very much to hearing all the witnesses 
today, and I thank you for holding the hearing.
    Senator Boxer. Thank you, Senator. Ambassador, I hope you 
can share some of your wisdom with us in the next 5 to 7 
minutes. We would greatly appreciate it. Please proceed.

STATEMENT OF HON. CHRISTOPHER HILL, ASSISTANT SECRETARY, BUREAU 
    OF EAST ASIAN AND PACIFIC AFFAIRS, DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Ambassador Hill. Thank you very much, Madam Chairman. I 
have, of course, a statement I'd like to read into the--or have 
added into the record, and then if I could read an oral 
statement.
    Senator Boxer. Please.
    Ambassador Hill. Madam Chairman, Senator Murkowski, Senator 
Webb, I want to thank you very much for the opportunity today 
to testify on the subject of the United States relationship 
with Vietnam. I've just returned from a trip there; in fact, my 
fourth in my current position. And I'm pleased to have this 
opportunity to share my impressions of that trip with you.
    Vietnam is a country that stirs emotions in many families 
in the United States. We have historical ties, cultural ties, 
sometimes just very, very difficult memories. Yet, Vietnam is a 
country whose economic and democratic transition is important 
to the United States, and it is important that we remain 
engaged with Vietnam and work with Vietnam on this.
    That transformation in Vietnam has enabled--it's in part 
been helped by the expansion of our bilateral relationship. We 
are working constructively with Vietnam on a growing range of 
important issues. Of course, many problems remain, and Madam 
Chairman, you alluded to a very important problem that remains, 
and that is human rights.
    But overall, we have made broad progress where our 
interests have coincided, and we've also been able to engage 
candidly on issues where we differ, and I can say, Madam 
Chairman, I did just that just a few days ago. We believe this 
continued engagement of Vietnam is very much in the United 
States interests.
    Engagement can be seen most clearly in our economic 
relations. And here, I must say our ties are thriving. Two-way 
trade has risen to some $12.5 billion in 2007, and that trade 
has been buoyed by Vietnam's entry into the World Trade 
Organization, and the continued success in implementing our 
Bilateral Trade Agreement. U.S. exports in particular have been 
growing--some 70 percent last year. Investments from United 
States firms are also flowing into Vietnam--over $2.5 billion 
since 1988, and $639 million last year alone.
    The U.S. assistance, thanks to the U.S. taxpayers, has 
improved good governance and transparency in Vietnam. U.S.-
funded advisers have collaborated on a range of new laws to 
promote a level playing field in the private sector. Our 
cooperation on regional security matters is also expanding 
steadily through engagement in ASEAN, where Vietnam is a 
member. Also, in APEC and at the U.N. Security Council, which 
Vietnam joined in January of this year for a 2-year term.
    We're pleased to see Vietnam support a new sanctions 
resolution on Iran at the U.N. Security Council just last week. 
We also have had a very active IMET Program. That is a military 
cooperation program involving training of English to their 
officers. We've had regular U.S. Navy port calls, and are 
working to build capacity for peacekeeping and search and 
rescue.
    We have worked very closely with Vietnam on health issues. 
In particular, Vietnam is one of 15 focus countries under the 
President's Emergency Plan for AIDS relief, PEPFAR. And in 
fiscal year 2007, we gave some $66 million for HIV prevention. 
We are also working very closely with Vietnam on the threat of 
avian influenza. Four people have died from that virus in 
Vietnam. And last year, we gave some $10 million to strengthen 
emergency preparedness, laboratory capacity, and public 
awareness.
    But in human rights, this is clearly a work in progress. 
Let me say first that Vietnam's transformation and its 
engagement with the United States has helped open its society 
and expand social freedoms. The average Vietnamese citizen 
today has more freedom to live, work, and practice his or her 
faith than at any time since 1975. But there is no question 
that serious deficiencies remain in political and civil 
liabilities.
    People cannot choose their government, and risk detention 
for peaceful expression of political views. The government 
maintains significant restrictions on freedom of the press, on 
speech, on assembly, and Internet content. In early 2007, in 
particular, the government launched a crackdown on political 
descent and arrested many members of fledgling prodemocracy 
groups.
    In November, authorities arrested a group of prodemocracy 
activists, including two American citizens. Several individuals 
were released following pressure from the administration and 
from the Congress, but one American, Dr. Nguyen Quoc Quan, 
still remains in prison. And among the prominent dissidents 
still in prison are Father Ly, Nguyen Van Dai, and Le Thi Cong 
Nhan are still--they are still awaiting their freedom. And 
during my visit to Hanoi this month, I raised all of these 
cases with senior Vietnamese officials, urging that those 
arrested for peacefully expressing their views should be 
released immediately.
    There have been some gains in the last 2 years: A 
resumption of our bilateral human rights dialogue, the release 
of some high-profile prisoners, greater access to the Central 
Highlands, and the repeal of Administrative Decree 31, which 
had the effect of allowing authorities to circumvent due 
process.
    We raise human rights issues regularly and at all levels 
with the Vietnamese authorities. Our annual human rights 
dialogue is an important channel to raise these concerns, and 
we do so without pulling any punches at all. We plan the next 
round this May in Hanoi, and I have emphasized that we need to 
focus on concrete actions to produce real improvements.
    We're urging Vietnam to take steps now, such as ending the 
use of catch-all national security provisions, such as Article 
88 of the Criminal Code, which outlaws conducting propaganda 
against the state. We've urged them to release all remaining 
political prisoners.
    In the area of religious freedom, it has made some 
significant gains. From 2004 to 2006, the State Department 
designated Vietnam as a country of particular concern on 
religious freedom. And during that time, we negotiated with the 
Vietnamese Government an unprecedented agreement that committed 
them to significant religious freedom reforms. By November 
2006, Vietnam was no longer on the list of serious violators of 
religious freedom; they had been taken off the list of 
countries of particular concern.
    Some of these key reforms include passage of a new law that 
banned forced renunciations, that allowed registration of 
hundreds of Protestant congregations, and we continue to 
monitor these. This year, we've seen some further progress. The 
government registered seven new denominations. And while I was 
in Hanoi just last week, I met with officials from the Catholic 
Church, and also from the Evangelical churches of Vietnam to 
discuss the progress with them. Indeed, Vietnam can and should 
do more, but we continue to work with Vietnam on this.
    Another challenge to our relationship is in intercountry 
adoptions. We have had problems in Vietnam; problems that have 
created--that have been caused by fraud and some illegal 
activities. We are working very hard with the Vietnamese 
Government on this. We are working with Vietnam to accede to 
the Hague Convention on adoptions. We want a situation that's 
good for all, that's good for the child above all, that's good 
for the adopting family, and then make sure the process 
functions completely.
    Finally, we work very much in Vietnam on the legacy of war. 
We work on trying to bring the remains of our service men and 
women home. We are the largest donor of humanitarian 
assistance, from Mine Actions Programs in Vietnam. We've given 
some 43 million in disability assistance. We have also helped 
to--together with the Congress, we have worked on difficult 
issues, such as Agent Orange. And we're now finalizing a plan 
to implement $3 million set aside by Congress for environmental 
remediation and health-related programs.
    In conclusion, Madam Chairman, I want to emphasize the 
vital role that Congress has played in advancing the United 
States-Vietnam relationship. It is with the support of Congress 
that we established diplomatic relations with Vietnam, and made 
it a permanent normal trading partner. As our bilateral ties 
have improved, Congress has reinforced our efforts and ensured 
that human rights and religious freedom remain very much high 
on our agenda.
    Over the last 13 years, our relationship with Vietnam has 
transformed from one of conflict to one of cooperation. We're 
eager to do more, such as establishing a Peace Corps Program, 
if Vietnam is so interested, increasing--also, increasing 
educational opportunities for Vietnamese in this country.
    There are tremendous changes in Vietnam. Problems certainly 
remain, especially in human rights and democracy, and we need 
to address them squarely and honestly. It's in our national 
interest to keep the United States involved in Vietnam's 
transformation as a partner, and when needed as a constructive 
critic.
    Thank you very much, and I would be happy to take your 
questions.
    [The prepared statement of Ambassador Hill follows:]

   Prepared Statement of Hon. Christopher Hill, Assistant Secretary, 
    Bureau of East Asian and Pacific Affairs, Department of State, 
                             Washington, DC

                              introduction
    Chairman Boxer, Senator Murkowski, and members of the subcommittee, 
thank you for inviting me to testify today on the subject of United 
States-Vietnam bilateral relations. I have just returned from a trip to 
Hanoi and am pleased to have this opportunity to share my impressions 
of Vietnam with you.
    The United States-Vietnam relationship has expanded in an 
impressive number of areas since we reestablished diplomatic relations 
with Vietnam in 1995. President Bush's trip to Hanoi in November 2006 
for the Asia-Pacific Economic Cooperation forum meeting and President 
Triet's visit to Washington in June 2007 reflect the advances in our 
relationship. Problems remain, especially in the area of human rights. 
Overall, we have made broad progress on issues where our interests 
coincide, as well as in our ability to engage candidly on the areas 
where we differ. Continued engagement with Vietnam is clearly in U.S. 
interests.
              bilateral ties--from conflict to cooperation
    A good starting point for reviewing how our bilateral ties have 
evolved is to look at the dramatic transformation Vietnam has 
experienced as a country. When we first began reengaging with Vietnam 
in the 1990s, the country was just beginning to recover from years of 
hard-core Marxism. Those years had ravaged an economy still reeling 
from war, and forced thousands into reeducation camps or to flee to the 
United States and other countries. Vietnam's foreign policy was marked 
by close alignment with the Soviet Union, and it was just ending a 
decade-long occupation of Cambodia.
    Vietnam's leaders started reversing this dead-end approach in the 
late-1980s, by introducing a policy of ``doi moi,'' or renovation, to 
boost economic growth. They turned away from central planning in favor 
of efforts to promote the private sector. Vietnam's leaders saw they 
had to integrate with the world economy to attract foreign trade, 
investment, and technology. Subsequently, they launched what has turned 
out to be one of the most rapid economic revolutions in modern history. 
The United States encouraged this new orientation and has been actively 
facilitating change in Vietnam for over a decade through our 
development assistance and trade policy.
    If Vietnam can continue to implement effectively more market 
reforms, it has the economic potential to catch up with the Asian 
tigers. Vietnam's GDP grew 8.5 percent in 2007, its highest growth rate 
in a decade. The urban middle class is growing, and retail markets are 
booming. In what the World Bank has described as one of the most 
successful antipoverty campaigns ever, Vietnam reduced its poverty rate 
from more than three-quarters of the population in 1990 to under 14 
percent in 2007. To succeed in its ambition to be an industrialized 
country by 2020, however, Vietnam will need to do more to develop its 
physical and human infrastructure, including tackling serious 
shortcomings in its education system.
    Vietnam is rapidly integrating with the rest of the world. The 
country is increasingly influential in the Association of Southeast 
Asian Nations (ASEAN) and the Asia Pacific Economic Cooperation (APEC) 
forum, and joined the World Trade Organization (WTO) in January 2007. 
This January, Vietnam joined the U.N. Security Council for a 2-year 
term. We are working closely with Vietnam in the Council and seek to 
strengthen our cooperation in that important forum over the coming 2 
years.
                             economic ties
    Building on the promise of the 2001 United States-Vietnam Bilateral 
Trade Agreement (BTA), we have continued to expand our economic 
relationship through substantial growth in trade and investment. At the 
end of 2006, Vietnam was granted Permanent Normal Trade Relations 
(PNTR) with the United States. Vietnam then acceded to the WTO in 
January 2007, to the benefit of both our countries. In June 2007, the 
United States and Vietnam concluded a Trade and Investment Framework 
Agreement (TIFA) to support implementation of the BTA and Vietnam's WTO 
commitments, and to identify new opportunities to advance our trade and 
investment ties. Vietnam's WTO accession has helped push our two-way 
trade to $12.5 billion in 2007, up 29 percent from 2006. While the 
trade balance remains in Vietnam's favor, U.S. exports to Vietnam grew 
an impressive 73 percent in 2007, three times as fast as Vietnamese 
exports to the United States. As President Triet affirmed during his 
June visit to the United States, Vietnam welcomes more U.S. investment. 
Commerce Secretary Gutierrez led executives from 22 major U.S. 
companies on a trade mission to Vietnam in November 2007 to seek deals 
and expand our exports.
    U.S. assistance for Vietnam's economic reforms focuses on good 
governance and transparency and has helped make possible our robust 
trade and investment ties. Through USAID-funded projects such as 
Support for Trade Acceleration, or ``STAR,'' we have provided advice 
and input to Vietnam on a range of new laws related to implementation 
of Vietnam's BTA and WTO commitments. These efforts will help transform 
the Vietnamese economy by promoting a level playing field for the 
private sector, including both foreign and domestic companies. In the 
same vein, USAID's funding for the Vietnam Competitiveness Initiative 
has established an index that ranks each province on ease of doing 
business, based on the views of Vietnam's own firms. The Vietnamese 
Government is using that tool to encourage greater transparency and 
anticorruption measures at the local level. As a result, private 
Vietnamese firms have new influence over their own government's 
economic policymaking. Some Vietnamese leaders have voiced interest in 
expanding our economic governance programs into broader legal and 
administrative reform efforts.
                      regional and security issues
    On regional and security issues, our cooperation with Vietnam is 
steadily expanding. In ASEAN and APEC, our engagement on issues such as 
free trade and counterterrorism has increased with Vietnam's rising 
influence. At the U.N. Security Council, we are seeking their backing 
on the full range of international peace and security issues. In a 
first big test of its cooperation, Vietnam voted earlier this month in 
favor of the new Council resolution imposing sanctions on Iran. We hope 
to strengthen that cooperation during Vietnam's tenure in the UNSC. 
Bilaterally, we are working to help build capacity for peacekeeping and 
search-and-rescue through International Military Education and Training 
(IMET) programs, and U.S. Navy ships now call at Vietnamese ports. The 
USNS Mercy will make a planned visit to Vietnam this summer.
                 combating hiv/aids and avian influenza
    Over the past few years, our cooperation with Vietnam on critical 
health issues, such as avian influenza and HIV/AIDS, has been expanding 
rapidly. Vietnamese authorities have been open and enthusiastic 
partners in combating both global health threats. Vietnam has welcomed 
U.S. assistance to combat avian influenza and has worked closely with 
us on this issue. Outbreaks of avian influenza have already caused four 
human deaths in Vietnam this year. We are the second largest bilateral 
donor in Vietnam, contributing approximately $23 million since 2005, 
including $10 million in FY 2007 alone. Our assistance has focused on 
building emergency preparedness, laboratory capacity, and public 
awareness. We are working with Vietnam to move from an emergency-
oriented response to a sustained programmatic approach. Vietnam is also 
1 of 15 focus countries under the President's Emergency Plan for AIDS 
Relief (PEPFAR), and work on HIV/AIDS makes up the lion's share of our 
official assistance to Vietnam. In fiscal year 2007 alone, we will 
spend $66 million on HIV prevention, care, and treatment.
                              human rights
    Vietnam's economic and cultural integration into the world has 
helped open its society and expand social freedoms. Vietnamese citizens 
today enjoy greater freedom to live, work, and practice their faith, 
and most enjoy significantly improved standards of living.
    However, in the area of political and civil liberties, serious 
deficiencies remain. People cannot freely choose their government, they 
risk arrest for peacefully expressing their political views, and they 
lack the right of fair and expeditious trials. The government continues 
to maintain significant restrictions on freedom of the press, speech, 
and assembly and Internet content. In early 2007, the government 
launched a crackdown on political dissent, arresting and imprisoning 
many individuals involved in the prodemocracy group Bloc 8406, and 
other fledgling prodemocracy groups. Some are still being held.
    In November 2007, Vietnamese authorities arrested a group of 
prodemocracy activists including two American citizens. After pressure 
from the administration and Congress, and many others in the 
international community, several individuals were released, including 
one American. Another American, Dr. Nguyen Quoc Quan, remains held in a 
jail in Ho Chi Minh City. Among the prominent dissidents who are still 
imprisoned are Father Ly, Nguyen Van Dai and Le Thi Cong Nhan. During 
my visit to Hanoi this month, I raised all these cases with senior 
Vietnamese officials, stressing that we object to the arrest of any 
individual for peacefully expressing his or her views, and making clear 
that anyone arrested on that basis should be released immediately.
    Despite the setbacks, there have been some positive developments 
over the past 2 years: The resumption of our bilateral human rights 
dialogue, the release of some high-profile prisoners of concern, 
greater access by the international community to the Central Highlands 
and to prisons to assess conditions, and the repeal of Administrative 
Decree 31, which allowed authorities to circumvent due process. 
Visiting Vietnamese officials, such as a high-level group visiting 
Washington this month from the Central Highlands, are showing more 
interest in meeting with NGOs, Vietnamese-American groups, and Members 
of Congress to discuss human rights issues. We strongly encourage this 
type of engagement. Vietnam has also taken some encouraging steps to 
combat corruption. Last week, the top Communist Party official in Can 
Tho province in southern Vietnam was reprimanded and fired for 
corruption related to improper land deals.
    Our annual Human Rights Dialogue also provides an important channel 
to raise concerns with the Government of Vietnam. We held our second 
meeting since the resumption of the Dialogue in April 2007, and plan a 
third meeting this May in Hanoi. It is a frank exchange where we raise 
our concerns and pull no punches. The Vietnamese Government says they 
value it, and have made limited improvements, but they must do more. We 
have emphasized that the Dialogue has to focus on concrete action by 
the government to improve the human rights situation, and must produce 
tangible results.
    Our message to Vietnam is that the United States cares about this 
issue not because we seek to destabilize their government, but because 
we value respect for universal human rights and human dignity. We also 
demonstrate to Vietnam that improving the protection of human rights is 
in its interests and will make the country stronger. There are steps we 
would like the Vietnamese to take right now, such as ending the use of 
catch-all ``national security'' provisions like article 88 of the 
Criminal Code, which outlaws ``conducting propaganda against the 
State,'' and the release of all remaining political prisoners.
    Madame Chairman, I assure you that we will continue to push 
vigorously for a greater expansion of the civil and political rights of 
all Vietnamese citizens and for the release of all political prisoners.
                           religious freedom
    In contrast to the slow progress on political rights, religious 
freedom in Vietnam has expanded significantly. From 2004 to 2006, the 
State Department designated Vietnam as a ``Country of Particular 
Concern'' (CPC) regarding religious freedom. At that time, many 
religious communities faced harassment and forced renunciations, and 
the country had 45 known religious prisoners. Official policy supported 
a hard-line approach, especially in some rural areas considered 
``sensitive'' by Vietnam's Government. By November 2006, Vietnam had 
addressed the problems that constituted severe violations of religious 
freedom as defined by the 1998 International Religious Freedom Act.
    The Vietnamese Government explicitly changed many aspects of 
official policy that had restricted religious practice and introduced a 
new law on religion that banned forced renunciation, enshrined 
individual freedom of religion, and allowed registration of hundreds of 
Protestant congregations. The government released all those individuals 
that the United States had identified as prisoners of concern for 
reasons connected to their faith. It has invited any information on 
allegations that the law is not being carried out. We have monitored 
the implementation of the expansion of religious freedom carefully--and 
been given the access to do so. We have found cases in which local 
authorities have not followed the new law. When that happens, we have 
either brought them to the attention of the government, or monitored 
efforts by religious groups to ensure compliance with the new law.
    During my visit to Hanoi, I met with officials of the Catholic 
Church and Evangelical Church of Vietnam (North), who confirmed there 
have been significant improvements, although they also noted concerns 
over property disputes and the pace of registrations of new 
denominations. In February, Catholics in Hanoi staged a series of 
large-scale prayer vigils urging the government to return a property 
once used by the Papal Nuncio. Before this confrontation reached a 
crisis point, the Hanoi Archdiocese and the government agreed to 
resolve the dispute through negotiation. The leaders I met also called 
for the government to permit a greater role for churches in charitable 
and social activities, such as poverty alleviation, education, health 
care, and disaster relief.
    Since the CPC designation was removed, there has been further 
progress: The government has issued seven national-level registrations 
of denominations, and held over 3,000 training courses and 10,000 
training workshops for officials throughout the country on how to 
implement the new law on religion. Relations with the Vatican have also 
improved. A meeting between Prime Minister Dung and Pope Benedict XVI 
led to the launch last October of a Joint Working Group to establish 
diplomatic relations.
    Vietnam can and should do more to advance religious freedom. We 
would like to see the government quicken the pace of registrations for 
new denominations and accelerate the training of local officials on the 
new legal framework. Vietnam, however, no longer qualifies as a severe 
violator of religious freedom. Key religious leaders from different 
faiths within the country have confirmed this. It is vital that we 
continue to monitor the situation. It is also important that we 
recognize progress and urge that the good work continue.
                                adoption
    Another challenge to our bilateral relationship is intercountry 
adoptions. Hundreds of caring American parents have adopted children 
from Vietnam since the United States and Vietnam resumed processing 
intercountry adoptions in 2006. This renewed interest has put great 
pressure on a Vietnamese social and governmental infrastructure that, 
in our evaluation, simply has been unable to respond adequately. We 
have observed a disturbing trend of fraud and illegal activity in 
recent months that threatens the integrity of the program by denying 
birth parents their rights and placing the lives of infants at risk. 
Our goal is to work closely with the Vietnamese Government and other 
interested parties to reform the international adoption process in 
Vietnam while facilitating cases that meet the requirements of 
Vietnamese and United States law and regulations.
    We have raised these concerns at high levels with Vietnam and urged 
their government to accede to the Hague Convention on Adoptions. We 
have offered technical assistance to develop the institutions that 
would enable them to become compliant with safeguards in the Hague 
Convention. Our goal is to work with Vietnam to fix the system, so that 
we can process adoptions from Vietnam while ensuring the protection of 
the children, the birth parents, and the adoptive parents.
                               education
    In a further sign of our growing bilateral relations, our 
educational ties with Vietnam are expanding rapidly. Young Vietnamese 
leaders have a great appetite to learn about American society and 
values; our support for sharing the American experience with them is a 
vital long-term investment. The Fulbright program for Vietnam is one of 
our largest in Asia; we are working to expand it further with corporate 
support. The Harvard-affiliated Fulbright Economics Training Program in 
Ho Chi Minh City is a highly successful program giving hundreds of mid-
level Vietnamese officials the public policy tools to keep the country 
on its market-driven path. The Vietnam Education Foundation (VEF) 
supports Vietnamese students of science and technology currently in 
U.S. colleges. Our Ambassador in Hanoi has been active in bringing 
harmony to all the U.S. efforts on education. Vietnam's top leaders say 
they want the Peace Corps in Vietnam, and the Peace Corps has discussed 
with the Vietnamese Government the possibility of establishing a 
country program. We hope to see those talks progress.
                            legacies of war
    Finally, it is important to note that we continue to work closely 
with Vietnam on issues related to the legacy of war. Our efforts to 
obtain the fullest possible accounting for our personnel missing from 
the Vietnam war remain an important component of our bilateral 
relationship. Since 1973, we have been able to repatriate and identify 
the remains of 883 Americans, 627 of whom were lost in Vietnam. We 
continue to enjoy good cooperation from Vietnam in the accounting 
mission, but have requested additional records pertaining to their 
forces in areas of Laos and Cambodia where we still have unresolved 
cases. Later this year, we will meet with our Vietnamese counterparts 
to assess 20 years of cooperation on the accounting mission, and assess 
how we can do the accounting mission better.
    The United States is the largest donor of humanitarian assistance 
for mine-action programs to Vietnam, providing $40 million since 1993. 
In addition, we have given $43 million in disability assistance since 
1989 through the Leahy War Victims Fund, set up to assist Vietnamese 
with disabilities of all kinds. Support from Congress is also helping 
us defuse a delicate bilateral issue: The defoliant Agent Orange and 
its contaminant dioxin. Since 2002, we have given $2 million to help 
Vietnam build capacity to deal with environmental challenges posed by 
dioxin, and we are now devising a plan to implement $3 million more set 
aside by Congress for environmental remediation and health-related 
programs. U.S. engagement has spurred other donors, such as the Ford 
Foundation, UNDP, and the Czech Republic, to join in a multilateral 
effort to address the impact of dioxin. While the United States and 
Vietnam may disagree on aspects of this emotional issue, we have 
reached a point with Vietnam where we can focus on helping disabled 
individuals regardless of cause, and address this issue in a 
cooperative manner, increasingly free of hyperbole.
                               conclusion
    Madame Chairman, before I close, I want to emphasize the vital role 
that Congress has played in advancing United States-Vietnam relations 
over the years. With the support of Congress, we reestablished 
diplomatic relations with Vietnam and made it a permanent normal 
trading partner. As Vietnam and our bilateral ties have improved, 
Congress has reinforced our efforts to expand our engagement, and 
ensured that human rights and religious freedom remain high priorities 
in our relationship.
    Over the last 13 years, our relationship with Vietnam has 
transformed from one of conflict to one of cooperation. The country has 
changed tremendously in that time, and the lives of the vast majority 
of its people have improved in clear and measurable ways. Problems 
remain, especially in the area of human rights and democracy, and we 
must address them squarely. It is in our national interests to keep the 
United States involved in Vietnam's transformation as a partner, and 
when needed, as a constructive critic.

    Senator Boxer. Thank you so much, Ambassador. According to 
the U.S. Commission on International Religious Freedom, the 
Vietnamese Government continues to harass and detain members of 
religious groups that seek independence or autonomy from 
government control. In October 2007, Vietnamese President 
Nguyen Minh Triet publicly threatened to arrest the venerable 
Thich Quang Do, who is under detention along with 12 other 
leaders of the Unified Buddhist Church of Vietnam.
    Up to 12 Hoa Hao Buddhists have been arrested in the past 
few years, including four sentenced to prison terms in 2007 for 
a peaceful hunger strike protesting past imprisonments of 
fellow Hao Hao. Five Khmer Buddhists were also sentenced last 
year for leading a peaceful demonstration to protest religious 
freedom restrictions. Five Cao Dais remain in prison for 
distributing pamphlets critical of restrictions on their 
activities. And hundreds of Montagnard Protestants remain 
imprisoned after staging demonstrations for land rights and 
religious freedom.
    In addition, Father Nguyen Van Ly, Nguyen Van Dai, and Le 
Thi Cong Nhan were all charged and imprisoned for the peaceful 
expression of universally guaranteed rights to freedom of 
speech, association, and religion.
    Now, the U.S. Commission on International Religious Freedom 
has concluded in a report that these prisoners should at least 
be considered for their activities to promote religious 
freedom. As you probably know, they're imprisoned for crimes 
against the state. Despite the U.S. Commission's Report, the 
2007 State Department International Religious Report states 
that, ``Vietnam no longer detains any prisoners of concern.''
    Such prisoners are one of the main criteria used for 
determining whether a country will be designated as a country 
of particular concern, or CPC. Why are the imprisoned 
individuals that I just mentioned not considered prisoners of 
concern?
    Ambassador Hill. Well, first of all, let me say that we 
have continued to be very concerned about both issues of 
political speech, but also religious belief. And in some of 
these cases where there have been religious figures, such as 
Father Ly, we believe many of these have been violations of 
their political rights, their rights to speak out.
    We have raised these issues with the Vietnamese 
authorities. We will continue to do so, as such religious 
leaders are being held primarily for political activism rather 
than religious views. But we certainly don't mean to suggest 
that Vietnam's record on religious freedom is perfect; what we 
are looking at is whether it is improved or not, and we do 
believe there has been improvement.
    With regard to the issue of the Montagnards, it is with 
that in mind that we pressed very substantially for access to 
the Central Highlands so we could see ourselves how the 
situation was. And I can say that Ambassador Michalak and his 
staff, and also our consulate in Ho Chi Minh City, have been 
very vigilant in getting people up to the central part of the 
country to see what some of the----
    Senator Boxer. OK.
    Ambassador Hill [continuing]. What the conditions are.
    Senator Boxer. Well, to me, the facts are the facts. These 
people are in jail, and they're not out, and our Commission on 
Religious Freedom said that they're being held for their 
religious activities. And, it just seems to me that we're doing 
a two-step here. I want to see progress in this relationship. I 
don't think that when a friend does something wrong it helps to 
just keep saying, ``You're wonderful.'' I mean, I have 
differences with my colleagues here.
    Now, I don't doubt for a minute that the State Department 
is pressing the Vietnamese Government on these issues. But then 
you take them off the CPC list. It seems to me that 
redesignating Vietnam as a CPC would send a strong signal that 
our interests lie not only with economic and security concerns, 
but in real progress on religious freedom.
    But let me move, in the rest of my time, to more about 
politics there. Is it true that only one political party is 
allowed in Vietnam?
    Ambassador Hill. Yes. It's the Communist Party.
    Senator Boxer. That's right. And you may know that a secret 
memo recently surfaced regarding political trials. And this 
secret memo has been attributed to an August 2007 Politburo 
meeting of the Communist Party of Vietnam.
    Although the Government of Vietnam denies that it's 
currently holding any political prisoners, the document details 
the success of some of the recent ``political trials,'' and 
states that the party must work to ``limit the spread of false 
ideas in the population about democracy, human rights, and 
religious freedom.''
    Now, according to Human Rights Watch, the document also 
states that opposition political parties must not be allowed to 
take shape, ``It is absolutely necessary not to let it happen 
that political opposition parties be established.'' That's 
supposed to be in the document.
    First of all, can you confirm the authenticity of the 
document Human Rights Watch has, but I wonder if you can 
confirm the authenticity of the document?
    Ambassador Hill. My understanding is the U.S. Government is 
not in a position to confirm the authenticity of that document.
    Senator Boxer. Are you going to give us an opinion on it at 
some point?
    Ambassador Hill. Well, certainly, we've been--you know, 
we're certainly checking on the authenticity of that, but what 
we are really concerned about, of course, is the fact that the 
Vietnam Government continues to imprison people of conscience 
and deny them their fundamental rights, the right of peaceful 
assembly and the right to express political views, and we have 
focused very much on the list of people of concern, with an 
effort to try to get them out of prison, to get the Vietnamese 
authorities not to abuse such catch-all terms, as this article 
88, which essentially defines that anyone engaged in something 
so-called propaganda can be arrested and imprisoned.
    So we have very much focused on the list of people, but 
also on the system which allows some of these people----
    Senator Boxer. OK.
    Ambassador Hill [continuing]. That can be taken by these 
catch-all provisions.
    Senator Boxer. Well, Human Rights Watch will testify later, 
and we're going to ask them about how they know this is 
authentic, because it's fact that this is authentic. And they 
can prove it's authentic. We're going to see. You ought to take 
another look at this, because, again, you get the sense that 
trade and other things may be trumping this serious violation 
of human rights and freedom of speech and so on.
    Let me just wind up my time by thanking the State 
Department. It has taken me quite awhile, but with the help of 
my wonderful staff and folks over in your shop, we've been able 
to conclude some adoptions that were being held up. It was so 
tragic. These adoptions were going through, and American 
families thought they were going to get the children, and then 
the children got caught up in a horrible bind because there are 
problems over in Vietnam with baby selling and all the rest.
    And so, I was so glad to see that we were able to work with 
your people, and we've freed those children and now they are 
home with their families. But, in writing, rather than taking 
our time today, would you let me know how the Orphans First 
Policy is coming along, and how you feel it may avert the kind 
of problems that we've had before?
    And I very much want to thank you. All my other questions, 
I'll put in writing. Thank you.
    Ambassador Hill. OK. Thank you.
    Senator Boxer. Senator Murkowski.
    Ambassador Hill. Thank you, Madam Chairman. I just want to 
thank your staff for the work we did together on this Orphans 
First Policy, because it was a terrible, terrible situation for 
the parents to wait like this. And I'm glad we were able to get 
through that, and we did that with a lot of cooperation, and we 
will get through some of these problems, as well.
    Senator Boxer. I hope so, because that was a joy to see the 
faces when I saw families united with their children.
    Thank you.
    Senator Murkowski. Ambassador, you had mentioned in not 
only your written, but in your testimony here, as you were 
speaking about the bilateral human rights dialogue, that while 
improvements had been made, they've got to do more, and you had 
emphasized that the dialogue has to focus on concrete action.
    Define ``concrete action'' or what you would anticipate you 
could accomplish in the relatively short term, and whether or 
not you figure you can actually achieve some concrete steps in 
this bilateral human rights dialogue.
    Ambassador Hill. Well, let me just take an example from the 
effort on religious freedom, where we actually looked at the 
number, the sheer number, of registrations, church 
registrations. So we actually had a metric. We were looking at 
how many registrations they were getting accomplished. This is 
really concrete action.
    And then, in that list, we were also concerned about 
whether we could get to some of the places where these 
registrations were to take place, namely the Central Highlands. 
So we insisted on getting access to follow up, to make sure 
these things weren't just being registered and then closed 
again or something.
    So we were able to work, I think, in very concrete terms 
with the government, agree on things that needed to be done, 
and then follow up to verify that they were done. I think we 
can do that kind of thing in a human rights dialogue. And we 
have to, in approaching this--what we want to stress is that we 
want to see visible changes on the ground, and we want to work 
with the Vietnamese authorities on how to accomplish this.
    We don't want a situation where we are wagging our finger 
at them, and they are not responding in any positive way. We 
want to work with them cooperatively. A lot of these issues are 
not just United States issues; these are international issues 
where Vietnam, as it internationalizes its economy, will want 
to have a human rights record and procedures that live up to 
the international standard.
    So we want to work cooperatively with them to get, for 
example, some of these people of concern, of conscience, who 
are on this list, to get them out of prison. There are some 
people who are now eligible for amnesty. We would like to see 
those people released immediately. There are people on that 
list who were put in prison because of free speech. We want 
those people removed.
    So we will work very specifically with specific names to 
try to work through this. But we do need an overall process 
where, as we release some people, others aren't arrested the 
next day, so we do need to address some of these systemic 
issues, such as article 88.
    Senator Murkowski. Well, I appreciate that, and I hope that 
you're making that level of progress on these action items that 
you feel is significant, and certainly encourage you to work 
there.
    I want to ask you just a little bit of a detour question, 
recognizing all of your work with North Korea and the six-party 
talks. Vietnam maintains official relations with North Korea. 
They've got an embassy there in Pyongyang. What help can they 
provide in these talks? And have they been active on the 
sidelines at all? Where are they in this mix?
    Ambassador Hill. Some 3 years ago, Vietnam assisted South 
Korea in taking a couple of hundred North Korean refugees and 
repatriating--or I should say bringing them to the Republic of 
Korea, to South Korea. And when this was done, the North 
Korean/Vietnamese relationship obviously took a turn for the 
worse.
    We think Vietnam did the right thing, and we have 
encouraged them to continue to do that kind of thing. So I 
think doing the right thing with respect to North Korean 
refugees has been an important byproduct of our work with the 
Vietnamese, and also to the South Korean work with the 
Vietnamese. In addition, I think Vietnam, which has gone 
through a very challenging past, has a lot to offer North 
Korea, in terms of what it's been able to do.
    Vietnam is really in the beginning of an economic 
transformation, but for the past 5 years it has begun to put up 
numbers on the order of 7.5 and 8.5 percent economic growth. 
They've opened up the economy to foreign investment. That's the 
kind of move that I think has been very successful for Vietnam, 
that has helped Vietnam taxi its way to the takeoff point to be 
that next Asian country that is going to move.
    I think, given the very difficult past Vietnam has had, 
North Korea could learn a lot from that experience, and I do 
hope the Vietnamese are sharing it with them. In fact, when I 
see the North Koreans tomorrow in Geneva, I might give them a 
little trip report of my recent trip to Vietnam, so that they 
understand that they can change their way, and they can get 
some success.
    Senator Murkowski. So what you're saying, though, is that 
Vietnam has--can be seen as an example by North Korea, but in 
terms of any even sideline activity on the six-party talks, 
there's no engagement there.
    Ambassador Hill. Yes. I'm not sure we need the sideline 
activity, although Vietnam did offer to host and did host a 
bilateral meeting between the Japanese and the North Koreans. I 
think Vietnam, because of historical circumstances, has 
familiarity with the North Koreans and the North Korean 
mindset, and I think certainly any advice they can give the 
North Koreans--when I was in Vietnam, I did talk to the 
Vietnamese officials to bring them up to date on the six-party 
process so that in their dealings with the North Koreans, they 
could be helpful to what we all want to see happen.
    Vietnam has never developed nuclear capabilities or weapons 
capabilities, as the North Koreans are doing, and Vietnam is 
much more successful for that fact.
    Senator Murkowski. Uh-huh. Very quickly, is there an update 
on the status of negotiations with Vietnam for the POW/MIA 
searches that are offshore?
    Ambassador Hill. We are working on the offshore. My 
understanding is that discussions have gone very well, and I 
think I would have to give you an--get you a----
    Senator Murkowski. If you can do that.
    Ambassador Hill [continuing]. Prepared answer. But my 
understanding is that it's going very well.
    [The submitted written answer by Ambassador Hill to the 
above requested information follows:]

    Achieving the fullest possible accounting for those still listed as 
missing from the Vietnam war remains an important component of the 
bilateral relationship. Of the more than 1,300 Americans still listed 
as unaccounted for in Vietnam from the conflict in Indochina, 
approximately 450 were presumed lost in operations off the Vietnamese 
coast. The vast majority of those cases were the result of aircraft 
crashes.
    Since the end of the Vietnam war, the U.S. has undertaken 13 
underwater investigations or attempts to recover the remains of 
Americans believed to have been lost off the coast of Vietnam. The 
ratio of recovery attempts to personnel believed lost over water is low 
because it is extremely difficult--if not impossible--to locate the 
underwater crash sites. Of the operations conducted to date, most of 
which used information from Vietnamese citizens who discovered 
underwater wreckage since the war, only one mission resulted in the 
recovery of identifiable remains. Despite the limited results and the 
difficulty involved, the Joint POW/MIA Accounting Command (JPAC), based 
in Hawaii and with a forward element in Hanoi, routinely conducts one 
extended underwater search operation each year, involving U.S. divers 
and equipment staging from Vietnamese boats. The next such underwater 
search operation off the coast of Vietnam is planned for spring 2009.
    In an attempt to develop more accurate information on underwater 
crash site locations, JPAC and the U.S. Navy made a proposal last year 
to the Government of Vietnam to use a U.S. Navy hydrographic research 
ship for underwater MIA search operations. The Vietnamese have agreed 
in principle, and the two sides are now undertaking the complicated 
planning needed to make such a precedent-setting operation a reality. 
The operation is tentatively set to occur in March-April 2009. Our hope 
is that the data collected by the U.S. Navy ship will provide a basis 
upon which to conduct more effective underwater recovery operations in 
the future.
    Overall, we are pleased with Vietnam's cooperation with the U.S. 
accounting mission to date, as articulated in the Determination of 
Vietnamese Cooperation on POW/MIAs submitted to Congress earlier this 
month. To strengthen further that cooperation, we are urging Vietnam to 
allow greater archival access, including to records pertaining to 
Americans captured, missing or killed in areas of Laos and Cambodia 
under wartime Vietnamese control.

    Senator Murkowski. Good. Thank you, Madam Chair.
    Senator Boxer. Thank you, Senator.
    Senator Webb.
    Senator Webb. Thank you, Madam Chairman. Ambassador, I 
would fully agree with you that if you look back over the span 
of the last 15 years or more, that conditions in Vietnam have 
dramatically improved. When I first went back to the Vietnam 17 
years ago this month, actually, it was a stalling state at that 
time. The educational system had come out of Central Europe. 
The religious institutions were in disrepair. The churches and 
pagodas were overgrown. And particularly, the treatment of the 
people who had been with us was atrocious.
    There have been a couple of contributing factors to the 
change--the economic factors, which are obvious, and the 
strength of the Vietnamese community here in the United States. 
Even during the dark days, one of the real ironies of the post-
Vietnam war was that remittances from this country were 
basically keeping Saigon afloat, to the tune of $\1/2\ billion 
or $1 billion a year at some point.
    It was also because of the right kind of attempt at 
dialogue--the willingness of this government to listen and to 
negotiate increased, since it is a transitional process. The 
one question I would have for you, and I want to hopefully get 
three questions in, is one of the frustrations I have when we 
talk about human rights in Vietnam. As I mentioned in my 
opening statement, we don't distinguish the unique situation of 
Vietnam with other human rights conditions around the world.
    What I mean by that is that there is a special circumstance 
because of the significant percentage of the population that 
was technically aligned with us and, after a Communist 
takeover, suffered a great deal of discrimination, in addition 
to having to go to education camps and new economic zones and 
being precluded from getting jobs and education and those sorts 
of things.
    When you're looking at Vietnam today, do you see that part 
of the equation changing?
    Ambassador Hill. I think some of it is simply changing as 
the years go by, because you have some 60 percent of the 
population born after the Vietnam war. In my four visits there, 
this issue of the discrimination of all of the--of people who 
were on the other side, as you pointed out, this was not a 
United States/Vietnam war.
    I mean, I have raised this issue with people, but I think 
the focus is on the approach to--on the question of whether 
Vietnam is now living up to international standards in its 
human rights, rather than on the effort to address broad 
injustices of the kind you mentioned.
    Senator Webb. Well, if I may make one strong suggestion to 
the professionals in the State Department who work on this 
issue, that they not lose sight of this. Because we are the 
only country that can even raise it. And it goes beyond the 
people who served alongside us. It goes to their children, and 
in some cases, to their grandchildren.
    And you're not going to eliminate this type of 
discrimination where it still exists unless we actually put it 
on the table. I was attempting, actually, during the 
normalization process all those years ago, to try to get a 
provision in the language of a roadmap basically saying that 
you can't discriminate against someone based on a past status. 
And this is a status question, just as apartheid was in South 
Africa.
    Ambassador Hill. OK.
    Senator Webb. One of my feelings about the strongest 
contribution we could make to the continued evolution of 
circumstances in Vietnam is to improve the rule of law, 
economically, commercially, as well as in terms of criminal 
law. I have found in the questions that I've asked when I've 
been over there, and in hearing from people here, for instance, 
in the Appropriations Committee, that there is a receptivity to 
this.
    Vietnam, as you know, is the only country on the Southeast 
Asian Mainland that has an Anglicized alphabet, so it's much 
easier to transition a rule of law that everyone can 
understand. Are you familiar with where those programs are 
right now? We have assistance programs to work with them on 
that.
    Ambassador Hill. We have bilateral assistance programs, and 
I think some of those have been very successful, because I 
think the Vietnamese have very much bought into that, because 
they understand that if they're going to internationalize their 
economy, they need this kind of rules-based economy.
    So our experience has been very positive on this, and we 
would look to expand those sorts of programs.
    Senator Webb. Yes. I think when that sort of openness is 
available, it also goes into how they viewed criminal justice 
in the country, and other things, as well. When you have an 
objective standard where every individual believes that they 
can have their circumstances looked at in front of a court that 
can make a determination rather than behind a closed door, it 
helps the evolution of society in other ways.
    Ambassador Hill. Senator, I completely agree. And I think 
the fact that we address some of these rules-based issues with 
respect to the economy doesn't mean that we're only interested 
in the economy, but we see these as approaches that should be 
in a political or social realm, as well as economic.
    And we certainly monitor very closely how all of our 
assistance programs work. But I think this particular one has 
been working well, and I think we should look to see what more 
we can do in this area.
    Senator Webb. I have a very short period of time, but I 
would like to ask your thoughts on how you would compare the 
overall human rights situation in Vietnam with China.
    Ambassador Hill. Well, I think both countries have 
challenges to meet in human rights, and in particular on these 
rule of law issues you mentioned. I think perhaps China has 
been grappling with them longer than Vietnam has been, and so 
China may be a little further along on some of these issues 
than Vietnam. But I'm certainly not giving China a pass in 
saying that.
    But I think Vietnam, if you look at just the sheer amount 
of time, Vietnam has begun this transformation more recently 
than China, and has to, I think, go further including in the 
economic area than China has gone.
    Senator Webb. Thank you very much. Thank you, Madam Chair.
    Senator Boxer. Thank you, Senator. Thank you so much, 
Ambassador. We really appreciate this and look forward to 
getting some of your answers in writing. And good luck with all 
you're doing. Thank you very much.
    Ambassador Hill. Thank you.
    Senator Boxer. And we will now hear from Supervisor Janet 
Nguyen, a member of the Board of Supervisors of Orange County. 
We welcome her. I'm delighted to have her here. She's going to 
give us a message from the people that she represents back 
home. We are very proud of our Vietnamese community, and we 
welcome you.

STATEMENT OF JANET NGUYEN, MEMBER, BOARD OF SUPERVISORS, ORANGE 
                           COUNTY, CA

    Ms. Nguyen. Thank you, Honorable Chairwoman Boxer. It's an 
extreme honor for me to be invited here today to speak. In my 
oral testimony and written statement, I express concerns 
regarding human rights violations in Vietnam--not as an 
individual, but on behalf of Vietnamese-Americans everywhere.
    About one of every five Vietnamese-Americans in the United 
States resides in Orange County, California. In particular, out 
of over 600,000 residents in my supervisorial district, over 
150,000 are of Vietnamese descent. And the number is increasing 
each year. Orange County is the home to the largest population 
of Vietnamese outside Vietnam. I, myself, am a former 
boatperson.
    My father, as a member of the Army of the Republic of 
Vietnam, fought side by side with American soldiers in 
combating communism. After the fall of Saigon, my uncle was 
summarily and publicly executed. Our family, like those of 
millions of Vietnam's other enemies of the state, was part of 
the outcasts. Political oppression and lack of economic 
livelihood were part of our daily lives. We had no choice but 
to put our lives in providence's hand and cast our lot to whim 
of fate and the current of the sea.
    Therefore, issues of human rights and personal freedom are 
of particular importance to me and my constituents. Since the 
1980s, Vietnam's policy of Doi Moi or New Change has benefited 
that country significantly. Market-oriented policies leading to 
the establishment and promotion of the private sector have 
attracted foreign trade, investment, and technology, with an 
annual economic growth of over 7 percent and trade between 
Vietnam and the United States surpassing $10 billion each year.
    The standard of living for the people of Vietnam has 
improved substantially; however, there are glaring economic 
inequalities and injustices that continue to plague the people 
of Vietnam. Throughout its society, there are no labor rights, 
and political corruption and graft are rampant.
    The cost of this corruption has proved impossibly 
oppressive to the people of Vietnam. The gap between the rich 
bureaucrats and the poor masses increases more and more each 
year. Accommodations are given to large multinational companies 
to create jobs and perpetuate an appearance of openness, but 
the reality for the vast majority of the people there lies in 
stark contrast. Extreme poverty is still commonplace. Human 
trafficking into sex or slave labor shows no signs of ending.
    And the Government of Vietnam has shown little, if any, 
political will in ending this practice. In addition, Vietnam's 
economic integration with the rest of the world has not been 
met with similar progress in meeting the demands for basic, 
universal human rights and civil liberties for the people of 
Vietnam.
    Its people have no opportunity to express their political 
views without risk of being imprisoned, even if the political 
expression was done peacefully. There are oppressive 
restrictions on freedom of the press, speech, and assembly. 
Even the use of the Internet is censored. The people of Vietnam 
have no power to pick or choose their government.
    While there have been bilateral human rights dialogue 
taking place in the past few years, these measures have for all 
intents and purposes been mere window dressing. Despite the 
release of some high-profile prisoners of concern, alleged 
access to prison and the repeal of a dubious Administrative 
Decree 31 that allowed the detention of people and taking of 
personal property without due process, real progress in human 
rights has not been results-based. Whatever progress has been 
only lip service, usually in response to international pressure 
on specific instances.
    Similarly, religious freedom in Vietnam needs to be 
addressed by its government in a tangible and earnest manner. 
Removal of Vietnam's designation as a country of particular 
concern was premature. The quick haste to reward Vietnam after 
only a few nominal measures to portray religious freedom 
encourages that government to play a shell game with respect to 
compliance with the International Religious Freedom Act of 
1998.
    Father Nguyen Ly, a Catholic priest, was sentenced to 8 
years in prison merely for attempting to exercise his 
fundamental human rights to peacefully advocate for change in 
Vietnam. Given no defense lawyer, his guilt was predetermined 
and his mouth was muzzled as he attempted to stand for his 
rights.
    Vietnam continues to repress religious freedom and 
continues to persecute members of the Cao Dai religion, Unified 
Buddhist Church of Vietnam, Hao Hao Buddhists, and the 
Montagnards from the Central Highlands. Le Thi Cong Nhan, 
founder of the Vietnamese Labor Movement, and Nguyen Van Dai, a 
human rights lawyer, were also arrested. Father Ly's conviction 
and the arrests of Ms. Le and Mr. Nguyen were in direct 
contravention of the International Covenant on Civil and 
Political Rights to which Vietnam is a state party. When 
Vietnam joined the World Trade Organization, its membership was 
granted with the assurance that its government would continue 
to improve its human rights record. These recent crackdowns and 
violence are significant steps backward.
    We must continue our vigilance in demanding that the 
commitment made by the Government of Vietnam is kept. Human 
rights and freedom are the core beliefs of our country, and any 
relationship with another government should be ground in those 
basic principles. Vietnam should not be an exception.
    I want to thank you again for giving me this opportunity, 
Senator.
    [The prepared statement of Ms. Nguyen follows:]

   Prepared Statement of Janet Nguyen, Member, Board of Supervisors, 
                           Orange County, CA

    Dear Honorable Chairwoman Senator Boxer and the honorable members 
of the Senate Foreign Relations Subcommittee on East Asian and Pacific 
Affairs.
    It is an honor for me to be invited to speak before this 
subcommittee today. Your work is extremely important to the 600,000-
plus residents in my district, over 150,000 of whom are of Vietnamese 
descent. Orange County is home to the largest population of Vietnamese 
outside of Vietnam. My oral testimony and written statement speak to 
concerns regarding human rights violations in Vietnam, and I speak not 
only for myself as a former Boat Person, but also on behalf of 
Vietnamese-Americans everywhere.
    My father, as a member of the Army of the Republic of Vietnam, 
fought side by side with American soldiers in combating communism. 
After the fall of Saigon, my uncle was summarily and publicly executed. 
Our family, like those of millions of Vietnam's other Enemies of the 
State, was part of the outcast. Political oppression and lack of 
economic livelihood were part of our daily lives. We had no choice but 
to put our life in Providence's hand and cast our lot to the whims of 
fate and the current of the sea. Therefore, issues of human rights and 
personal freedom are of particular importance to me and my 
constituents.
    Since the late 1980s, Vietnam's policy of ``Doi Moi'' or ``New 
Change'' has benefited that country significantly. Vietnam has been 
invited to join many world economic organizations, including the World 
Trade Organization. Since the beginning of this year, Vietnam sits on 
the United Nations Security Council. These achievements reflect the 
significant investment of political goodwill in Vietnam that the U.S., 
including the Senate, has made. Consequently, Vietnam has grown from 
being one of the poorest nations in the world to an economy that has 
grown at an impressive pace, once Vietnam's leaders abandoned their 
Marxist doctrine. Market-oriented policies, leading to the 
establishment and promotion of the private sector, have attracted 
foreign trade, investment and technology. Vietnam is also a member of 
the Association of Southeast Asian Nations (ASEAN) and the Asia Pacific 
Economic Cooperation (APEC).
    Vietnam has an annual economic growth of over 7 percent, behind 
only China in Asia. Per capita income grew from $288 in 1993 to $726 in 
2006. Poverty dropped from 58 percent to 14 percent in 2004, according 
to the U.S. State Department. Bilateral trade between the U.S. and 
Vietnam reached $9.6 billions in 2006. U.S. firms have made over $2.5 
billions in Vietnam since 1988. More than 75,000 Americans visited 
Vietnam in 2006 and over 6,000 student visas were issued to Vietnamese 
Nationals in 2007.
    Militarily, the U.S. and Vietnam have also taken steps toward 
cooperation. Peacekeeping and search-and-rescue through the 
International Military Education and Training program are examples of 
this cooperation. U.S. Navy ships now call at Vietnamese ports, and 
since 1973, remains of 882 Americans have been identified and 
repatriated. The U.S. has also aided Vietnam in addressing health 
issues, such as HIV/AIDS and avian influenza (or the bird flu). 
Relations between the U.S. and Vietnam have warmed, with the two 
countries exchanging visits of high-ranking officials in 2007. However, 
significant, fundamental differences in political philosophy exist 
between the two nations.
                              human rights
    Despite the encouragement and support from the U.S. in many areas 
as described above, Vietnam's lack of progress in many important 
aspects of its society cannot be said as acceptable or destined to be 
successful in the long run. Throughout its society, there are no labor 
rights, and political corruption and graft are rampant. The cost of 
this corruption has proved impossibly oppressive to the people of 
Vietnam. The gap between the rich bureaucrats and the poor masses 
increases more and more each year. Accommodations are given to large 
multinational companies to create jobs and perpetuate an appearance of 
openness, but the reality for the vast majority of the people there 
lies in stark contrast--extreme poverty is still commonplace. Human 
trafficking into sex or slave labor shows no signs of ending, and the 
Government of Vietnam has shown little if any political will in ending 
this practice.
    Each year, Vietnam receives financial assistance from 
organizations, such as the World Bank, Asia Development Bank, and 
nations, such as Japan, Europe and the United States. Vietnamese 
expatriates around the world also remit hard currencies back to family 
members in Vietnam; total in the billions of dollars. The benefits of 
such financial benefits have been bestowed primarily, however, only on 
the bureaucrats and Communist Party leaders. The people of Vietnam are 
forced to eke out a living in a corrupt system that is based mostly on 
patronage with no social safety net. Property rights are almost 
nonexistent. The Economic Index published by the Heritage Foundation in 
2008 places Vietnam's respect for private property rights at a dismal 
10 percent. In its report, the Heritage Foundation indicates that ``the 
judiciary is not independent. Corruption among judges and court clerks 
is common . . . All land belongs to the state.'' Throughout Vietnam, it 
is common to see people, city dwellers as well as villagers, protest in 
the street, demanding the return of their land and property.
    In sum, Vietnam's economic integration with the rest of the world 
has not been met with similar progress in meeting the demand for basic, 
universal human rights and civil liberties for the people of Vietnam. 
Its people have no opportunity to express their political views, 
without risk of being imprisoned even if the political expression was 
done peacefully. There are oppressive restrictions on freedom of the 
press, speech, and assembly. Even the use of the Internet is censored. 
The people of Vietnam have no power to pick or change their government.
    While there have been bilateral human rights dialogue taking place 
in the past few years, these measures have for all intents and purposes 
been mere window-dressing. Despite the release of some high-profile 
prisoners of concern, alleged access to prisons, and the dubious repeal 
of the Administrative Decree 31 that allowed the detention of people 
and taking of personal property without due process, real progress in 
human rights have not been results-based; whatever progress claimed has 
been only lip service, usually in response to international pressure on 
specific instances. In fact, in the beginning of 2007 after Vietnam 
gained admission into the World Trade Organization, it instituted a 
crackdown on dissidents who fought for human rights and democracy in 
Vietnam. Many individuals in the prodemocracy group 8406 and other 
labor groups arrested and imprisoned. Religious leaders and human 
rights advocates who have been either imprisoned or placed under house 
arrest include the Eminency Thich Huyen Quang, the Eminency Thich Quang 
Do, Father Nguyen Van Ly, Attorney Nguyen Van Dai, Attorney Le Thi Cong 
Nhan, and many others. Thirty years of power and having been admitted 
into the world of nations have not diminished the paranoid tendency of 
the Government of Vietnam to resort to totalitarianism and oppression 
in dealing with its people.
                           religious freedom
    Religious freedom in Vietnam needs to be addressed by its 
government in a tangible and earnest manner. From 2004 to 2006, the 
U.S. State Department designated Vietnam as a ``Country of Particular 
Concern'' regarding its blatant violations of international standards 
on religious freedom. During this period, many religious groups were 
harassed and discriminated against, and Vietnam imprisoned 45 known 
religious protesters. Removal of Vietnam's designation in the past year 
and a half as a ``Country of Particular Concern'' was premature. The 
quick haste to reward Vietnam after only a few nominal measures to 
portray religious freedom encourages that government to play a shell-
game with respect to compliance with the International Religious 
Freedom act of 1998. Vietnam needs to simply recognize its people's 
religious freedom, recognize the different religious faiths, and return 
land that was illegally confiscated.
    Father Nguyen Van Ly, a Catholic priest, was sentenced to 8 years 
in prison merely for attempting to exercise his fundamental human right 
to peacefully advocate for change in Vietnam. Given no defense lawyer, 
his guilt was predetermined and his mouth was muzzled as he attempted 
to stand up for his rights. Vietnam continues to repress religious 
freedom and continues to persecute members of the Cao Dai religion, 
Unified Buddhist Church of Vietnam, Hoa Hao Buddhists, and the 
Montagnards from the Central Highlands.
    Le Thi Cong Nhan, founder of the Vietnamese Labor Movement, and 
Nguyen Van Dai, a human rights lawyer, were also arrested. Father Ly's 
conviction and the arrests of Ms. Le and Mr. Nguyen were in direct 
contravention of the International Covenant on Civil and Political 
Rights, to which Vietnam is a state party.
                               conclusion
    Vietnam faces many uncertainties and challenges, without many 
viable alternatives other than to truly open its country and recognize 
the rights of its citizenry. With the population increase that is 
difficult to control and an economy that is largely unregulated, 
Vietnam faces formidable hurdles, such as spiraling inflation and 
rising fuel cost making the everyday life of its people extremely 
difficult. The Government of Vietnam does not have the political will 
to address the political corruption that exists, and the inadequacy of 
its urban planning and regulatory control contributes to the recurrence 
of medical epidemics and extreme pollution. Military aggressiveness has 
also caused needed resources to be diverted to a military buildup, 
further straining the country's ability to address the myriad problems 
it faces. Vietnam needs to get out of the shadow of fear and paranoia 
and join the rest of the world in the light of democracy and freedom.
    When Vietnam joined the World Trade Organization, its membership 
was granted with the assurance that its government would continue to 
improve its human rights records. These recent crackdowns and 
violations are significant steps backward. We must continue our 
vigilance in demanding that the commitment made by the government of 
Vietnam is kept. Human rights and freedom are the core beliefs of our 
country, and any relationship with another government should be 
grounded in those basic principles. Vietnam should not be an exception.

    Senator Boxer. Thank you, Supervisor. It's wonderful to 
have you here. I really do appreciate this. And I'm going to 
place your entire statement, in its entirety, into the record. 
It's very, very compelling, and we so appreciate you're being 
here. Thank you very much.
    Ms. Nguyen. Thank you.
    Senator Boxer. And we're going to call up panel three: Ms. 
Sophie Richardson, Ms. Ann Mills Griffiths, Mr. Do Hoang Diem, 
and Mr. Matthew Daley. We are looking forward to hearing from 
all of you. And we will start with Ms. Sophie Richardson, 
advocacy director, Asia Division of Human Rights Watch.
    Thank you.
    Why don't we start now with Ms. Sophie Richardson? And 
we're going to set the clock for 5 minutes, and hope that you 
can complete your statement in that time. If not, go over a 
minute or two, but then I'll stop you at 7.
    So go ahead, Ms. Richardson, advocacy director of Asia 
Division of Human Rights Watch. We welcome you here.

    STATEMENT OF SOPHIE RICHARDSON, ADVOCACY DIRECTOR, ASIA 
          DIVISION, HUMAN RIGHTS WATCH, WASHINGTON, DC

    Ms. Richardson. Thank you, Madam Chair, for inviting us to 
join you today. While economic engagement and other aspects of 
the United States/Vietnam bilateral relationship have 
flourished, Vietnam's respect for human rights has taken a 
sharp turn for the worse.
    Since mid-2006, we have documented the Vietnamese 
Government's efforts to arrest and imprison more than 40 
peaceful activists, including human rights defenders, 
independent trade union leaders, oppositional political party 
members, members of unsanctioned religious groups, and 
underground publishers.
    Religious leaders who have advocated for human rights, 
democratic reforms, and land rights who have participated in 
peaceful demonstrations have also been imprisoned. These new 
prisoners join more than 350 religious and political prisoners 
sentenced to prison in 2001, mostly Montagnard Christians from 
the Central Highlands. Buddhist monks from the banned Unified 
Buddhist Church of Vietnam, including its two top leaders, 
remain confined to their monasteries under ``pagoda arrest.'' 
We are submitting for the record these partial lists of people 
detained and imprisoned in Vietnam.
    Senator Boxer. We will put those in.

[Editor's note.--The list mentioned above was too voluminous to 
include in the printed hearing but will be maintained in the 
committee's permanent record.]

    Ms. Richardson. Thank you. Vietnamese officials continue to 
publicly assert, as you mentioned earlier, that there are no 
political trials or prisoners of conscience in Vietnam, and 
that only people who are arrested are those who violated 
Vietnamese law. You spoke earlier about this document. I'm 
happy to note that we have verified its authenticity with an 
even higher degree of care than we normally do with documents. 
We've checked with six different sources in several different 
countries, including in Vietnam, and we are quite confident 
that the document is what it presents itself to be.
    It details the conclusions of a Politburo Meeting on August 
6, 2007. And I'd just like to read on excerpt on it.
    Senator Boxer. Please do.
    Ms. Richardson. ``Recently, the disposition of these 
political trials has achieved some degree of success. It has 
the purpose of teaching a lesson to effectively prevent the 
contrarian political activities of the enemy forces while 
they're still in the embryonic stages, not allowing them to 
publicly establish themselves in the country to organize 
violent insurrection in order to overthrow the rule of the 
people. It is absolutely necessary not to let it happen, the 
political opposition parties be established.''
    Aside from the harassment and imprisonment of political 
activists, the Vietnamese Government continues to exert strong 
control over religious activities. It has to be noted that 
religion in Vietnam remains a right that the government grants, 
not one that people fundamentally possess as individuals.
    In June 2007, the Prime Minister calls for the training of 
22,000 new cadres to oversee and monitor religious activities. 
And an updated training manual for local cadre to guide them in 
religious affairs continues to advance the policy that 
religious believers must follow the leadership of the Communist 
Party of Vietnam and contribute to the revolutionary task of 
the people.
    It states that the government will ``implement its 
management
of religion through the leaders of various religions.'' As a 
result of international pressure, and of the United States 
designation of Vietnam in 2004 as a country of particular 
concern, we have seen the release of a handful of religious 
prisoners, and some implementation of reform, such as 
directives that expedite church registration and requirements 
that forbids forced recantations of faith.
    But we know that these abuses continue. And several people, 
including Ambassador Hill, have already enumerated on several 
denominations that continue to suffer persecution. Of serious 
concern to us is the fact that followers of religions that are 
not officially recognized by the government come under 
particular pressure.
    The recommendations we would respectfully make, given the 
United States relationship with Vietnam--it's now Vietnam's 
largest export market--really need to underscore that Vietnam 
needs to make some very serious, significant improvements, or 
it will impinge on the overall bilateral relationship.
    We have six recommendations, and those include that if 
Vietnam does not promptly implement significant tangible 
reforms and end its crackdown on peaceful dissent and 
unsanctioned religious activities, the United States should 
reinstate Vietnam to the list of countries of particular 
concern as a warning that the United States will not tolerate 
the ongoing restrictions on religious freedom.
    The United States must also insist that the Vietnamese 
Government release its hundreds of religious and political 
prisoners, and the United States itself must not be selective 
in advocating for the release of some religious or some 
political prisoners and not others. To distinguish between 
victims who are equally subject to human rights abuse is really 
underlying the cause as a whole.
    The United States should call on Vietnam to remove 
prohibitions on workers forming or joining independent unions, 
and ask the Vietnamese Government specifically for information 
about the whereabouts of labor activist, Le Tri Tue, who 
``disappeared'' in May 2007 after claiming political asylum in 
Cambodia.
    Fourth, the United States and other members of the 
international community should insist that now that Vietnam is 
on the Security Council it cooperate better with its 
international obligations, particularly with respect to 
standing invitations to U.N.'s Special Rapporteurs, 
particularly on religious intolerance, torture, indigenous 
people, and arbitrary detention.
    Fifth, if Vietnam is to be a reliable trading partner, the 
rule of law is essential, and the Vietnamese Government must 
demonstrate its willingness to observe international rules and 
standards. A first step, of course, would be for the Vietnamese 
Government to repeal provisions in the law that criminalize 
peaceful dissent, unsanctioned religious activities, and 
nonviolent demonstrations.
    Last, if concrete progress is not made on human rights 
before May, obviously the next bilateral dialogue should be 
seriously reconsidered. We've seen this happen in China, where 
the government has recently quite cynically offered to restart 
the human rights dialogue. We feel that it is appropriate to be 
equally skeptical about whether having one with Vietnam would 
have any real consequence, or whether it would send the wrong 
signal.
    I'll stop there. We have further recommendations in our 
written testimony, which I'm happy to elaborate on. Thank you 
for inviting us to join you.
    [The prepared statement of Ms. Richardson follows:]

   Prepared Statement of Sophie Richardson, Advocacy Director, Asia 
              Division, Human Rights Watch, Washington, Dc

    The bilateral relationship between the United States and Vietnam 
has steadily improved during the last 20 years. In 1994 the United 
States lifted its trade embargo on Vietnam, normalizing relations in 
1995. The two countries exchanged ambassadors in 1997 and signed a 
Bilateral Trade Agreement in 2001.
    During the last 2 years trade, foreign policy and security ties 
have grown dramatically, with the United States and Vietnam conducting 
historic, high-level state visits with each other, resuming an annual 
human rights dialogue, and embarking on military and antiterror 
collaboration. The week of President Bush's November 2006 visit to 
Hanoi, the United States lifted its designation of Vietnam as a Country 
of Particular Concern for religious freedom violations. Following 
Vietnam's entry into the World Trade Organization in January 2007, the 
United States granted Vietnam permanent normal trade relations status.
    While economic engagement and other aspects of the bilateral 
relationship between the United States and Vietnam flourish, Vietnam's 
respect for human rights has taken a sharp turn for the worse. As a 
state party to the International Covenant on Civil and Political Rights 
(ICCPR), Vietnam is obligated to protect basic rights and freedoms. 
This is all the more important now that Vietnam has been elected to a 
2-year seat on the United Nations Security Council.
        arbitrary arrest, torture, detention, and unfair trials
    Article 14 of the ICCPR states that no one shall be subjected to 
arbitrary arrest or detention. Anyone arrested or detained on a 
criminal charge shall be brought promptly before a judicial officer and 
is entitled to trial within a reasonable time or to release.
    Since mid-2006, the Vietnamese Government has arrested and 
imprisoned more than 40 peaceful activists, including human rights 
defenders, independent trade union leaders, opposition political party 
members, members of unsanctioned religious groups, and underground 
publishers. Religious leaders who have advocated for respect for human 
rights, democratic reforms and land rights, or who have participated in 
peaceful demonstrations, have also been imprisoned.\1\
---------------------------------------------------------------------------
    \1\ Religious leaders imprisoned for nonviolent political 
activities or participation in peaceful demonstrations include ethnic 
Khmer Buddhists, evangelical Christians, and Roman Catholic priest 
Nguyen Van Ly.
---------------------------------------------------------------------------
    These new prisoners join more than 350 religious and political 
prisoners sentenced to prison since 2001, mostly Montagnard Christians 
from the Central Highlands. Buddhist monks from the banned Unified 
Buddhist Church of Vietnam, including its top two leaders, remained 
confined to their monasteries under ``pagoda arrest.''
    There is compelling evidence of torture and other mistreatment of 
detainees. Prison conditions are extremely harsh and fall far short of 
international standards. We have received reports of solitary 
confinement of detainees in cramped, dark, unsanitary cells and of 
police beating, kicking, and using electric shock batons on detainees, 
or allowing inmates or prison gangs to carry out beatings of fellow 
prisoners with impunity.
    We are submitting for the record partial listings of people 
detained and imprisoned in Vietnam.
No political trials?
    Vietnamese officials continue to publicly assert that there are no 
political trials or prisoners of conscience in Vietnam and that the 
only people who are arrested are those who have violated Vietnamese 
laws.
    In a press briefing last month, Ministry of Foreign Affairs 
spokesman Le Dzung asserted once again that there is ``no political 
crackdown'' taking place in Vietnam and that no one is arrested for 
their political or religious beliefs. ``The State of Vietnam always 
respects the rights to freedom and democracy of all citizens,'' he 
said.
    In Vietnam people can be sent to prison for exercising their basic 
rights to peaceful expression, association, and assembly. This is in 
violation of international human rights conventions to which Vietnam is 
a state party, such as the ICCPR.
    Vietnam's Penal Code lists vaguely worded ``national security'' 
crimes under which peaceful critics have been imprisoned, such as 
conducting propaganda against the government (article 88); ``abusing 
democratic freedoms'' of speech, press, belief, religion, assembly, and 
association to ``infringe upon the interests of the State'' (article 
258); ``undermining the unity police'' (article 87); ``disrupting 
security'' (article 89); ``causing public disorder'' (article 245), and 
``spying'' (article 80).
    In addition, Vietnamese law continues to authorize arbitrary 
detention without trial. Administrative detention decree 31/CP was 
repealed in 2007, but a more repressive law, Ordinance 44, authorizes 
placing people suspected of threatening national security under house 
arrest or in detention without trial in Social Protection Centers, 
rehabilitation camps, or mental hospitals.
    A recently leaked internal document from the Communist Party of 
Vietnam (VCP) unequivocally establishes that ``political trials'' are 
conducted in Vietnam. I quote from a translation of the confidential 
document, which we have determined to be authentic. It details the 
conclusions of a Politburo meeting of August 6, 2007:

          Recently, the disposition of these political trials has 
        achieved some degree of success. It has the purpose of making 
        an example or of teaching a lesson, to effectively prevent the 
        contrarian political activities of the enemy forces while they 
        are still in the embryonic stages, not allowing them to 
        publicly establish themselves in the country to organize 
        violent insurrection, in order to overthrow the rule of the 
        people.
          Therefore, we need to fortify the security measures to ensure 
        our political stability, peaceful order in society and to 
        protect the rule of socialism, to resolutely contribute to the 
        economic and social development, to build a political system 
        and promote the strength of the whole solidarity bloc of our 
        Nation's populace, to ensure the perpetuation and stability of 
        socialism. Our teams of cadres and soldiers who specialize in 
        the ad-hoc task forces have made efforts in the handling of the 
        political trials. . . .
          However, the quality and effectiveness of the execution of 
        political cases have not met the requirements to enable the 
        struggle to prevent and deal with these crimes. . . .
          In the near term, the reactionary antistate activities from 
        both inside and outside the country will continue unabated and 
        resolute. They will conspire with ruses and innovative and 
        refined methods, armed with insidious intentions in order to 
        successfully organize loyal opposition parties inside the 
        country to provide support for their radical and extremist 
        counterparts to utilize international forums on democracy and 
        human rights, religions and races to strengthen their 
        reputation, slander and make false accusation against the state 
        in our national policy regarding the great solidarity of our 
        people; they will increase domestic infiltration activities, 
        conducting espionage inside various central and local agencies. 
        They will utilize IT [information technology] and 
        telecommunication in their intention to seek the destruction of 
        socialism. Therefore, to fight and defeat the attack plot of 
        the enemy forces is our first line of defense, urgent and 
        immediate. Long-term, difficult and complex tasks still lie 
        ahead requiring the effort of the whole party and the people, 
        where we cannot be vague, drop our guard or leaning to the 
        right in this effort. . . .
          The administrative execution of the arrests, prosecution and 
        trials of these reactionary and opportunist elements is 
        necessary but it needs to be weighed carefully on many fronts; 
        to apply uniformly various fighting measures and techniques 
        such as political, rhetorical, argumentative and professional, 
        which at once should be firm, responsive and intelligent: To 
        expose the plot and nature of the enemy forces, to isolate the 
        recalcitrant leaders, to wrest the people who are being pulled 
        by the other side and try to win their sympathy, to limit the 
        spread of false ideas in the population about democracy, human 
        rights, religious freedom, which impacts negatively on the 
        Party and the State foreign policy.\2\
---------------------------------------------------------------------------
    \2\ Vietnam Communist Party, ``Notice: Conclusion of the Political 
Party concerning raising the quality and effectiveness in the execution 
of the political trials in the face of new development,'' Hanoi, 
September 12, 2007. Disseminated by the People's Democratic Party in 
February 2008.

    The Politburo congratulates the public security police for cleverly 
handling some of these ``political'' cases while noting weaknesses in 
the handling of other cases, most notably instances in which defendants 
were able to respond strongly during their trials.
    Finally, the Politburo spells out the order that opposition 
political parties are to be neutralized: ``It is absolutely necessary 
not to let it happen that political opposition parties be established.
Arrests and trials continue
    While high-profile arrests may appear to have abated recently, this 
is in part due to the fact the most of the opposition parties, 
independent trade unions, and prodemocracy bulletins that emerged 
during the brief opening of the political space in Vietnam in 2006 have 
now been forced underground or collapsed after their key leaders and 
founders were imprisoned, decided to cease their activities or engage 
in self-censorship, or were forced to flee the country.
    The government continues to try to silence its critics by isolating 
them, cutting their phone lines, monitoring their Internet usage, 
keeping them under surveillance, having them removed from their jobs, 
and subjecting them to verbal abuse in public meetings orchestrated by 
authorities or physical attacks by police or civilians working on their 
behalf.
    Despite the sense of relative calm in recent weeks, however, the 
arrests, harassment and political trials of activists have not stopped.
    We have learned that just last week, Ms. Bui Kim Thanh, champion of 
the farmers' movement for settlement of land conflicts and lawyer for 
the opposition Dang Dan Chu 21 (Democracy 21) party, was arrested by 
police once again, on March 6, and involuntarily committed to Bien Hoa 
mental hospital. She was previously involuntarily committed at the same 
institution for more than 9 months after police arrested her in 
November 2006 at the time of the Asia Pacific Economic Cooperation 
(APEC) summit in Hanoi.
    Next week, on March 18, Internet reporter Truong Minh Duc from the 
opposition Vi Dan (Populist) party is expected to go to trial in Kien 
Giang province on charges of ``abusing democratic freedoms,'' most 
likely for his political views and coverage of bureaucratic corruption.
                          freedom of religion
    Aside from harassment and imprisonment of political activists, the 
Vietnamese Government continues to exert strong control over religious 
activities, as outlined in a June 2007 decision by the Prime Minister 
calling for the training of 22,000 cadre to oversee and monitor 
religious matters.
    An updated training manual for local cadre to guide them in 
religious affairs continues to advance the policy that religious 
believers must follow the leadership of the Communist Party of Vietnam 
and contribute to the revolutionary task of the people. It states that 
the government will ``implement its management of religion through the 
leaders of the various religions.\3\
---------------------------------------------------------------------------
    \3\ International Society for Human Rights and Christian Solidarity 
Worldwide, ``Analysis: 2007 Revision of Internal Training Manual 
Concerning the Task of the Protestant Religion in the Northern 
Mountainous Region,'' February 2008, p. 4.
---------------------------------------------------------------------------
    As a result of international pressure and from the United States 
designation of Vietnam in 2004 as a Country of Particular Concern for 
religious freedom violations, the Vietnamese Government released a 
handful of religious prisoners and implemented some reforms, such as 
directives that expedite church registration requirements and forbid 
forced recantations of faith.
    The 2004 Ordinance on Beliefs and Religions affirms the right to 
freedom of religion, as provided for in article 18 of the ICCPR. 
However, it requires that all religious groups register with the 
government in order to be legal, and bans any religious activity deemed 
to cause public disorder, harm national security and national unity, or 
``sow divisions.''
    While a number of new religious organizations have been allowed to 
register, the government continues to apply strict religious 
restrictions on members of the Unified Buddhist Church of Vietnam, 
ethnic Khmer Theravada Buddhists, Hoa Hao Buddhists, some Mennonite 
churches, and evangelical Christians in the northern and central 
highlands.\4\
---------------------------------------------------------------------------
    \4\ U.S. Commission on International Religious Freedom, Letter to 
Secretary Rice with 2007 CPC recommendations, May 1, 2007.
---------------------------------------------------------------------------
    Followers of religions that are not officially recognized by the 
government continue to be persecuted. Security officials disperse their 
religious gatherings, confiscate religious literature, and summon 
religious leaders to police stations for interrogation. Buddhist monks 
from the banned Unified Buddhist Church of Vietnam, including its 
Supreme Patriarch, Thich Huyen Quang, and second-ranking leader, Thich 
Quang Do, have been confined without charges to their monasteries for 
years, under police surveillance.
          controls over freedom of expression and information
    Article 19 of the ICCPR provides for the right to freedom of 
expression. In contrast, Vietnam's 1993 Law on Publications prohibits 
private ownership of media and publishing houses and strictly bans 
publications that oppose the government, divulge state secrets, or 
disseminate ``reactionary'' ideas. According to Vietnam's 1989 Press 
Law (as revised in 1999), the role of the media is to ``disseminate, 
popularize and contribute to the elaboration and protection of the 
party's lines, directions and policies'' and ``building and defending 
the Socialist Fatherland [of] Vietnam.''
    Criminal penalties apply to publications, Web sites, and Internet 
users that disseminate information that opposes the government, 
threatens national security, or reveals state secrets. In addition, the 
government controls the Internet by monitoring e-mail and online forums 
and blocking Web sites covering human rights, religious freedom, 
democracy groups, and independent media.
    Internet users such as democracy activist Truong Quoc Huy have been 
detained or imprisoned for alleged national security crimes after using 
the Internet to disseminate views disfavored by the government. Truong 
Quoc Huy was first arrested in 2005 and detained for more than 8 months 
on charges of attempting to overthrow the government (article 79 of the 
Penal Code) after participating in prodemocracy discussion forums on 
the Internet. He was subsequently rearrested and sentenced in January 
2008 to 6-years' imprisonment and 3-years' house arrest for ``abusing 
democratic rights'' (article 258) for allegedly distributing leaflets 
criticizing the Communist Party of Vietnam.
          restrictions on freedom of association and assembly
    Article 21 of the ICCPR recognizes the right of peaceful assembly, 
and article 22 provides for the right to freedom of association with 
others. In Vietnam, however, political parties, unions, and 
nongovernmental human rights organizations that are independent of the 
government, the party or mass organizations controlled by the party are 
not allowed to operate.
    Public demonstrations are rare, especially after government 
crackdowns against mass protests in the Central Highlands in 2001 and 
2004. Decree 38 bans public gatherings in front of places where 
government, party, and international conferences are held, and requires 
organizers of public gatherings to apply for and obtain government 
permission in advance. Despite the restrictions, farmers from the 
provinces are increasingly conducting peaceful protests in provincial 
towns, Ho Chi Minh City or Hanoi against government land seizures. In 
December 2007, thousands of Catholics in Hanoi participated in 
unprecedented rallies and prayer vigils for more than a month to call 
for return of church property confiscated by the Vietnamese Government 
in the 1950s. In late January 2008, municipal officials ordered the 
demonstrators to disperse and launched an investigation into crimes 
allegedly committed during the course of the protests, while reportedly 
pledging to return the property to the church.
                              labor rights
    In 2007 the government announced it would raise the minimum monthly 
salary for workers in foreign companies for the first time in 6 years. 
Despite this, unprecedented numbers of workers--mostly at South Korean, 
Japanese, Taiwanese, and Singaporean enterprises--have continued to 
strike for better pay and working conditions.
    A new draft law would fine workers who participate in ``illegal'' 
strikes not approved by the VCP-controlled union confederation. Decrees 
issued in 2007 enable local officials to force striking workers back to 
work, and ban strikes in strategic sectors including power stations, 
railways, airports, post offices, and oil, gas, and forestry 
enterprises.
    Members of independent trade unions are arrested, harassed, and 
intimidated, with at least six members of newly formed independent 
trade unions such as the United Worker-Farmers Organization arrested 
since 2006. Le Tri Tue of the Independent Workers' Union 
``disappeared'' in May 2007 after claiming political asylum in Cambodia 
with the United Nations High Commissioner for Refugees (UNHCR). He was 
presumed to have been abducted and sent to prison in Vietnam.
                conclusions and general recommendations
    Although Vietnam has made important strides in poverty reduction 
and economic reforms, the country remains a one-party state that denies 
its citizens the freedoms of speech, press, and religion, as well as 
the right to form independent trade unions and political parties. 
Vietnam's eagerness to engage with the global economy must be linked 
with respect for basic human rights and rule of law. Commitments such 
as those made last week by the Deputy Minister of Foreign Affairs, who 
asserted at the United Nations Human Rights Council that Vietnam is 
open and willing to engage more deeply in international dialogue and 
cooperation on human rights, must be vigorously pursued. This is 
especially important now that Vietnam has been elected to the U.N. 
Security Council.
    The United States, which is now Vietnam's largest export market, 
needs to send a clear signal to Vietnam that its increasingly blatant 
disregard for its international human rights commitments will affect 
other aspects of the evolving bilateral relationship. Because of its 
growing economic ties with Hanoi, the United States needs to take a 
firm stance with Vietnam regarding human rights.
    We therefore respectfully recommend that:
    1. If Vietnam does not promptly implement significant, tangible 
reforms and end its crackdown on peaceful dissent and unsanctioned 
religious activities, the United States should reinstate Vietnam on its 
list of Countries of Particular Concern as a warning that the United 
States will not tolerate restrictions on religious freedom.
    2. The United States must insist that the Vietnamese Government 
release the hundreds of religious and political prisoners in prison. In 
addition, the United States itself must not be selective in advocating 
for the release of religious and political prisoners, and must not 
distinguish between religious and political prisoners--both are equally 
victims because of their exercise of fundamental human rights.
    3. The United States should call on Vietnam to remove prohibitions 
on workers forming or joining independent unions, and ask the 
Vietnamese Government for information about the whereabouts of labor 
activist Le Tri Tue who ``disappeared'' in May 2007 after claiming 
political asylum in Cambodia.
    4. The United States and other members of the international 
community should also insist that as a member of the Security Council, 
Vietnam must cooperate more fully with the United Nations' human rights 
mechanisms and special rapporteurs, none of whom have been granted an 
invitation to Vietnam since 1998. Specifically, Vietnam should promptly 
issue standing invitations to the U.N. special rapporteurs on religious 
intolerance, torture, and indigenous people, and the U.N. Working Group 
on Arbitrary Detention.
    5. If Vietnam is to be a reliable trading partner, the rule of law 
is essential, and the Vietnamese Government must demonstrate its 
willingness to observe international rules and standards, including 
those governing respect for fundamental human rights. A first step 
would be for the Vietnamese Government to repeal provisions in 
Vietnamese law that criminalize peaceful dissent, unsanctioned 
religious activity, and nonviolent demonstrations and rallies.
    6. If concrete progress is not made on human rights before the next 
bilateral dialogue, the United States should seriously reconsider 
whether to proceed with the annual exercise.
    More specific recommendations for human rights issues that the 
United States should raise with Vietnam follow below.
                            recommendations
1. Arbitrary arrest, torture, detention, and unfair trials
  <bullet> Immediately release or exonerate all people imprisoned, 
        detained, or placed under house arrest, administrative 
        detention, or involuntary commitment to mental hospitals for 
        the peaceful expression of political or religious beliefs.
  <bullet> Amend provisions in domestic law that criminalize dissent 
        and certain religious activities on the basis of imprecisely 
        defined ``national security'' crimes. Specifically:

    --Amend or repeal Vietnam's Criminal Code to bring it into 
            conformity with international standards.
    --Eliminate ambiguities in the Criminal Code's section on crimes 
            against national security to ensure that these laws cannot 
            be applied against those who have exercised their basic 
            rights to freedom of expression, assembly, religion and 
            belief, and association.
    --Amend or repeal provisions in the Ordinance on Religion, which 
            restrict and criminalize the right to peaceful membership 
            in independent religious groups.

  <bullet> Repeal Ordinance 44, which authorizes administrative 
        detention, house arrest, or detention in Social Protection 
        Centers and psychiatric facilities for 2-year renewable 
        periods, without trial, for individuals deemed to have violated 
        national security laws.
  <bullet> Extend a standing invitation to the U.N. Working Group on 
        Arbitrary Detention, which visited Vietnam in 1994, and the 
        Special Rapporteur on Torture to visit Vietnam.
2. Freedom of religion
  <bullet> Release people who have been imprisoned or placed under 
        house arrest for their religious beliefs, including members of 
        the Unified Buddhist Church of Vietnam, ethnic Khmer Buddhists, 
        ethnic minority Christians, Roman Catholics, and members of the 
        Cao Dai and Hoa Hao religions.
  <bullet> End the restrictions on peaceful gatherings or activities by 
        religious groups that are not registered with the government; 
        pressure to join government-authorized churches; and abusive 
        police surveillance and harassment of religious leaders and 
        followers.
  <bullet> Ensure that churches and religious organizations seeking to 
        register with the government are granted approval for 
        ``religious operations'' in general and not just for ``specific 
        activities.''
  <bullet> Allow independent religious organizations to freely conduct 
        peaceful religious activities and govern themselves. Recognize 
        the legitimate status of churches and denominations that do not 
        choose to join or affiliate with one of the officially 
        authorized religious organizations whose governing boards are 
        under the control of the government. Allow these religious 
        organizations to register with the government and operate 
        independently of already registered religious organizations if 
        they choose to do so.
  <bullet> Invite the U.N. Special Rapporteur on Religious Intolerance 
        to return to Vietnam.
3. Controls over freedom of expression and information
  <bullet> Amend provisions of Vietnam's Criminal Code that restrict 
        and criminalize the right to peaceful dissent, particularly the 
        provisions on national security.
  <bullet> Bring press laws into compliance with article 19 of the 
        ICCPR.
  <bullet> Authorize the publication of independent, privately run 
        newspapers and magazines.
  <bullet> Remove filtering, surveillance, and other restrictions on 
        Internet usage and release people imprisoned for peaceful 
        dissemination of their views over the Internet.
4. Restrictions on freedom of association and assembly
  <bullet> Permit individuals the right to associate freely and 
        peacefully with others of similar views regardless of whether 
        those views run counter to the political or ideological views 
        approved by the party and state.
  <bullet> Bring legislation regulating public gatherings and 
        demonstrations into conformity with the rights of free 
        association and assembly in the ICCPR.
  <bullet> Address rural grievances without violating the rights of 
        petitioners by strengthening the legal system, the independence 
        of the judiciary, and making legal services available to the 
        rural poor.
5. Labor Rights
  <bullet> Immediately and unconditionally release all persons detained 
        for peaceful activities to promote the rights of workers to 
        freely associate, including the right to form and join trade 
        unions of their own choice; to peacefully assemble to protect 
        and advance their rights; and to exercise their right to 
        freedom of expression on behalf of workers and their concerns.
  <bullet> Recognize independent labor unions.

    Senator Boxer. Well, thank you. I am going to ask you 
later, all of you, for your recommendations. Thank you very 
much.
    We'll hear from Ms. Ann Mills Griffiths, executive director 
of National League of POW/MIA Families in Arlington. We welcome 
you, ma'am.

STATEMENT OF ANN MILLS GRIFFITHS, EXECUTIVE DIRECTOR, NATIONAL 
           LEAGUE OF POW/MIA FAMILIES, ARLINGTON, VA

    Ms. Griffiths. Thank you, Madam Chair. Thank you very much. 
It's a pleasure to be here. I have represented the POW/MIA 
Families for the three decades that encompass the entire post-
war relationship between the United States and Vietnam. The 
issue I represent played a central role in the normalization 
process, as Vietnam has agreed and indicated it was their 
bridge to normalization.
    There were fits and starts, but little real priority on 
obtaining answers until 1981. President Reagan came into office 
with commitment to this issue that was well-known to those of 
us in California that were then involved in POW/MIA matters. 
The policies developed and improved and implemented from 1981 
to 1989 formed a solid basis on which to build a mutually 
beneficial bilateral relationship.
    In the lead was the POW/MIA Interagency Group, on which I 
served as the only nongovernment member. Without diplomatic 
relations, I often served as a direct communication link 
between Washington and Hanoi, and usually in New York City. One 
such private meeting with a Politburo member brought the first 
bilateral dialogue between senior U.S. officials and the 
Government of Vietnam, a sensitive thing at the time, because 
of Vietnam's occupation of Cambodia and the sensitivity of the 
ASEAN countries to any direct dialogue, in the mistaken belief, 
actually, that it might have meant a premature, backchannel 
normalization between the United States and Vietnam.
    A September 1982 League Delegation to Vietnam and Laos sort 
of broke things open. Progress in those early years was very 
hard-earned and sporadic, but our expectations then and now 
were realistic and based squarely on U.S. Government evidence 
and analysis. We've always known that answers could only come 
through the government-to-government process, yet I could paper 
my walls with agreements reached with and broken by Vietnam.
    There were many disappointments, but none more damaging 
than United States and Vietnamese violations of the 1991 
roadmap that Senator Webb alluded to, which was also developed 
by the POW/MIA Interagency Group on which I served.
    The three-phase roadmap specified actions by Vietnam to 
address accounting issues, with reciprocal U.S. steps leading 
to withdrawal of Vietnamese forces from Cambodia and 
normalization of U.S.-SRV relations. With agreement to proceed 
along the roadmap course of action, Vietnam began withdrawing 
troops and pressure rose within the U.S. bureaucracy on the 
need to respond, despite Vietnam's failure and stalling on POW/
MIA provisions.
    And this process continued to erode, with the altered 
priorities that came in in 1993 and led fairly quickly to 
normalization of political rations in 1995, a bilateral trade 
agreement in 2001, and permanent normal trade relations in 
2006. But still, the League has consistently relied on 
sustainable official information.
    Since 1982, I have conveyed these facts and our 
expectations to officials in Hanoi, Vientiane, and Phnom Penh; 
most recently, in October 2006, I think my 29th visit to Hanoi 
since 1982. Each time, we have commended Vietnam for their 
support in joint field operations, past and present, and that 
aspect is going fairly well. It's improved dramatically in 
scope and quality, especially when compared to early efforts, 
which were really more focused on the perception of cooperation 
and openness, whether real or not, to justify moving forward on 
the political and economic objectives.
    But that's all past, and today we have 820 U.S. personnel 
that have been accounted for since the actual end of the war in 
1975, with the assistance of the Vietnamese, Lao, and Cambodian 
Governments, 569 of them from Vietnam. Though this hearing is 
focused solely on United States/Vietnam relations, I would be 
remiss if I failed to mention and to commend Cambodia for truly 
unfettered cooperation, and Laos for extraordinary efforts over 
the years, always working to improve the process and be 
responsive to the families.
    It is remarkable, considering the fact that 90 percent of 
the 1,763 that are still listed as missing from the Vietnam war 
were either lost in Vietnam itself, or in areas of Cambodia and 
Laos that were under Vietnam's wartime control. Over the years, 
we've overcome countless obstacles, including 1978 speculation 
that all the records were eaten by bugs and that weather and 
other elements had destroyed all the remains, even disbelief 
that Vietnam was storing remains in large numbers.
    These excuses have all proven to be false. Archived 
material that we have been able to get has reinforced the long-
held analysis, and Vietnam's postwar repatriation of stored 
remains began in earnest in the mid-1980s. It's now widely 
accepted that much more can be achieved jointly and 
unilaterally by Vietnam.
    Today's challenges are most succinctly outlined in the 
State Department's Determination to Congress. Although they 
must say that Vietnam is fully cooperating in good faith on the 
accounting effort--otherwise the relationship would revert to 
prenormalization levels, which is absurd--there was language 
added in 2002 that specifically lays out four steps that need 
to be followed by Vietnam, unilaterally taken by Vietnam, and 
would, in fact, bring about the fullest possible accounting.
    Without those efforts, joint operations can never reach 
that goal. And those steps are outlined in the full testimony. 
Again, I stress accounting goals can't be obtained without 
those steps, so I would like to call on Congress, and have 
articulated this more directly in the full testimony, asking 
for some--for the Congress--in fact, all officials of the 
United States Government to make a unified effort to press 
Vietnam to move on those four actions.
    It's not that they're difficult. They're not difficult and 
sensitive like many of the human rights steps that need to be 
taken, that leaders in Hanoi may consider potentially dangerous 
to their control. But these POW/MIA accounting steps are just 
being ignored and overlooked.
    And I would disagree, unfortunately, with Secretary Hill's 
comment in response to Senator Murkowski that the U.S. Navy 
ship effort for underwater recoveries is going well; frankly, 
it's not. But that was as much the fault of U.S. officials and 
the bureaucracy as it was the Vietnamese; although, the 
Vietnamese have balked at implementing the agreements that they 
pledged, and that needs to be pursued further.
    Thank you, Madam Chairman.
    [The prepared statement of Ms. Griffiths follows:]

Prepared Statement of Ann Mills Griffiths, Executive Director, National 
               League of POW/MIA Families, Arlington, VA

    Thank you, Madam Chairman, members of the subcommittee, for 
inviting League participation in this hearing.
    I'm pleased to be able to join you and give the views of the 
Vietnam war POW/MIA families whom I have represented for three decades, 
though my personal involvement began much earlier. On September 21, 
1966, my brother, LCDR James B. Mills, USNR disappeared in an F4B 
flying off the USS Coral Sea over northern Vietnam, his second such 
tour of duty, the first being on the USS Midway. He deployed from 
Alameda Naval Air Station, listing Bakersfield, CA, as his home of 
record, the State where the vast majority of the extended Mills family 
still resides.
    These three decades encompass the entire spectrum of the postwar 
bilateral relationship between Vietnam and the United States. The issue 
I represent played a central role in the normalization process and its 
evolution. Vietnam agrees, citing the POW/MIA issue as their bridge to 
normalization of relations.
    The League did not support immediate post-war normalization of 
relations, due to Vietnam's failure to implement provisions in the 1973 
Paris Peace Accords calling for a full accounting for unreturned 
American POW/MIAs. The process became one of fits and starts, dialogue 
and movement, stalling, backtracking and resumption, but not with 
focused priority on obtaining answers until 1981. President Reagan came 
into office with a commitment to this issue that was well known to the 
returned POWs, as it was to the MIA families, especially those of us in 
California.
    The policies developed, approved, and implemented from 1981-1989 
formed a solid basis on which to build a mutually beneficial bilateral 
relationship. In the lead throughout that time was the POW/MIA 
Interagency Group, on which I served as the only nongovernment member. 
Without diplomatic relations, I frequently served as a direct 
communication link between Washington and Hanoi, most often in New York 
City. Such a meeting with the late Vietnamese Deputy Prime Minister and 
Foreign Minister Nguyen Co Thach brought subsequent bilateral 
discussions with senior U.S. officials, a sensitive prospect at the 
time due to Vietnam's military occupation of neighboring Cambodia. All 
members of the Association of Southeast Asian Nations (ASEAN) strongly 
objected to Vietnam's presence. My participation in such high level 
discussions offered assurance that the primary purpose was 
humanitarian, not, as ASEAN could have thought, a backdoor, premature 
effort by the United States to normalize bilateral U.S.-SRV relations. 
Yes; those were unique times . . . not yet adequately chronicled.
    A September 1982 League delegation to Vietnam and Laos was credited 
with jump-starting cooperation between these two governments and the 
United States. Progress during those early years was hard-earned and 
sporadic, but the families' expectations, with very few exceptions, 
were realistic and based squarely on U.S. Government evidence and 
analysis. We have always recognized that this issue could be solved 
only through government-to-government efforts; yet I've often said I 
could paper my walls with agreements reached with and broken by 
Vietnam. There were frequent disappointments, none more damaging to the 
issue than United States and Vietnamese violations of the 1991 
``roadmap'' to normalization of relations developed by the POW/MIA 
Interagency Group.
    The three-phase ``roadmap'' specified actions by Vietnam to address 
accounting issues and reciprocal steps by the United States, leading to 
withdrawal of Vietnamese forces from Cambodia and normalization of 
bilateral U.S.-SRV relations. With agreement to proceed along the 
``roadmap'' course of action, Vietnam began withdrawing troops from 
Cambodia, and pressure rose within the U.S. bureaucracy on the need to 
respond positively, despite Vietnam's stalling on specified POW/MIA 
accounting steps. The process continued to erode with the altered 
priorities that came in 1993, leading fairly quickly to normalization 
of political relations in 1995, a bilateral trade agreement in 2001, 
and permanent normal trade relations (PNTR) in 2006.
    Throughout these years, the League has relied on sustainable 
information provided by the U.S. Government. Since 1982, I have 
conveyed these facts and our well-founded expectations to officials in 
Hanoi, Vientiane, and Phnom Penh, most recently in October 2006. I 
believe that was my 29th visit to Hanoi, a beautiful, historic city. 
I've also visited Bangkok, Moscow, and elsewhere to appeal for help 
from those willing and able. Each time, the League commended Vietnam 
for support provided to joint field operations, past and present.
    The joint field operations aspect of the accounting process has 
improved dramatically in quality and scope. Our highly skilled and 
motivated personnel in Hanoi, Vientiane, Bangkok, and Phnom Penh 
continue to find ways to make improvements. This is especially true 
when compared with efforts in the early 1990s that focused more on form 
than substance in an effort to visibly demonstrate cooperation and 
openness, whether or not real. At the time, the higher priority was 
generating support for political and economic objectives, never fully 
grasping that pursuing POW/MIA accounting and those priorities was, in 
reality, quite doable and complimentary.
    But that is past, and today we have 820 U.S. personnel returned and 
accounted for since the actual end of the war in 1975, with the 
assistance of the Vietnamese, Lao, and Cambodia Governments, 569 of 
them from Vietnam. Remains of another 63 U.S. personnel were recovered 
and identified before the end of the war, but without the bilateral 
cooperation that is the subject of today's hearing.
    In that regard, and even though this hearing is focused solely on 
the United States-Vietnam relationship, I would be remiss if I failed 
to commend Cambodia for its unfettered cooperation and Laos for the 
extraordinary effort they have made over the years, always working to 
improve the process and be responsive to the families. That is 
especially true when considering the fact that approximately 90 percent 
of all the 1,763 still listed as unaccounted for from the Vietnam war 
were lost in Vietnam or in areas of Cambodia and Laos under Vietnam's 
wartime control.
    Over the years, we have overcome countless obstacles that were 
raised, either in this country or overseas. These ranged from 
speculation in 1978 that bugs had probably eaten the archival records 
and the elements had ravaged most of the remains, to disbelief that 
Vietnam was storing large quantities of remains. These excuses have 
been proven false. Sufficient archival material has been provided to 
reinforce long-held analysis on Vietnam's ability to provide relevant 
archival documents, and Vietnam's postwar repatriation of stored 
remains began in earnest in the mid-1980s. It is now widely accepted: 
Much can yet be achieved jointly and unilaterally by the Government of 
Vietnam.
    Today's challenges are most succinctly outlined in the State 
Department's determination just sent to Congress assessing the level of 
Vietnam's cooperation, as required by section 109 of the Department of 
State, Foreign Operations and Related Programs Appropriations Act, 2008 
(P.L. 110-161) The standard determination language citing Vietnam as 
``fully cooperating in good faith'' on the accounting effort lists some 
specific criteria that have not been met, but the precise language is 
required or the bilateral relationship would revert to prenormalization 
levels. That would be absurd, and no objective observer or participant 
would support such a drastic course. The most helpful aspect of this 
required determination was added by President Bush in 2002, outlining 
how cooperation can be improved.
    Originally signed by the President in his certification in 2002, 
since signed by the Secretary of State, the determination explains: 
``To further strengthen that cooperation, however, I urge Vietnam to 
work aggressively to improve tangibly its unilateral provision of POW/
MIA-related documents and records, focused initially on archival data 
pertaining to Americans captured, missing, or killed in areas of
Laos and Cambodia under wartime Vietnamese control. Vietnam should also 
focus greater attention on locating and providing information on 
discrepancy cases, with priority on those last known alive in captivity 
or in immediate proximity to capture, and to locating and repatriating 
the remains of those who died while in Vietnamese control that have not 
yet been returned. I also call upon Vietnam to continue permitting our 
recovery teams to have access to restricted areas for the sole purpose 
of conducting our humanitarian accounting operations.''
    The determination concludes with commitment and a pledge of 
continued priority: ``Finally, in making this determination, I wish to 
reaffirm my continuing personal commitment to the entire POW/MIA 
community, especially to the immediate families, relatives, friends, 
and supporters of these brave individuals, and to reconfirm that 
achieving the fullest possible accounting for our prisoners of war and 
missing in action remains one of the most important priorities in our 
relations with Vietnam.''
    We welcome this year's determination. It defines four specific 
steps that Vietnam should take, again reinforcing the need for 
unilateral actions. Despite the praiseworthy field operations of the 
Joint POW/MIA Accounting Command, augmented by the Defense Intelligence 
Agency's special POW/MIA investigation team, the fullest possible 
accounting can not be achieved without authorization by Vietnam's 
leadership to take the unilateral actions outlined in the determination 
to Congress.
    Knowing the importance of the POW/MIA Issue to America--both 
government and people--major decisions during and after the war were 
historically made by Politburo consensus. Relations with the United 
States, a long-desired Vietnamese objective, was mismanaged and flubbed 
more than once, but it remains a matter of high national security 
interest to Vietnam, and understandably so, to retain a balance of 
powers, as well as regional economic health and political equilibrium.
    We continue to hope that Vietnam's leaders will authorize the 
unilateral cooperation long sought. We urge all U.S. officials, 
including Members of Congress, to press for the specific actions 
needed. To start, they can provide the documents on the list attached 
to my testimony, a list compiled by the Defense POW/MIA Office and JPAC 
and presented many times in Hanoi, including my most recent trip, a 
family member delegation exactly 1 year ago, and again that fall by 
Ambassador Charles Ray, the Deputy Assistant Secretary of Defense for 
POW/MIA Affairs.
    Historically, Vietnam has responded best when there was high-level 
executive and legislative branch interest. Information from the current 
POW/MIA bureaucracy is pro forma on the need for unilateral action; 
therefore, we are concerned that the Vietnamese leadership may believe 
joint field operations are sufficient to meet requirements. They are 
not, and Congress can help by passing a bipartisan resolution urging 
Vietnam to respond to the provisions in the administration's recent 
determination. We respectfully request this action be taken quickly and 
transmitted to the Vietnamese leadership.
    We deeply appreciate the leading role our Ambassadors have taken to 
promote cooperation from the host governments and their full support 
for field operations. We are indebted to nearly all who served as U.S. 
Ambassadors in each of these countries, to Presidents who cared, and to 
senior officials in the NSC, State, and Defense who demonstrated by 
their actions the leadership that was needed. All Americans and those 
we elect in Congress have a useful role in fulfilling our Nation's 
commitment to those who serve--past, present, and future--and to signal 
those serving today, especially in Iraq and Afghanistan, that should 
they be captured or become missing, they won't be forgotten and, if 
possible, they will be brought home.
                                 ______
                                 

   National League of Families of American Prisoners and Missing in 
                             Southeast Asia

               status of the pow/mia issue: march 7, 2008
    1,763 Americans are still listed by DOD as missing and unaccounted 
for from the Vietnam War, though over 450 were at sea/over water 
losses: Vietnam--1,353 (VN-481; VS-872); Laos--348; Cambodia--55; 
Peoples Republic of China territorial waters--7. The League seeks the 
return of all U.S. prisoners, the fullest possible accounting for those 
still missing and repatriation of all recoverable remains. The League's 
highest priority is accounting for Americans last known alive. Official 
intelligence indicates that Americans known to be in captivity in 
Vietnam, Laos and Cambodia were not returned at the end of the war. In 
the absence of evidence to the contrary, it must be assumed that these 
Americans may still be alive. As a policy, the U.S. Government does not 
rule out the possibility that Americans could still be held.
    Unilateral return of remains by the Government of the Socialist-
Republic of Vietnam (SRV) has been proven an effective means of 
obtaining accountability, as have joint field operations in recent 
years, though the first joint excavation in northern Vietnam occurred 
in 1985. A comprehensive wartime and post-war process was established 
by Vietnam to collect and retain information and remains; thus, 
unilateral efforts by Vietnam to locate and return remains and provide 
records continue to offer significant potential. Hanoi's earlier 
commitments to expedite interviews to obtain intelligence information 
and move forward on coastline cases, including working out a bilateral 
agreement for use of a U.S. recovery ship, are welcome and appreciated. 
These topics have repeatedly been raised during League Delegations, 
most recently in September 2006, and have now been raised regularly by 
U.S. officials at the highest levels. Archival research, also a high 
priority with Vietnam, has produced thousands of documents and photos, 
but to date the vast majority pertain to returned POWs and Americans 
previously accounted for, though recent commitments offer promise, if 
implemented.
    Joint field operations in Laos are very productive. Over the years, 
the Lao regularly increased flexibility and the number of U.S. 
personnel permitted in-country in an effort to improve field 
operations. The Lao approved an archival research program, but results 
thus far have been disappointing. Agreements between the U.S. and the 
Indochina governments now permit Vietnamese witnesses to participate in 
joint operations in Laos and Cambodia when necessary; but it is a time-
consuming, expensive process that could be at least partially 
alleviated with a decision in Hanoi to unilaterally provide relevant 
documents, as President Bush requested during his November 2006 visit 
to Hanoi. He also certified such to Congress on March 20, 2002, as did 
Secretary of State Powell September 7, 2004, and Secretary of State 
Rice July 15, 2005, and August 8, 2006. Research and field activities 
in Cambodia have received excellent support with a full-time DIA Stony 
Beach specialist working in the U.S. Embassy in Phnom Penh. Over 80% of 
U.S. losses in Laos and 90% in Cambodia occurred in areas where 
Vietnam's forces operated during the war, but Hanoi has not responded 
to countless U.S. requests for case-specific records on our losses in 
these countries. Records research and field operations are the most 
likely means of increased accounting for Americans missing in Laos and 
Cambodia.
    U.S. intelligence and other evidence indicate that many Americans 
can be accounted for by unilateral Vietnamese efforts to locate and 
return remains and provide relevant documents and records. Despite this 
reality, President Clinton regularly certified to Congress that Vietnam 
was ``fully cooperating in good faith'' to resolve this issue. The 
League recognizes that legislation requiring certification includes 
punitive measures that would reverse political and economic relations 
to the level in place in 1994. The League supported steps by the U.S. 
to respond to concrete results, not advancing political and economic 
concessions in the hope that Hanoi would respond. The Clinton 
administration lifted the trade embargo, established the U.S. Embassy 
in Hanoi, normalized diplomatic relations, posted a U.S. Ambassador to 
Vietnam, signed a bilateral trade agreement and established normal 
trade relations. The Bush administration also issued the required 
certification that Vietnam is ``fully cooperating in good faith,'' but 
added criteria Vietnam should meet which the League welcomed. These 
included the need to increase unilateral provision of POW/MIA-related 
documents and records on Americans missing in areas of Laos and 
Cambodia under wartime Vietnamese control, greater attention to 
locating and providing information on discrepancy cases, with priority 
on those last known alive in captivity or in immediate proximity to 
capture, and the need to locate and repatriate the remains of those who 
died while in Vietnamese control that can't be recovered jointly and 
have not yet been returned. Senior officials from the Departments of 
State and Defense regularly press Hanoi for increased cooperation.
     national combined federal campaign eligibility #10218 pow/mia 
                               statistics
(Live Sighting statistics are provided by the Defense POW/MIA Office 
        (DPMO))
    Live Sightings: As of December 5, 2007, 1,989 first-hand live 
sighting reports in Indochina have been received since 1975; 1,942 
(97.64%) have been resolved. 1,341 (67.49%) were equated to Americans 
now accounted for (i.e., returned POWs, missionaries or civilians 
detained for violating Vietnamese codes); 45 (2.26%) correlated to 
wartime sightings of military personnel or pre-1975 sightings of 
civilians still unaccounted for; 556 (27.95%) were determined to be 
fabrications. The remaining 47 (2.36%) unresolved first-hand reports 
are the focus of current analytical and collection efforts: 42 (2.11%) 
concern Americans in a captive environment; 5 (0.25%) are noncaptive 
sightings. The years in which these 47 first-hand sightings occurred is 
listed below:

--------------------------------------------------------------------------------------------------------------------------------------------------------
                          Year                              Pre-76       76-80       81-85       86-90       91-95      96-2000      01-07       Total
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                 35           3           0           1           0           4           4          47
--------------------------------------------------------------------------------------------------------------------------------------------------------

    Accountability: At the end of the Vietnam War, there reportedly 
were 2,583 unaccounted for American prisoners, missing or killed in 
action/body not recovered. As of March 7, 2008, the Defense POW/MIA 
Office lists 1,763 Americans as still missing and unaccounted for, 90+% 
of them in Vietnam or areas of Cambodia and Laos where Vietnamese 
forces operated during the war. A breakdown by year of recovery for the 
*820 Americans accounted for from Vietnam, Laos, Cambodia, and China 
since the end of the war in 1975 follows:

1965-1974--War years (recently identified): 2
1974-1975--Post war years: 28
1976-1978--US/SRV normalization negotiations: 47
1979-1980--US/SRV talks break down: 1
1981-1984--1st Reagan Administration: 23
1985-1988--2nd Reagan Administration: 162
1989-1992--George H.W. Bush Administration: 121
1993-1996--1st Clinton Administration: 258
1997-2001--2nd Clinton Administration: 94
2001-2007--George W. Bush Administration: 84

    According to CILHI, unilateral SRV repatriations of remains with 
scientific evidence of storage have accounted for only 180 of the 569 
from Vietnam; two were mistakenly listed as KIA/BNR in Vietnam in 1968, 
but remains were actually recovered at that time. All but 6 of the 219 
Americans accounted for in Laos have been the result of joint 
excavations. Four remains were recovered and turned over by indigenous 
personnel, one from Vietnam and five from Laos. In addition, three 
persons identified were recovered in Vietnam before the end of the war. 
The breakdown by country of the 820* Americans accounted for since the 
end of the Vietnam War in 1975:

        Vietnam--569 (627)
        China--3
        Laos--219 (224)
        Cambodia--29

    * An additional 63 U.S. personnel were accounted between 1973 and 
1975, for a grand total of 883. These Americans were accounted for by 
unilateral U.S. effort in areas where the U.S. could gain access at 
that time, not due to government-to-government cooperation with the 
post-war governments of Vietnam, Laos, or Cambodia.
    For the latest information, call the League's Office (703) 465-7432 
and log onto the League Web site: www.pow-miafamilies.orq.
                                 ______
                                 
   number of americans missing and unaccounted for from each state--
                             march 7, 2008

------------------------------------------------------------------------

------------------------------------------------------------------------
Alabama......................         32    New Hampshire..          6
Alaska.......................          2    New Jersey.....         48
Arizona......................         17    New Mexico.....         12
Arkansas.....................         20    New York.......        115
California...................        179    North Carolina.         44
Colorado.....................         27    North Dakota...         10
Connecticut..................         27    Ohio...........         82
Delaware.....................          4    Oklahoma.......         36
District of Columbia.........          8    Oregon.........         39
Florida......................         59    Pennsylvania...         96
Georgia......................         33    Rhode Island...          7
Hawaii.......................          7    South Carolina.         29
Idaho........................         10    South Dakota...          7
Illinois.....................         72    Tennessee......         33
Indiana......................         57    Texas..........        114
Iowa.........................         26    Utah...........         15
Kansas.......................         28    Vermont........          5
Kentucky.....................         14    Virginia.......         48
Louisana.....................         24    Washington.....         43
Maine........................         13    West Virginia..         17
Maryland.....................         25    Wisconsin......         29
Massachusetts................         40    Wyoming........          5
Michigan.....................         53    Canada.........          2
Minnesota....................         36    Panama.........          1
Mississippi..................         12    Philippines....          4
Missouri.....................         38    Puerto Rico....          1
Montana......................         18    Virgin Islands.          0
Nebraska.....................         19    Civilians*.....          8
Nevada.......................          7

Total missing and unaccounted
 for: 1763
------------------------------------------------------------------------
* 8 civilians do not have a listed home of record.


    Senator Boxer. Thank you very much. I really appreciate 
that, and we'll have questions for all of our panelists. Mr. Do 
Hoang Diem, Chairman, Viet Tan, that's the Vietnam Reform 
Party, from Orange County. Welcome, sir.

STATEMENT OF DO HOANG DIEM, CHAIRMAN, VIET TAN (VIETNAM REFORM 
                   PARTY), ORANGE COUNTY, CA

    Mr. Diem. Madam Chair, Senator Webb, thank you for the 
invitation to testify today. I am here on behalf of Viet Tan, 
an unsanctioned prodemocracy party active in Vietnam. The goal 
of Viet Tan is to work alongside with other Vietnamese 
democratic forces to bring about peaceful, nonviolent political 
change through the power of the people.
    We believe that a free society is the best means to harness 
the tremendous potential of Vietnamese citizens, and that a 
democratic Vietnam would be an anchor for posterity and 
stability in Asia. I would like to focus first on the current 
situation in Vietnam, next on the challenge and opportunity 
facing us, and last on specific recommendations.
    There are two recent important developments--the surge in 
social discontent and an emboldened challenge to one-party 
rule.
    First, due to pervasive corruption, social discontent has 
risen to an unprecedented level. This is shown by widespread 
protest by farmers and labor unrest. For almost 2 years, 
farmers have staged numerous protests to demand fair 
compensation for land lost to corrupt officials. The most 
significant event was the 27 days' protest in Saigon last 
summer by thousands of people before the police forcibly 
removed them.
    Workers also have walked out by the thousands in hundreds 
of strikes. More recently, the Catholic community joined in 
when thousands of followers protested from December 2007 into 
January of this year, demanding the return of confiscated 
church properties in Hanoi. Meanwhile, the government continues 
to arbitrarily arrest those suspected of leading the protests 
and harassing others who have participated. However, so far 
this has failed to prevent new protests from taking place.
    On the political front, the democracy movement in Vietnam 
today is similar to Czechoslovakia during the 1970s and Poland 
in the 1980s. For the first time, the movement no longer 
consists of individuals, but organized groups with increasing 
popular support. Since 2006, dozens of political parties and 
grassroots' associations have sprung up to challenge one-party 
rule.
    The government retaliated in February 2007 when they 
unleashed the worst crackdown in the last 20 years. Scores of 
democracy leaders have been imprisoned, others put under house 
arrest or subjected to constant harassment by the police. 
Although battered by the crackdowns, these groups are still 
hanging on and building coalitions from both overseas and 
inside Vietnam.
    Recently, on November 17, 2007, three members of my party 
were arrested in Vietnam, along with three associates, for 
attempting to publicize nonviolent principles and methods to 
the people. Among the arrested are two American citizens. Mr. 
Leon Truong, from Hawaii, was later released in December. But 
Dr. Le Quoc Quan of California is still in prison today.
    Just last week, his wife's visa to Vietnam was revoked, 
despite her plea to visit her husband. Mrs. Nguyen is here at 
the hearing today as a vivid reminder that the Vietnamese 
people are still living under a brutal and dictatorial regime.
    I also would like to take this opportunity to express our 
appreciation to Members of Congress, State Department 
officials, Ambassador Michael Michalak, and his staff for 
maintaining constant pressure on the Vietnamese Government. It 
is clear that what is happening in Vietnam is very unusual and 
significant. After more than 50 years in power, for the first 
time, the Vietnamese Communist Party is facing numerous and 
unprecedented challenges to its rule.
    The desire for real change in Vietnam is stronger now than 
ever before, and in response, the regime is using terror 
tactics to silence opposition and severely violate human 
rights. The democracy movement in Vietnam is facing a huge 
challenge; that is, to survive the crackdown at all costs. If 
the movement can survive the next year or two, it will prove to 
the Vietnamese people that: One, there is a viable alternative 
that can withstand the persecution and continues to challenge 
the regime; and two, fear can be overcome, and the ruling 
dictatorship is not as invincible as it claims.
    For the United States, an excellent opportunity also exists 
because: First, a democratic Vietnam would be a much more 
reliable partner in the long run, on both economic and security 
fronts, especially in dealing with China; and second, a victory 
for democracy in Vietnam would have a tremendous impact on 
political openness and respect for human rights throughout the 
region.
    The choice for American policy is not whether to isolate or 
engage Vietnam, but how to pursue the relationship in the most 
constructive way. I would like to offer three recommendations.
    First, saying that Vietnam human rights are active to 
President Bush by his signature. Last September, the House 
overwhelmingly passed the Vietnam Human Rights Act. The result 
was warmly welcomed by the Vietnamese-American community and 
democracy activists inside Vietnam. We strongly urge you to 
pass this important legislation in the Senate.
    Second, speak out on human rights abuse in Vietnam. Your 
voices in today's hearing, through letters, speeches on the 
Senate floor, and in meetings with officials are important in 
demanding that the regime release all political prisoners. We 
ask you to particularly focus on the following cases: Father 
Nguyen Ly, Attorney Nguyen Dai, Attorney Le Thi Nhan, 
imprisoned members of the Vietnamese Progression Party, 
People's Democratic Party, Vietnam Populist Party, and the 
United Workers and Farmers Organization, and last, Dr. Nguyen 
Quoc Quan and three associates of Viet Tan--Somsak Khunmi, 
Nguyen The Vu, and Nguyen Viet Trung.
    And last, support democratic change. As long as there is 
one-party dictatorship, human rights abuse will persist. The 
solution to human rights is a democratic society where all 
stakeholders have the voice in the future of their country. The 
international community can help by enabling the activities of 
independent NGOs, promoting an independent media, and 
collaborating with grassroots' organizations inside Vietnam.
    Once again, thank you for holding this hearing, and for 
your continued support.
    [The prepared statement of Mr. Diem follows:]

Prepared Statement of Do Hoang Diem, Chairman, Viet Tan (Vietnam Reform 
                       Party), Orange County, CA

    Madam Chairwoman and members of the committee, thank you for the 
invitation to testify today. I am here on behalf of Viet Tan, an 
unsanctioned prodemocracy party active in Vietnam. The goal of Viet Tan 
is to work alongside other Vietnamese democratic forces to bring about 
peaceful, nonviolent political change through the power of the people. 
We believe that a free society is the best means to harness the 
tremendous potential of Vietnamese citizens and that a democratic 
Vietnam would be an anchor for prosperity and stability in Asia.
    I would like to focus first on the current situation in Vietnam, 
next on the challenge and opportunity facing us, and last on specific 
recommendations.
                      current situation in vietnam
    There are two important developments: A surge in social discontent 
and an emboldened challenge to one-party rule.
    First, due to pervasive corruption, social discontent has risen to 
an unprecedented level. This is shown by widespread protests by farmers 
and labor unrest. For almost 2 years, farmers have staged numerous 
protests to demand fair compensation for land lost to corrupt 
officials. The most significant event was the 27 days protest in Saigon 
last summer by thousands of people before the police forcibly removed 
them. Workers also have walked out by the thousands in hundreds of 
strikes. More recently, the Catholic community joined in when thousands 
of followers protested from December 2007 into January of this year 
demanding the return of confiscated church properties in Hanoi. 
Meanwhile, the government continues to arbitrarily arrest those 
suspected of leading the protests and harassing others who 
participated. However, so far this has failed to prevent new protests 
from taking place.
    On the political front, the democracy movement in Vietnam today is 
similar to Czechoslovakia during the 1970s and Poland in the 1980s. For 
the first time, the movement no longer consists of individuals but 
organized groups with increasing popular support. Since 2006, dozens of 
political parties and grassroots associations have sprung up to 
challenge one-party rule. The government retaliated in February 2007 
when they unleashed the worst crackdown in the last 20 years. Scores of 
democracy leaders have been imprisoned; others put under house arrest 
or subjected to constant harassment by the police. Although battered by 
the crackdown, these groups are still hanging on and building 
coalitions from both overseas and inside Vietnam.
    Recently, on November 17, 2007, three members of my party, Viet 
Tan, were arrested in Vietnam along with three associates for 
attempting to publicize nonviolent principles and methods to the 
people. Among the arrested are two American citizens. Mr. Leon Truong 
of Hawaii was later released in December, but Dr. Nguyen Quoc Quan of 
California is still in prison today. Just last week, his wife's visa to 
Vietnam was retracted despite her plea to visit her husband. Mrs. 
Nguyen Quoc Quan is at the hearing today as a vivid reminder that the 
Vietnamese people are still living under a brutal and dictatorial 
regime. I also would like to take this opportunity to express our 
appreciation to Members of Congress, State Department officials, 
Ambassador Michael Michalak and his staff for maintaining constant 
pressure on the Vietnamese Government for the release of Dr. Nguyen 
Quoc Quan and other Viet Tan colleagues who were detained.
    It is clear that what is happening in Vietnam is very unusual and 
significant. After more than 50 years in power, for the first time, the 
Vietnamese Communist Party is facing numerous and unprecedented 
challenges to its rule. The desire for real changes in Vietnam is 
stronger now than ever before. In response, the regime is using terror 
tactics to silence opposition, and severely violate human rights of not 
just political dissidents but also bloggers, farmers, workers, students 
or whoever dares to question the regime's authority.
                       challenge and opportunity
    The democracy movement in Vietnam is facing a huge challenge: That 
is to survive the crackdown at all costs. And by overcoming the 
challenge, a tremendous opportunity also exists. If the movement can 
survive the next year or two, it will prove to the Vietnamese people 
that:

          1. There is a viable alternative that can withstand the 
        persecution and continues to challenge the regime, and
          2. Fear can be overcome for the ruling dictatorship is not as 
        invincible as it claims.

    And that will lead to a tipping point to accelerate real democratic 
changes.
    For the United States, an excellent opportunity also exists 
because:

          1. A democratic Vietnam will be a much more reliable partner 
        in the long run on both economic and security fronts, 
        especially in dealing with China.
          2. A victory for democracy in Vietnam will have a tremendous 
        impact on political openness and respect for human rights 
        throughout the region.
                            recommendations
    The choice for American policy is not whether to isolate or engage 
Vietnam, but how to pursue the bilateral relationship in the most 
constructive way. To deepen America's relationship with the Vietnamese 
people, I would like to offer three recommendations:
1. Send the Vietnam Human Rights Act to President Bush for his 
        signature
    Last September, the House of Representatives overwhelmingly passed 
the Vietnam Human Rights Act (H.R. 3096). This result was warmly 
welcomed by the Vietnamese American community and democracy activists 
inside Vietnam. In a letter thanking the House, the Vietnam-based 
Alliance for Democracy and Human Rights stated: ``The fraternal and 
economic relationship between Vietnam and the United States is only 
sustainable and benefiting the peoples of the two countries when 
Vietnam is truly a democratic nation where human rights are 
respected.''
    We strongly urge you to pass this important legislation in the 
Senate.
2. Speak out on the human rights abuses in Vietnam
    Your voices--in today's hearing, through letters, speeches on the 
Senate floor, and in meetings with Hanoi officials--are important in 
demanding that the regime release all political prisoners and cease all 
forms of harassment against democracy activists and their families. We 
ask you to particularly focus on the following cases:

  <bullet> Father Nguyen Van Ly, attorney Nguyen Van Dai, and attorney 
        Le Thi Cong Nhan.
  <bullet> Imprisoned members of the Vietnam Progression Party, 
        People's Democratic Party, Vietnam Populist Party, and United 
        Workers-Farmers Organization.
  <bullet> Dr. Nguyen Quoc Quan and three associates of Viet Tan: 
        Somsak Khunmi, Nguyen The Vu, and Nguyen Viet Trung.
3. Support democratic change
    As long as there is a one-party dictatorship, human rights abuses 
will persist. The solution to human rights is a democratic society 
where all stake-holders have a voice in the future of their country. 
While achieving democracy must be foremost an effort of the Vietnamese 
people, the international community can help by enabling the activities 
of independent NGOs, promoting an independent media and collaborating 
with grassroots organizations inside Vietnam. This is essential for 
empowering the Vietnamese people and building a civil society, the 
critical foundation upon which a long lasting democracy can be 
achieved.
    Once again, thank you for holding this hearing and for your 
continued support for democracy and human rights in Vietnam.

    Senator Boxer. Thank you so very much. It's a pleasure and 
honor to have you here. And our last panelist, Mr. Matthew 
Daley, president of US-ASEAN Business Council, Washington, DC. 
Welcome, sir.

  STATEMENT OF MATTHEW P. DALEY, PRESIDENT, US-ASEAN BUSINESS 
                   COUNCIL, WASHINGTON, D.C.

    Mr. Daley. Thank you very much for the opportunity to 
appear at this hearing. I do have a somewhat lengthy statement, 
which I would submit for the record, with your--thank you.
    The US-ASEAN Business Council is a private, nonprofit 
organization that consists of American corporations with the 
purpose of trying to expand trade and investment linkages 
between the United States and Southeast Asia. And to that end, 
our members take a very long-term perspective on their 
relationships. They approach dealing with individual countries 
with a firm commitment to the rule of law, to high standards of 
corporate social responsibility, and to being the benchmark in 
human resource development and employee relations.
    The Council has long judged that strong commercial and 
business ties are integral to strengthening bilateral 
relationships between the United States and Vietnam. We think 
that transparency, the rule of law, access to information and 
communications, and government accountability--all of which 
help foster a favorable business climate--will contribute to 
the other objectives of the United States.
    We see Vietnam itself as an exciting new frontier for trade 
and investment. With its succession to the WTO and permanent 
normal trade relations with the United States last year, 
Vietnam is set to undergo a new era of reform and opening.
    Over the last 6 years, starting with the conclusion of 
Bilateral Trade Agreement, our firms have expanded their 
operations in Vietnam significantly. I think it's already been 
noted that Vietnam has had roughly an 8.5-percent increase in 
gross domestic product in the past year. And this has led to a 
dramatic reduction in poverty rates across the country.
    Vietnam's exports to the United States have increased 
tenfold, from $1 billion in 2001 to about $10 billion last 
year. And the United States has made investments of over $1.3 
billion in the first 2 months of this year, and that compares 
to a total of only $3.2 billion during the previous two 
decades.
    Our corporate activity sets high standards. And through our 
members' projects, we contribute to Vietnam's social welfare, 
through a variety of local initiatives on health and education. 
Several examples of these projects are mentioned in my written 
statement.
    Taken together, these business activities have helped lower 
poverty and increased standards of living, and I think it's 
important to note that the benefits of the poverty reduction 
and the increase in the standards of living are distributed 
throughout the country, including in the Central Highlands.
    Even with economic success, concerns remain about 
corruption, judicial reform, and human rights. These are on 
Hanoi's agenda. Prime Minister Nguyen Tan Dung has made 
corruption one of his main priorities. For our part in the 
business community, we realize that over the past two decades, 
the political and human rights situation in Vietnam has moved 
along an uneven path. A lot of progress has been made, looking 
back. Very much remains to be done.
    In this respect, our members have traditionally encouraged 
promotion of the rule of law, increasing respect for labor 
rights, promoting human rights, and also encouraging 
environmental protection. In 2007, Vietnam regressed in some 
aspects, including those allowing for free speech and freedom 
of assembly. At the same time, we've seen the government work 
toward greater religious freedom, easier movement in and out of 
the country, and greater collaboration with international 
groups in such areas as legal reform and curbing human 
trafficking.
    We respect and we support the broad goals of the Vietnam 
Human Rights Act of 2007. At the same time, we believe 
providing positive models and encouragement to Vietnam, rather 
than a policy of sanctions, will encourage the kind of change 
that we want to see. And I'd be prepared to discuss one 
concrete example of that drawn from another country in the 
Qs&As.
    We think that the process of internalizing human rights and 
legal reform is underway in Vietnam. It's going to be a long 
and complex path. Vietnam has shown a willingness to engage 
with the international community and with the United States on 
these issues, to include trafficking persons and religious 
freedom.
    We noted these efforts led the State Department to remove 
Vietnam from its list of countries of particular concern for 
religious freedom in 2007, and we know that the distinction 
that Secretary Hill made between those that have been 
imprisoned because of religious activity as opposed to 
political activity.
    On human trafficking, we think Vietnam has made significant 
strides by providing funding and implementation of its 2004-
2010 National Program of Action, that includes a comprehensive 
package of prevention and prosecution of trafficking, and 
provides for protection of victims. As it works to alter its 
bureaucracy, its statutes, and its legal system to encourage 
economic growth, we think Vietnam is going to aspire to higher 
international standards across the full issue area.
    We think American assistance programs can be an integral 
part of this process. We see them not as a reward for good 
behavior. We see them as devices that address, on the one hand, 
basic human needs; and on the other hand, a way to set the 
agenda for a reform. We would hope that they would not be 
curtailed as the inevitable disappointments arise moving 
forward.
    We think we need to focus on the trend lines, not the 
particular concern of the moment, as deciders of policy, and we 
need to press on. We, at the Council, look forward to working 
with the Governments of Vietnam and the United States to 
support the reform effort.
    And again, Senator, I thank you very much for the 
opportunity to appear here today.
    [The prepared statement of Mr. Daley follows:]

 Prepared Statement of Matthew P. Daley, President, US-ASEAN Business 
                        Council, Washington, DC

    Senator Boxer, thank you for the opportunity to testify at today's 
hearing. My name is Matthew Daley, President of the US-ASEAN Business 
Council, a private, nonprofit organization which works to expand trade 
and investment between the United States and the member countries of 
ASEAN, an acronym for the Association of Southeast Asian Nations. 
Consisting of over 120 leading American companies, the US-ASEAN 
Business Council has for two decades promoted American interests in 
Southeast Asia. Our corporate members have in common a long-term 
perspective on the relationship with the Southeast Asian nations, a 
commitment to the rule of law and to high standards of corporate social 
responsibility. The Council's Vietnam committee chair is the General 
Electric Company, while its vice-chair is the largest single investor 
from any sector and any country in Vietnam, ConocoPhillips.
    The Council's has long judged that strong commercial ties are 
integral to the strengthening of the bilateral relationship between the 
United States and Vietnam. We think that transparency, access to 
information and communications, respect for the rule of law and 
government accountability help to foster a favorable business climate 
that contributes to America's other objectives. Over the past two 
decades, the United States-Vietnam relationship has seen significant 
strengthening of these commercial and bilateral ties. The relationship 
has progressed from the lifting of the trade embargo in the 1990s and 
improving cooperation on POW/MIA affairs, where we support efforts to 
obtain the fullest possible accounting for our civilian and military 
personnel, to the normalization of diplomatic relations in July 1995 
and subsequent normalization of economic relations with the passage of 
the Bilateral Trade Agreement. Most recently, the Council and its 
Vietnam WTO coalition members supported granting Vietnam Permanent 
Normalized Trade Relations with the United States and Vietnam's 
accession to the World Trade Organization in January 2007. Since 1999, 
the United States and Vietnam have seen a growing warmth in their 
relationship with the historic visit to Vietnam of President Clinton in 
2000 and President Bush in 2006. In return, Prime Minister Phan Van 
Khai came to the United States in 2005 and President Nguyen Minh Triet 
visited States in 2007. The Council was honored to host the Prime 
Minister and the President during their visits to Washington, DC. Most 
recently, during the United Nations General Assembly meeting in 
September 2007, we were also honored to host the current Prime 
Minister--Prime Minister Nguyen Tan Dung. As we look back upon the 
history of the post-war period we would like to recognize the 
tremendously important role played by Senator John Kerry and Senator 
John McCain in furthering the reconciliation between our two nations.
    As the United States continues to engage Vietnam, tens of thousands 
of young bright Vietnamese have had opportunities that were unthinkable 
in the past to come to America for their studies through exchange 
programs funded by the U.S. Government, universities, private 
businesses, and increasingly by themselves. The number of Vietnamese 
students coming here has been rising steadily, reaching over 6,000 last 
year, a 31.3 percent increase over the previous year. Many came for 
higher education in the sciences and engineering, but others also came 
for studies in social science and the humanities. In the narrow 
commercial sense, these students represent the sale of intellectual 
goods and services to Vietnam, but they are far more significant. After 
returning to Vietnam, these people are making tremendous contributions 
toward changing their country in the private sector, the government 
sector,\1\ the academic sector. They use the United States as the 
benchmark and standard to calibrate these goals and their country's 
progress. The U.S. Ambassador to Vietnam, Michael Michalak, sees this 
as a great avenue to help Vietnam and its people and identifies one of 
the top 3 priorities during his term there to double the number of 
Vietnamese students coming to the United States.
---------------------------------------------------------------------------
    \1\ The current Deputy PM, Nguyen Thien Nhan, who's in charge of 
education, technology and rural development, among other things, is a 
former Fulbright student.
---------------------------------------------------------------------------
    At the Council, we see Vietnam as an exciting new frontier for even 
greater trade and investment opportunities as we strive to meet Prime 
Minister Nguyen Tan Dung's challenge to make the United States the No. 
1 one investor in Vietnam. With Vietnam's accession to the WTO and PNTR 
with the United States, Vietnam is set to undergo a new era of reform 
and opening. As it works to meet these WTO and PNTR commitments, it 
must implement and pass legislation that will streamline its 
bureaucracy, open up key sectors for competition, equitize its state-
owned enterprises, work toward a market pricing regime, and build the 
institutions that will enable the government to follow through with its 
commitments. These steps will take time, but Vietnam is well on its way 
to meet its commitments. Recently, the Vietnamese Government announced 
legislation and plans that cover the expansion of trading and 
distribution rights, a master plan for radio and broadcast, a review of 
its Criminal Code in order to criminalize intellectual property 
violations, the opening of the banking sector to wholly owned foreign 
institutions, and a master plan to develop and apply the biotechnology 
sector, to name but a few policy departures.
    In addition, the Government of Vietnam remains active in its 
engagement with the United States Government as it works on a number of 
initiatives including the recently signed Trade and Investment 
Framework Agreement (TIFA) and the Bilateral Investment Treaty (BIT) 
that is currently under consideration. In each case,
the Vietnamese Government has welcomed insight and input from the 
United States and active engagement with the United States private 
sector. This point was strongly underscored during the December, 2007, 
TIFA dialogue headed by the Chairman of the Office of the Government, 
Minister Nguyen Xuan Phuc.
    Over the past 6 years, starting with the signing of the Bilateral 
Trade Agreement, United States businesses have expanded their 
operations into vast sectors of the Vietnamese market. The US-ASEAN 
Business Council's members operate in the financial services, 
information technology, manufacturing, entertainment, insurance, 
retail, fast food, and energy markets. They are contributing to the 
fastest economic development in Vietnam in 11 years, reaching a GDP 
growth rate of 8.5 percent in 2007. The path of United States trade and 
investment with Vietnam is striking. Since the passage of the BTA in 
2001, trade between the United States and Vietnam has grown tenfold. 
Within 1 year after the United States granted Vietnam PNTR status and 
helped it join the WTO, exports of United States goods to Vietnam has 
almost doubled from $1.1 billion in 2006 to over $1.9 billion last 
year. The value of imports from Vietnam has also grown from about $1 
billion USD in 2001 to over $10 billion by the end of year 2007. We 
expect the imbalance to diminish as Vietnam becomes more prosperous. 
United States investment in Vietnam has increased. During the first 2 
months of 2008, the United States was the No. 1 investor in Vietnam, 
with new investments of over $1.3 billion USD. This lies in sharp 
contrast to total investments made over the past two decades of just 
over $3.2 billion USD.\2\ As the government continues to open new 
sectors such as banking and other services, United States companies 
seek to have a growing share in these markets.
---------------------------------------------------------------------------
    \2\ ``Foreign Direct Investment Projects Licensed From 1988 to 2006 
by Main Counterparts'' General Statistics Office of Vietnam. (http://
www.gso.gov.vn/default_en.aspx?tabid=471&
idmid=3&ItemID=6227).
---------------------------------------------------------------------------
    Among the projects nearing completion or recently completed in 
Vietnam include Black & Veatch's first electric substation and 
transmission line project for the Saigon Hi-Tech Park in Ho Chi Minh 
City. This project received an excellence in safety award from the 
National Institute of Labor Protection in Vietnam and includes a first 
of its kind installation of a portion of underground line to ensure 
reliable energy delivery in the Hi-Tech Park. In the past year an 
agreement was reached between Vietnam Airlines and Boeing for the 
purchase of a dozen Boeing 787-7 Dreamliners worth an estimated $2 
billion USD. As Vietnam Airlines moves to modernize its fleet to 
provide the safest and most up to date equipment for its customers, one 
may anticipate future sales. The largest single investor in Vietnam, 
ConocoPhillips, currently holds investments amounting to over $1.3 
billion USD. Intel has also announced a $1 billion USD investment in 
Vietnam. In December 2005, AES in partnership with Vinacomin, has 
signed a MOU with Government of Vietnam to develop a BOT coal-fired 
power project of 1000 to 1200 MW capacity. The total investment is 
estimated to be $1.5 billion USD. Ford Vietnam Limited also holds the 
largest automotive investment in Vietnam at 102 million USD. During the 
January 8, 2008, summit in Vietnam organized by the Economist, Stuart 
Dean of General Electric and the chair of the Council's Vietnam 
committee announced plans to expand local operations, regarding Vietnam 
as a new tiger in Asia thanks to an abundant workforce and efficient 
operations.\3\
---------------------------------------------------------------------------
    \3\ ``Great Opportunities in Vietnam.'' Vietnam Net Bridge. (http:/
/english.vietnamnet.vn/reports/2008/02/767899/) February 8, 2008.
---------------------------------------------------------------------------
    Through cooperation with the United States Government, our members 
also participate in a number of capacity-building projects in Vietnam 
to create the environment and legal landscape that leads to the most 
up-to-date and transparent systems. Among these are the United States 
Trade and Development Agency funded programs for standards 
implementation and customs valuation that look to ensure that as 
Vietnam implements its commitments, it does so to international 
standards. These standards enable our companies to operate in an 
environment that is conducive to transparency and fairness in 
competition. Member corporations also engage in other United States 
Government sponsored projects including the latest State Department 
organized United States-Vietnam Joint Commission on Science and 
Technology held in late February 2008 as well as the October 2007 
Department of Commerce United States-Vietnam Information and 
Communication Technologies Commercials Dialogue. These forums engage 
the United States private sector and establish channels of 
communication with the Vietnamese Government during the policy and 
legislative formulation process.
    In addition to these projects, the Council's members also 
contribute to Vietnam's social welfare through a variety of local 
projects on health and education. As a Globally Integrated Enterprise, 
the IBM Corporation has developed a number of collaborative 
partnerships in Vietnam to foster the skills and educational base in 
the information technology services sector. These arrangements include 
investing in early learning through its KidSmart program, Reinventing 
Education Program and tertiary level support and training through its 
newly launched Career Education in IBM Software program, which aims to 
create skilled engineers and programmers through a cooperation with Ha 
Noi University of Technologies and DTT. The chair of the Vietnam 
Committee, the General Electric Company, conducts a wide range of 
activities in Vietnam including volunteer work for environmental clean 
up on Nha Trang beach, donations for emergency relief work after the 
many devastating natural disasters including VND 1 billion for the 
victims of Can Tho Bridge collapse. GE, through its foundation also 
offers 3-year scholarships for qualified, but disadvantaged Vietnamese 
students to attend leading Vietnamese universities, and also offers 
leadership development work for Vietnam's promising rising leaders. The 
committee's vice chair, ConocoPhillips works with nongovernmental 
organizations (NGOs) such as Operation Smile. ConocoPhillips also 
builds orphanages and homes in local communities where it operates, and 
grants scholarships to students studying at the Hanoi University of 
Mining and Geology. Another member company, Chevron, has a number of 
community-based programs active in Vietnam. The most far-reaching of 
Chevron's projects is jointly managed by Michigan State University and 
Can Tho University, and is designed to reduce poverty in the Mekong 
Delta region by linking school improvements with community development. 
The project focuses on helping farmers diversify sources of income by 
training teachers, students, and farmers in sustainable agricultural 
practices such as organic vegetable growing as well as improved animal 
husbandry and aquaculture. These highlight but a few of the many 
programs carried out by the Council's member corporations in Vietnam.
    Vietnam's high GDP growth rate, reaching 8.5 percent last year, and 
the rising wealth of the Vietnamese population has led to the reduction 
of poverty from 60 percent in 1993 to 14 percent today. Vietnam has 
consistently exemplified a country that has fought poverty effectively. 
These accolades were given by no other than Kofi Annan, the former 
Secretary General of the United Nations who noted Vietnam's 
achievements toward reaching the Millennium Development Goals. The 
country's success in alleviating poverty was also noted by Ajay 
Chibber, Country Director of the World Bank. Mr. Chibber observed that, 
remarkably, unlike other emerging economies, there has only been a very 
small increase in wealth inequality among the populace especially 
between urban and rural areas.\4\ Poverty reduction is inclusive and 
countrywide. The government must be applauded for its far-reaching 
economic development activities paying particular focus on the central 
highlands and northern poorer provinces. Over the past year, ministry 
directives have increasingly focused on development projects in some of 
the poorest regions and provinces including Son La and Nghe An. 
Combined, these achievements provide the people of Vietnam a higher 
standard of living.
---------------------------------------------------------------------------
    \4\ ``Vietnam Leads Way in Tackling Poverty.'' Thanh Nien News. 
(http://www.thanhnien
news.com/politics/?catid=1&newsid=35780) February 16, 2008.
---------------------------------------------------------------------------
    Vietnam's soon to be finished distribution legislation will allow 
it to become a retail market destination. Today, it already ranks among 
the top markets for retailers as noted by the latest AT Kearney report. 
Wealth has allowed the Vietnamese populace to buy goods that they could 
never have afforded to buy in decades past. Lower tariffs and taxes 
have allowed both common and luxury goods to enter the market. On 
January 1, 2008, over 700 tax rates on over 30 categories of goods were 
slashed by 1-6 percent to conform to Vietnam's WTO commitments. Even 
more impressive, sales of automobiles surged 156 percent year on year 
in January to over 12,000 vehicles sold. The Vietnamese population is 
becoming wealthier as they pull themselves out of poverty. The 
Vietnamese Government is working to become a middle-income country with 
a per capita GDP of 1000 USD by 2009. In 2004, the International 
Monetary Fund (IMF) reported that Vietnam's per capita GDP was just 
over 550 USD. The IMF estimates that by end of 2008, Vietnam's GDP per 
capita will be close to 920 USD.\5\
---------------------------------------------------------------------------
    \5\ ``Vietnam GDP per capita,'' current prices, International 
Monetary Fund. (http://www.imf.org/
external/pubs/ft/weo/2007/02/weodata/weorept.aspx?sy= 2004&ey= 
2008&scsm= 1&ssd= 1&sort= 
country&ds=.&br=1&pr1.x=75&pr1.y=9&c=582&s=NGDPDPC&grp=0&a) Run March 
10th, 2008.
---------------------------------------------------------------------------
    With all these economic reforms taking place, concerns remain in a 
number of areas including corruption, judicial reform, intellectual 
property rights, and fair competition. On IPR and competition, Vietnam 
is moving steadily toward formulating policies and legislation to 
tackle these issues and we look forward to reviewing them with the 
Vietnamese Government. Prime Minister Nguyen Tan Dung has made 
corruption one of his main priorities, setting up a task force headed 
by the Chairman of the Office of the Government to pursue whatever 
policy is necessary to identify, prevent, and eliminate corruption 
among all ranks. Following Vietnam's celebration of its Lunar New Year 
this past February, the Prime Minister once again called on the 
ministries to be vigilant of corruption in the system, calling for 
renewed efforts to eradicate it, viewing corruption as the greatest 
threat to the survival of the country's political system. In fact the 
Prime Minister directed state agencies' to improve the provision of 
information to the media about corruption inspections and 
investigations to ensure ``objectiveness, accuracy, and conformity with 
the regulations.'' \6\
---------------------------------------------------------------------------
    \6\ ``Vietnam PM Renews Anti-Corruption Push.'' Thanh Nien News. 
(http://www.thanhnien
news.com/politics/?catid=1&newsid=35639) February 10, 2008.
---------------------------------------------------------------------------
    The Council and its members realize that over the past two decades 
the political and human rights situation in Vietnam has moved along an 
uneven path and much remains to be done. In this respect, our members 
have traditionally encouraged the promotion of the rule of law, 
increasing respect for labor rights, promoting human rights, and 
encouraging environmental protection in countries in which they 
operate. In 2007, Vietnam regressed in some respects including those 
allowing for free speech and freedom of assembly. At the same time we 
have seen the government work toward greater religious freedom, freedom 
of movement, and greater collaboration with international groups on 
issues ranging from legal reform to human trafficking. While we respect 
the broad goals of the Vietnam Human Rights Act of 2007, we believe, 
based on past experience that providing positive models and 
encouragement in Vietnam, rather than a policy of sanctions, will bring 
about more significant change for the people of Vietnam. Our view is 
informed by our own experience working quietly with the Government of 
Vietnam in this area.
    Internalizing human rights and legal reform are under way in 
Vietnam. This will be a long and complex path. Already through 
cooperation with a number of aid agencies, including the United Nations 
Development Program (UNDP), the Danish International Development Agency 
(DANIDA), the Canadian International Development Agency (CIDA), and the 
Swedish International Development Agency (SIDA), Vietnam is embarking 
on a number of judicial reform, good governance, and human rights 
programs. These programs include those run by UNDP in partnership with 
Vietnam's Ministry of Foreign Affairs to understand international human 
rights mechanisms as well as restructuring its judicial system under 
their ``Assistance for the Implementation of Vietnam's Legal System 
Development Strategy to 2010'' and farther reaching ``Judicial Reform 
Strategy to the year 2020.'' These reforms look to review issues 
ranging from criminal and civil policy legislation and judicial 
procedures to international cooperation in the judicial sector.\7\ 
Following the passage of the Bilateral Trade Agreement, the United 
States Vietnam Trade Council has also conducted a number of programs on 
judicial and administrative reform to transform Vietnam's legal system. 
As Vietnam moves forward, these programs will help implement a judicial 
regime that is in line with both its national legal system as well as 
international standards.
---------------------------------------------------------------------------
    \7\ For more information on these programs please see: (http://
www.undp.org.vn/undpLive/System/What-We-Do/Focus-Areas/Democratic-
Governance/Project-Details?contentId= 1765&category
Name=Rule-of-law-and-Access&CategoryConditionUse= Subject-Areas/
Democratic-Governance/Rule-of-law-and-Access&) and (http://
www.danidadevforum.um.dk/en/menu/Topics/GoodGover-
nance/Programmes/CountryProgrammes/Asia/Vietnam/).
---------------------------------------------------------------------------
    We endorse the Vietnamese Government's attempt to engage with the 
overseas Vietnamese community. Granting 5-year visa exemptions for 
overseas Vietnamese is a step forward. In addition, the current 
Ambassador to the United States, Ambassador Le Cong Phung, held his 
first-ever press conference with a wide range of media including, Nguoi 
Viet. Nguoi Viet, a newspaper based out of Orange County, California, 
serves the largest community of Vietnamese outside of Vietnam.
    In addition the Vietnamese Government has reviewed and extended 
laws allowing housing permits for foreigners to include not only 
overseas Vietnamese but those that have long term interests in the 
country.\8\ These steps are gestures of goodwill made by the Vietnamese 
Government in its engagement with foreign individuals including many 
investors.
---------------------------------------------------------------------------
    \8\ ``Vietnam Builds a Future for Itself.'' The Financial Times. 
http://www.ft.com/cms/s/0/d1bf34
ce-ecb4-11dc-86be-0000779fd2ac.html. March 8, 2008.
---------------------------------------------------------------------------
    Vietnam has shown a willingness to engage with the international 
community and the United States on other issues as well. Vietnam has 
increasingly cooperated with the United States on human trafficking and 
religious freedom issues. These efforts led the United States 
Department of State to remove Vietnam from its list of Countries of 
Particular Concern for religious freedom in 2007. On human trafficking, 
Vietnam has made significant strides to eliminate trafficking by 
providing funding and implementation for its 2004-2010 National Program 
of Action which includes a comprehensive package including prosecution, 
prevention, and protection against trafficking. Most recently, the 
Vietnamese police shut down a baby trafficking ring involving the 
arrest of four Vietnamese citizens.
    Vietnam is a vibrant country that is coming into its own. Its 
dynamic leadership is well on its way toward transforming the economy 
into that of an industrialized nation by 2020. As it works to alter its 
bureaucracy, statues, and legal system to allow for growth, Vietnam 
will continue to aspire to even higher standards. American assistance 
programs in Vietnam are part of the process. These programs are not 
rewards for good behavior. Rather, they address basic humanitarian 
needs while others set the agenda for reforms. We do not think they 
should be curtailed as the inevitable disappointments arise. Instead, 
we need to focus on the trend lines and press forward. At the Council, 
we look forward to the opportunity to work with the Vietnamese and 
American Governments as they pursue a broad range of reforms and 
continue to engage in activities that lead to both the economic and 
social welfare of its populace.

    Senator Boxer. Thank you very much.
    Ms. Griffiths, I want to thank you so much for everything 
you've done on this POW/MIA issue. Your commitment is 
outstanding, and it is a great tribute to your brother, who has 
been missing since 1966, I believe. Is that correct?
    In your written testimony, you state that historically 
Vietnam has responded best when there was high-level executive 
and legislative branch interest in the POW/MIA issue. I 
certainly would agree with that. Shining the light on these 
things always helps. And when I asked Michael Michalak about 
the POW/MIA issue, he answered by saying that he'd do 
everything he could to get access to the archives, to do 
searches along the coast. He admitted that more had to be done.
    Now, you have written that there is no lack of serious 
interest from the Ambassador, so that's good. Yet, I understand 
these underwater surveys are not expected to take place until 
May 2009. And you've cited the Vietnamese failure to complete 
interministerial coordination as one reason why these surveys 
are delayed.
    What do you mean by interministerial coordination, and how 
can we help in this committee to resolve the issue?
    Ms. Griffiths. What I was told specifically, and I have a 
great deal of interest in this, because--we've all seen--and I 
applaud--the increased military-to-military cooperation be 
broadened across the board. We have seen a lot of port calls, 
even basketball and volleyball playing, and all of that's 
great. I love to see that expansion.
    But what we haven't seen is use of the U.S. Navy vessel 
that was agreed to when I was there in October 2006, formalized 
in November 2006, for using the U.S. Navy vessel. I think the 
one they want to use is the USNS Heezen for along the 
coastline, underwater surveys and excavations.
    What I was told is that the Vietnamese were saying that the 
coordination process is very difficult for the Foreign Ministry 
to coordinate with the other agencies or departments and 
ministries of their government. But I also know that there were 
some--in our government, below Mike Michalak, the Ambassador's 
level, who are giving excuses for the Vietnamese, rather than 
making this proposal to the Vietnamese, saying it would be much 
too difficult for them to handle two official humanitarian 
visits at the same time.
    So POW/MIA, that has been around since the beginning of 
time, got postponed in the interests of a different 
humanitarian mission--a worthy one, and that is the USNS 
Mercy's dental humanitarian mission.
    Senator Boxer. Uh-huh, uh-huh.
    Ms. Griffiths. Now, I applaud that. The Families have 
supported humanitarian assistance to Vietnam since long before 
it was a popular thing to do. So----
    Senator Boxer. But you're saying we should be able to walk 
and chew gum at the same time.
    Ms. Griffiths. Yes.
    Senator Boxer. We can do more than one thing. And we----
    Ms. Griffiths. When I talked----
    Senator Boxer. This is America.
    Ms. Griffiths. Yes. When I talked----
    Senator Boxer. This is----
    Ms. Griffiths [continuing]. To Admiral Keating in Hawaii, 
when I went out since the first of the year, he agreed that 
that proposal needed to be made. The reason it's not until May 
2009 is because it wasn't yet made. So that isn't Vietnam's 
fault; that's our fault.
    Senator Boxer. OK, OK. Well, I would love to work with you 
on this. And we'll----
    Ms. Griffiths. I'll be glad to do that.
    Senator Boxer [continuing]. Get some kind of a leader to go 
in, and I'll see if my colleagues want to help us just with 
this issue, because it seems to me that it's something we could 
do and we should do. So we will be going to back to you, and 
we'll definitely work on that.
    Now, for me, and I know I differ from many members on this 
committee, I think it might be time for some legislation over 
here. We've had human rights legislation on the House side 
that's passed. I don't know that Senate legislation would be 
identical, but it could be similar.
    And I know that, for example, Mr. Daley was very upfront 
about his views on the House legislation, and I appreciate 
that. But from all my many years here, I've found that if you 
push hard in the legislative branch, it gives leverage to the 
executive branch to move forward. And so, I'm leaning pretty 
heavily in that direction.
    I guess I really would like to ask Human Rights Watch for 
input. I'm very impressed at the fact that you feel that the 
document that you talk about, that you quoted from, which is 
very disturbing, is a legitimate document. And if you could, if 
you would, present my staff with--not right now, but chapter 
and verse of why you believe it's real, and I would like to 
have a meeting with Chris Hill, and I'd like to present him 
with this, to talk about this.
    I'll also bring up the possibility of legislation with 
Secretary Hill, because I think he's a wonderful public 
servant, and because I just think we need to push harder on 
this. So I'm assuming, and I don't want to--I shouldn't assume 
this, Ms. Richardson--do you support the House bill or 
something like the House bill?
    Ms. Richardson. It's hard to argue against anything that 
would bring greater scrutiny and more regular discussion to 
Vietnam's human rights record.
    Senator Boxer. Uh-huh.
    Ms. Richardson. I mean, you know, I think 50 percent of the 
battle is simply that this record and the different problems 
get discussed sporadically. Different kinds of cases get very 
different----
    Senator Boxer. Yeah.
    Ms. Richardson [continuing]. Levels or kinds of attention. 
It's extremely problematic from our perspective that the State 
Department echoes the Vietnamese Government's line about 
speaking differently about purely religious prisoners as 
opposed to religious adherents who are imprisoned because of--
on the grounds of national security or propaganda or those 
kinds of charges.
    And so, you know, I think legislation that would oblige the 
State Department to engage these issues more consistently----
    Senator Boxer. OK. Would you work with us on such 
legislation?
    Ms. Richardson. Of course.
    Senator Boxer. Because I would like to work with you on it, 
because I don't want to send the wrong message here, that we 
have lost faith or hope that we can make things better. We want 
to keep on improving, and so I think the tone of this 
legislation has to be set in a way that it's no-nonsense, but 
it rewards for good behavior and----
    Ms. Richardson. Yes.
    Senator Boxer [continuing]. It does, in fact, use the 
leverage of cutting off funding for bad behavior. Let's see. 
I'm going to go to Mr. Diem, and then I'll turn it over to 
Senator Webb.
    Is it true that owners of domestic Web sites must submit 
their content to the government for approval?
    Mr. Diem. It is widely known in Vietnam that the government 
strictly controls access to the Internet, even in the Internet 
cafe out on the street. It is known that the owners of this 
site have to register, people who use their service have to log 
on, and for certain owners of Web sites, they do have to 
register their content. It is widely known that the government 
uses that as a means to maintain control on their population.
    If I may, just quickly, regarding the document that you had 
mentioned awhile ago?
    Senator Boxer. Yes.
    Mr. Diem. We have also received that document. We have 
also--we are in the process of verifying it, as well. And at 
this point, we also have reason to believe that it is 
authentic. On top of that, in Vietnam, in the Vietnamese 
Constitution, Article 4, it guarantees the Vietnamese Communist 
Party the right to be the only party to exist. And just 6 
months ago, or 9 months ago, if my memory serves me right, 
President Nguyen Minh Triet of Vietnam was quoted in the 
Vietnamese newspaper saying that if the article 4 is removed, 
that means we have just committed suicide. He was quoted that 
in the Vietnamese newspaper. So I have no surprise at all----
    Senator Boxer. He seems to have a great sense of self-
importance. He's the only one that knows how to run a country. 
And I understand, also, there's been a history of jamming Radio 
Free Asia, as well.
    Mr. Diem. That's correct.
    Senator Boxer. OK. Well, let me just thank the panel. I'm 
going to ask Senator Webb to take as much time as he needs at 
this time.
    Senator Webb. Thank you, Madam Chairman. Ms. Griffiths, 
good to see you. I want to thank you so much for all of your 
years of work in this area. I think I go back a long way doing 
it, and you were there before I got there, and so you've given 
a great service to our country for continuing to focus on all 
of these issues.
    Ms. Richardson, I regret that I missed hearing your 
testimony. I had a meeting that I had to take outside the room. 
I want to put something to the panel. Before I do, I want to 
say that I think I can honestly say that there's nobody up here 
in the United States Senate who feels more strongly than I do, 
there's some people who feel as strongly, about wanting to see 
a government in Vietnam where everyone has an opportunity for 
advancement into the future and for participation.
    I was very proud to have fought in the U.S. Marine Corps on 
behalf of that concept. I've never backed away from it, despite 
what happened after 1975. The question really is how we get 
there, and we're at a critical juncture in many ways, and I 
think we need to continue to look at an analytical model 
through which we can make this case.
    And so, Ms. Richardson, could you first tell me the scope 
of your responsibilities, in terms of countries and working 
with Human Rights Watch? Are you all through Southeast Asia, or 
East Asia, or all of Asia?
    Ms. Richardson. I'm fared only South Asia. I actually 
direct all of our work on China, and I'm the advocacy director 
for all of East and Southeast Asia.
    Senator Webb. So you go all the way over into Burma.
    Ms. Richardson. Correct.
    Senator Webb. OK. How would you rate the overall human 
rights challenges in Vietnam compared to other countries in 
your jurisdiction?
    Ms. Richardson. Well, the most significant distinction 
between Vietnam and several other countries, particularly in 
Southeast Asia, of course, is that it's a one-party government. 
And obviously, it shares that with China and North Korea.
    Senator Webb. Burma.
    Ms. Richardson. Burma. It's different variations of one-
party governments, perhaps, meaning Vietnam's is not a military 
government. You know, I think Vietnam also falls in a distinct 
category for impenetrability. Again, with perhaps the exception 
of North Korea. You know, other countries in Southeast Asia are 
much easier to get into, much easier to do research on, it's 
much easier to engage a government directly.
    You know, I mean, the reality is now, for us, that--and 
this has happened even in the last 48 hours--when we comment 
publicly about China, we get a public response from the Foreign 
Ministry. That almost never happens with the Vietnamese 
Government, and if there is a response at all, it's usually a 
pretty unilateral denial of the fact.
    And so, I think it's sort of a particular kind of 
isolation, an impenetrability, that distinguishes it from some 
of its neighbors.
    Senator Webb. Having spent a lot of time in that part of 
the world, in a number of different capacities, frequently as a 
journalist, the only country that has denied me a journalist 
visa is China. No doubt because of a lot of writings that I 
have made over the past 20 years about a lot of different 
situations there. So they're sort of a veil within a veil 
themselves.
    Mr. Diem, have you been able to examine situations inside 
Vietnam where the people who are family members and close 
associates with the former government are still suffering a 
special type of discrimination?
    Mr. Diem. When you say ``former government,'' are you 
referring to the Former Republic of South Vietnam?
    Senator Webb. Right.
    Mr. Diem. For a long while, after the end of the war, that 
was and had been a situation. Actually, Supervisor Janet 
Nguyen, in her testimony, she did refer to the fact that her 
family suffered greatly, and that lasted a long time. However, 
my understanding is that by the late eighties and into the 
nineties, the situation seems to have faded away, if you will.
    So right now, at this point, there's no particular incident 
that I'm aware of. Now, is that still going on? I have to say 
that I'm not 100 percent certain. But I do know that it did go 
on, and I have talked to people who have suffered that greatly. 
But, like I said, until the late eighties, early nineties, that 
seemed----
    Senator Webb. Well, I'm personally aware that it went on 
well into the nineties that, for many of the families--not just 
military people, but----
    Mr. Diem. Right.
    Senator Webb [continuing]. Also politicians, government 
officials, anyone who had associated with the government, and 
even their children--it was impossible, in many cases, to go 
beyond a basic level of education or to get certain jobs. I was 
bringing American companies into Vietnam after the embargo was 
lifted, and it was very difficult to be able to hire someone 
who had come from the Vietnam Quon Hua government.
    That seems to have gone away, to a certain extent, in 
recent experience. My time is going to go away, but if it's OK 
with you, Madam Chairman, I have just a couple more minutes of 
line of questioning here that I'm trying to get at a couple of 
things, in terms of how we proceed forward.
    The first is, I watched Vietnam at a time when sanctions 
were in place, and I supported the sanctions. They had made an 
agreement at the Paris Peace Talks in 1972 to have elections. 
They were discriminating strongly against the people who had 
been with us. There was nobody else making this case.
    But I don't see sanctions as a way to get to where things 
need to go. There are two examples of that. One is in Vietnam 
itself. I think when sanctions were lifted, it allowed the 
average Vietnamese to see people from the outside, to be able 
to talk, and to gain an understanding that wasn't there before.
    And the other is Burma, right now, quite frankly. I was in 
Burma in 2001, at a time just before the really strict 
sanctions went into place, and I was hosted by an American 
businessman who had put together an outdoor furniture company 
in Burma. And he was basically saying, if you respond to these 
human rights violations by putting sanctions in place, really 
what's going to happen is the people of Burma are going to lose 
contact with the outside world, which is basically what has 
happened.
    At the same time, now, China's trade has doubled into 
Burma. There was an article in The Economist magazine 2 weeks 
ago, saying that Burma is actually looking at moving toward the 
yuan as its currency.
    So, looking at that, sanctions don't appear to work, as a 
general policy, unless the entire world gets together. All the 
different countries in the world get together and say, ``We are 
going to sanction that behavior,'' as is what happened in South 
Africa. But that's not happening in this part of the world.
    Then, the question becomes--how do we proceed in a way that 
will open up this society and, at the same time, not 
destabilize the region? What are your thoughts on that, Mr. 
Diem? Or the panel, in general? I'm really interested in 
getting your views on this.
    Mr. Diem. If I may, I'd like to start to respond to that 
question. First of all, sanction, in my viewpoint, has to be 
chosen or applied really case by case. Sanction as a blanket 
means may not work in certain instances or in certain cases; 
but then, in others, it may stand a very good chance.
    Let's take Vietnam, for example. In 1985, the Vietnamese 
economy was on the brink of collapse. The Vietnamese Communist 
Party was on its knees, and they quickly abandoned their old 
policy in 1986, and implemented the new Economic Openness 
Policy, and we must admit that during the last 20-plus years, 
yes, the Vietnamese economy had improved, and yes, the living 
standard has increased.
    However, at the same time, yes, the Vietnamese Communist 
Party had bought more time, and consolidated their power. They 
had 20-years-plus to prepare their next step. They had 20-plus 
years to entrench even further, and that is the reality of 
Vietnam right now.
    Senator Webb. But if I may, sir, on that point, the real 
transition in Vietnam came after the fall of the Soviet Union. 
The Soviet Union was putting up to $3 billion a year into the 
Vietnamese economy. I was there in 1991. There wasn't anything 
going on.
    And when the Soviet Union collapsed, the government 
realized it had to look to the outside world. The point with 
sanction is it only works when you have a large number of 
countries involved. The United States sanctions in Burma 
basically are pushing Burma into China. The United States 
sanctions in Iran, quite frankly, are doubling Iran's trade 
with China right now.
    So as a general principle, unless you have the collective 
body, the collective world body involved, sanctions aren't 
going to get us where we need to go. So the question, again, is 
what do you think we should do?
    Mr. Diem. Well, in my testimony, I did mention a number--I 
did offer a number of specific recommendations. But let me say 
this. In my viewpoint, given the current situation in Vietnam 
right now, the most appropriate way to assist transition over 
to a more democratic and open society is to really help the 
Vietnamese people, to empower them through building a civil 
society in Vietnam.
    A civil society in Vietnam is growing. It's budding. It is 
a budding civil society in Vietnam right now. More and more in 
recent years, we have autonomous grassroots organizations that 
do not fall under the control of the government begin to spring 
up. And that is the base. And I think we--because the United 
States can do a lot to assist that process.
    Senator Webb. OK. I thank you. Mr. Daley or Ms. Richardson, 
do you have a comment on that? Actually, Ann, it isn't an area 
you've been working, but if you have an observation, any of 
you?
    Mr. Daley. Yes, Senator, if I may. I think that some of the 
programs that both the government and the private sector have 
been working on are helping to build what I would call the 
infrastructure for a future more open and responsive system of 
government in Vietnam.
    For example, one project that our affiliate at U.S. Vietnam 
Trade Council worked on resulted in a decision in Vietnam that 
judicial decisions and the rationale for those decisions would 
be published. Now, this was done with reference to the BTA in 
order to help bring it into compliance with modern business 
principles, but it has brought ramifications in opening up the 
judicial sector and making it accountable and transparent, 
understandable, and giving points of leverage for future 
change.
    Those are worth continuing. I also think that in all kinds 
of ways, private corporations and organizations can work with 
the Government in Vietnam. Last year, we worked with a 
Montagnard organization in the United States to remove barriers 
to the immigration of roughly two dozen Montagnards who had 
been encountering considerable difficulties from local 
authorities in the Central Highland.
    And those barriers were taken away in relatively short 
time. This was a matter of a private discussion done on a 
humanitarian basis. Did it change the overall situation in 
Vietnam? Perhaps not. But to those two dozen families, it made 
a big difference.
    In the broader area of policy, I would offer the example of 
what the United States did with Cambodia and labor reform. We 
cut a deal with the Government of Cambodia that if they 
accepted international labor standards and a presence in Phnom 
Penh by the ILO, and free guaranteed access to the factories 
that were working in the export garment sector, we would 
increase their textile quota. And they----
    Senator Boxer. They what? I'm sorry.
    Mr. Daley. We would increase their textile quota, in the 
days when we had textile quotas. And they bit on it. They 
agreed to this approach. And even though the multifiber 
agreements have expired and that whole area has changed, the 
ILO is still operating in Cambodia, they still have full 
access. And in those areas in the export sectors, those workers 
are treated according to international standards.
    And not only that, the pattern of relationships that they 
established with American suppliers after the quota system sort 
of faded away was sustained. And Cambodia's textile exports, 
which everybody thought would be just wiped off the map by 
China, have continued to----
    Senator Boxer. Mr. Daley, I'm sorry. We've gone 8 minutes, 
almost, over, and----
    Mr. Daley. I apologize.
    Senator Boxer [continuing]. We have to clear the room, and 
I've got to be at a meeting at 4:30.
    Senator Webb. I thank the chairman for her patience.
    Senator Boxer. I just want to say that we do have to move 
on. Let me just tell you where I come out on this. I think what 
you have discussed, Mr. Daley, is a good example of something 
we can do using the economic purse. No question. But, I don't 
see it in any way as being the only thing we can do.
    And I agree with Senator Webb when he says it takes the 
whole world to really change another country, if that country 
doesn't want to change, but it's got to start somewhere. Who's 
the first country that's going to step up and say, ``You know 
what, the rest of the world, this is a problem.'' It's always 
been America before, in most cases, it seems to me.
    So, I've been very careful to weigh what I want to do here, 
representing so many constituents, from Supervisor Nguyen to 
the whole community, and I haven't jumped up and said, ``Oh, 
this is the perfect answer or that is,'' but I'll tell you what 
I think after hearing what I've heard today.
    I believe that document is real. I believe that right now, 
in Vietnam, there's no dissent allowed. I believe we are making 
some progress through trade. I think we should continue, 
because I believe that is important. And we all know that when 
people are exposed to freedom, eventually it will come. But 
that doesn't mean there's nothing else we can do.
    I think when Mr. Daley made the point that the power of the 
purse works, that's really what the House bill does. It uses 
the power of our purse, in America. It doesn't sanction 
anybody. It just says, ``We're going to freeze aid where it is, 
nonhumanitarian aid.'' It doesn't say we're going to take away 
anything.
    It says we're going to freeze everything but humanitarian 
aid, and we're going to say we need some improvements in 
respect to human rights. I frankly think it's actually a small 
and important step to take. So I know that I may be in a 
minority in this committee, but that's today, and it may not be 
tomorrow.
    So what I'm going to do, because I believe in a transparent 
process, is begin putting together a bill that I think will 
send an undeniable signal to the Vietnamese Government that you 
can't say one thing and then have a secret meeting and admit 
that you're having political trials. The Vietnamese Government 
can't say, ``Oh, it's got nothing to do with that''--the fact 
that these people were, you know, some kind of a threat because 
they practice a religion that the government doesn't like.
    I just think we can do this in a way that's productive. I 
think we can do this in a way that will bring about change. And 
again, in my experience here--and I cosponsor many bills that 
are pretty tough bills--you have to just push and push. This is 
what I have found, and I think Senator Webb has been my ally in 
the example of the Philippines. We held one hearing on 
extrajudicial killings, and it really reverberated there.
    They get the message when Congress is looking. And we 
should not underestimate that power. So I think Congress needs 
to keep looking at this, and I think we can put together 
something that is not punitive, that is not a sanctions bill, 
per se, but essentially just says the American taxpayers are 
very generous, but there's a point at which we're going to say, 
``No more, unless you step up to the plate.''
    And we're not asking for things that aren't, frankly, 
internationally recognized as human rights. And, you know, when 
I started going through the names on the list, just on and on 
and on of people who have been detained, including one of my 
constituents from Sacramento, I thought, they have been 
detained for doing what? Trying to fight for freedom? I mean, 
something's wrong, and if we're not the ones, then who is going 
to step up to the plate here? If we're not the ones, who is 
going to do it?
    So I have great respect for those who caution us not to do 
too much that would reverse progress, and I think they're right 
for warning us. But on the other hand, it doesn't mean you 
can't do something more. And again, it's always one country 
that starts, and I believe that we can see improvements in 
Vietnam.
    So I just want to say to all of you on this panel, thank 
you very much. You've all been terrific witnesses. And when I 
put together this bill, I'm going to include a chapter on POW/
MIA, just to bring that back and say, ``We expect to see 
continued cooperation,'' because we need that cooperation.
    Ms. Griffiths. Could I ask you, please, not----
    Senator Boxer. Yes.
    Ms. Griffiths [continuing]. To link the two issues 
together? Because if you do----
    Senator Boxer. Oh, we'll do a separate thing, then.
    Ms. Griffiths [continuing]. POW/MIA will suffer from their 
internal unwillingness----
    Senator Boxer. Well, we'll do something separate.
    Ms. Griffiths [continuing]. To risk their government.
    Senator Boxer. We'll do something separate on that.
    Ms. Griffiths. I will count on that.
    Senator Boxer. Yes, we will do something separate on that. 
Because I do believe that's another area where we could do 
more. I mean, how many years do we have to struggle. You're the 
ones. I feel just so deeply saddened by the fact that we could 
be doing so much more, and it just seems there's always a 
reason and an excuse, and it doesn't make sense to me.
    So we'll do something separate. We'll do a letter 
separately. If we have to do legislation, we'll get it done. We 
won't link the two, but in my mind, it is important that 
Vietnam step up to the plate in both ways. And I think you make 
the point that our country has to step up to the plate, also, 
and not just Vietnam, on this POW/MIA issue.
    So I thank you all very much for coming. We'll work with 
you to get a good bill. Thank you very much.
    [Whereupon, at 4:30 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


    Responses of Assistant Secretary Christopher Hill to Questions 
                   Submitted by Senator Barbara Boxer

    Question. A secret memo recently surfaced regarding ``political 
trials'' that has been attributed to an August 6, 2007, Politburo 
Meeting of the Communist Party of Vietnam.
    Although the Government of Vietnam denies that it is currently 
holding any political prisoners, the document details the success of 
some of the recent ``political trials'' and states that the party must 
work to ``limit the spread of false ideas in the population about 
democracy, human rights, [and] religious freedom. . . .''
    According to Human Rights Watch, the document also states that 
opposition political parties must not be allowed to take shape: ``It is 
absolutely necessary not to let it happen that political opposition 
parties be established.''
    Can you confirm the authenticity of this document? If so, what is 
the reaction of the State Department?

    Answer. We are not able to confirm the authenticity of the alleged 
Politburo document posted on the Internet. We are aware, however, that 
the Government of Vietnam has shown little tolerance for political 
dissent or any political alternative to the ruling Communist Party of 
Vietnam. These circumstances are documented in the Department of 
State's annual Human Rights Report to Congress, released in early March 
2008.
    Promotion of greater respect for human rights continues to be one 
of the highest priorities of U.S. policy toward Vietnam. We raise our 
concerns about human rights and religious freedom in Vietnam frequently 
and with officials at all levels of the Vietnamese Government, 
including through our annual Human Rights Dialogue.

    Question. How is the new adoption policy, known as ``Orphans 
First,'' being implemented?

    Answer. On October 29, 2007, the U.S. Citizenship and Immigration 
Services (USCIS), in cooperation with the Department of State, 
instituted the ``Orphans First'' program for Vietnam. Under this 
program, I-600 Petitions (to Classify Orphans as an Immediate Relative) 
for Vietnamese children are adjudicated before a formal Vietnamese 
adoption occurs. Our goal in instituting this new procedure is to 
address any problems that may arise as early as possible in the 
adoption process. We aim to notify petitioners of a decision on their 
I-600 within 60 days after a petition is filed. Initially, an 
extraordinarily high number of U.S. and Vietnamese holidays in December 
and January made it impossible for us to meet that timeline for all 
cases. According to a recent analysis by USCIS, however, 90 percent of 
these petitions are now being processed within 60 days or less. As of 
June 27, only 51 of 647 cases submitted under Orphans First had been 
pending longer than 60 days, most because of fraud indications related 
to the petition. For the first 8 months of the program, the average 
processing time of all cases is 49 days, except where our field 
investigations are blocked by Vietnamese authorities.

  <bullet> Once a case is recommended for approval, petitioners can 
        travel to Vietnam to complete the adoption and schedule their 
        immigrant visa interview. The new process has eliminated the 
        need for a separate I-600 interview, as would be required in 
        other countries.
  <bullet> If the case cannot be adjudicated within 60 days, USCIS 
        informs the petitioner in writing of the reason for the delay.
  <bullet> If a case is not recommended for approval, petitioners are 
        provided the reasons for the USCIS decision and given written 
        instructions on how to proceed, should they want to appeal.

    In some cases, U.S. officials attempting to complete the required 
review have been prevented by Vietnamese officials from interviewing 
local officials and individuals. Such interference in the 
investigations has delayed those cases. The Department of State is 
reaching out to these Vietnamese Government officials to underscore the 
necessity of our performing the reviews. In many cases these problems 
have been resolved, although as of June 27, there were still 45 blocked 
investigations.
    We are making every effort to review and resolve cases as quickly 
as possible. We are working to ensure good communication among all 
involved as we continue to develop procedures to respond to an evolving 
situation. In addition, the Department of State and USCIS continue to 
assess the situation in Vietnam with an eye toward finding new measures 
designed to safeguard against baby trafficking and ensure reliable 
adoptions for American parents.

    Question. Do the State Department and DHS have the resources and 
staff necessary to review adoption applications quickly and completely?

    Answer. In the last year, there has been a four-fold increase in 
adoption cases from Vietnam as well as a surge in fraud indicators that 
necessitate a greater number of investigations for possible fraud. The 
Departments of State and Homeland Security continue to review staffing 
levels to ensure there are sufficient personnel and resources to review 
and adjudicate orphan cases quickly and completely.
    The USCIS office in Ho Chi Minh City is currently staffed by one 
officer. USCIS has provided temporary personnel to augment the office 
and plans an increase in permanent staffing. The consular section in 
Hanoi currently has sufficient staff to process adoption applications; 
however, we plan to provide some short-term TDY assistance to ensure 
all pending cases are resolved.

    Question. How long should families expect to wait to receive 
decisions on their adoption applications?

    Answer. Our goal is that petitioners receive a response within 60 
days of filing a petition. Currently, the average processing time for 
an I-600 petition filed with the USCIS office in Ho Chi Minh City is 49 
days. Based on recent experience, we anticipate that in most cases the 
petition will be approved; however, in some cases the response will be 
a request for further information or instructions on what further 
action may be taken.
    In cases where we have been prevented by Vietnamese officials from 
completing the required investigation to verify the child's orphan 
status, we will inform petitioners of the reasons for the delay in 
concluding their cases. We are reaching out to Vietnamese Government 
officials in order to establish mutually agreeable procedures which 
would allow U.S. officials to perform these reviews.

    Question. How have the State Department and DHS reformed their 
procedures to improve communication with U.S. citizens who are going 
through the adoption process?

    Answer. The Departments of State and DHS appreciate the importance 
of communication with U.S. citizens who are undertaking an 
international adoption. Adoptive parents are notified when their case 
is received and again when a determination is made to approve the 
petition, request further information, or issue a Notice of Intent to 
Deny. The Embassy has a dedicated e-mail address for prospective 
adoptive parents, and our goal is to answer all e-mail inquiries within 
3 working days.
    In addition, following the implementation of the Orphans First 
program, we have established a local Consular Section/USCIS combined 
case-tracking database to ensure that cases do not languish without a 
response. Through this system, we can identify any cases that are 
approaching the 60-day target to make sure that the petitioner is 
informed of the status of the case and that all possible efforts are 
being made to resolve any outstanding issues in a timely manner.

    Question. Have the State Department and DHS come to an agreement on 
the standards by which international adoptions will be considered?

    Answer. Each orphan petition and visa application is adjudicated 
individually on the basis of applicable laws and regulations. The State 
Department and DHS play different roles in an international adoption. 
In essence, our two agencies function as strong partners in a 
deliberative process that requires investigation, recommendations, and 
decisions. Sometimes during that process, new information is 
discovered. The deliberation therefore evolves as a case is reviewed.
    USCIS and the Department of State share the same legal standards 
and policy objective for immigration petitions: To ensure cases are 
adjudicated on the most accurate and timely basis practicable. Within 
Vietnam there is excellent cooperation and communication between the 
consular section and the USCIS office. Similarly, State Department and 
USCIS officials in Washington are in daily--sometimes even hourly--
contact. We continue to review the situation in Vietnam carefully to 
safeguard the process while at the same time looking for ways to 
provide petitioners with the best possible service.
    With our colleagues at USCIS we are looking to determine what 
additional steps might be taken to prevent emotional and financial 
hardship for prospective adopting parents after September 1. We want to 
work with the Government of Vietnam to address problems in Vietnam's 
adoption system, so that we can pursue a new agreement that allows 
adoptions under a system that is more transparent and protects the 
children and parents involved.
    The United States continues to urge that Vietnam demonstrate its 
commitment to the establishment of appropriate safeguards and 
procedures by acceding to the Hague Convention on Intercountry 
Adoptions.

    Question. A report facilitated by the Office of the United Nations 
High Commissioner for Refugees in 2007 found that ``severe forms of 
religion-based punitive action'' against the indigenous Montagnard 
Christian communities in Vietnam's Central Highlands continue to this 
day.
    According to the June 2006 Human Rights Watch report ``No 
Sanctuary: Ongoing Threats to Indigenous Montagnards in Vietnam's 
Central Highlands,'' Vietnamese officials continue to force Montagnard 
Christians to renounce their religion despite passing regulations to 
ban these practices.
    The Vietnamese Government harshly persecutes peaceful dissent among 
the Montagnards. Last year, at least 13 were sentenced to prison. Since 
2001, over 350 have been arrested and imprisoned on national security 
charges, for affiliating with independent or unregistered house 
churches, participating in land rights protests, or attempting to flee 
the country to seek asylum.

  <bullet> How does the State Department monitor abuses in Vietnam's 
        provinces and rural areas, including the Central Highlands?
  <bullet> What actions has the State Department taken or will it take 
        to address the Government of Vietnam's harassment and 
        imprisonment of the Montagnards in violation of new laws that 
        it has passed on religion?
  <bullet> How can we engage the Government of Vietnam to improve 
        religious freedom for all of its people?

    Answer. Officials of the United States Embassy in Hanoi and United 
States Consulate in Ho Chi Minh City monitor the situation in the 
Central Highlands through their contacts with community leaders and 
NGOs. They also work closely with the Office of the U.N. High 
Commissioner for Refugees (UNHCR). In the past 3 years, U.S. and UNHCR 
monitors have had unprecedented access to the Central Highlands. Since 
January 2007 alone, U.S. or UNHCR personnel have made nine visits to 
the Central Highlands. In its 2007 report, the UNHCR concluded there is 
no systematic persecution of ethnic minorities, though individual 
instances occur. The Department of State's 2007 International Religious 
Freedom Report notes that the number of credible reports of religious 
freedom abuses in the Central Highlands was ``significantly lower 
compared with previous years and appeared to reflect individual bias at 
the local level rather than official central government policy. In a 
number of instances, the local officials involved were reprimanded or 
fired.'' This conclusion is based on our direct observation and 
information collected from credible sources.
    Between 2004 and 2006, the Government of Vietnam released all 45 
prisoners raised by the U.S. Government as prisoners of concern for 
reasons clearly related to their religious beliefs and practices. Many 
Montagnards currently in prison were incarcerated for involvement in 
the 2001 and 2004 demonstrations in the Central Highlands. While some 
of these individuals may have deep religious convictions, we are not 
aware of individuals in prison in the Central Highlands for violation 
of laws passed in recent years liberalizing religious practice. 
Authorities continue to restrict the activities of individuals and 
groups whom they say are affiliated with ethnic minority separatist 
movements calling for an independent homeland. The majority of Central 
Highland ethnic minority Protestants are not affiliated with these 
groups and have enjoyed greater freedom in recent years. This does not 
mean that we are no longer active and vigilant.
    U.S. attention to these issues over past years contributed to the 
improvements we are witnessing in the Central Highlands. The U.S. 
Ambassador and other U.S. officials, including the Ambassador at Large 
for International Religious Freedom, have raised concerns about 
restrictions on religious freedom in the Central Highlands with the 
Prime Minister, Deputy Prime Minister, government cabinet ministers, 
Communist Party of Vietnam (CPV) leaders, senior provincial officials, 
and others, and will continue to do so. U.S. officials also meet 
regularly with religious leaders in Vietnam, including in the Central 
Highlands. In February 2008, the Ambassador at Large for International 
Religious Freedom met with a delegation of senior government and CPV 
officials from the Central Highlands, and addressed a wide range of 
ongoing religious freedom concerns. In March 2008, Ambassador Michalak 
met with some of those same leaders during his visit to the Central 
Highlands, and discussed ways to improve the socio-economic conditions 
for ethnic minorities, as well as potential cooperation to promote safe 
migration.
    Our diplomatic engagement with Vietnam has helped to encourage 
significant advances in religious freedom. Nearly all religious 
communities throughout the country report greater freedom to practice 
their faith, and there is an overall increase in religious activity and 
observance throughout the country. The legal framework on religion bans 
forced renunciation of faith and has allowed hundreds of congregations 
to register their places of worship. The Government of Vietnam has 
granted full national recognition to 19 different religious 
denominations and intends to register and recognize many more by the 
end of 2008. Implementation of the government's legal framework on 
religion has been uneven, but over the past 2 years, the government has 
organized 70 workshops in 17 provinces and cities to familiarize 
thousands of officials and religious leaders and practitioners with the 
provisions of the law on religion.
    Even as we highlight this progress, we recognize that problems 
affecting religious freedom continue in Vietnam and we will continue to 
raise the concerns cited here with the Government of Vietnam at all 
levels. We call on the government to streamline and speed up the 
registration process for religious organizations that request it, or to 
eliminate the need for registration altogether. Although registrations 
of congregations have begun in the North and Northwest Highlands, the 
process has been slow. Local officials in some areas ignore the central 
government's policy of promoting religious freedom and continue to 
interfere with religious believers there. U.S. Embassy contacts have 
reported that in certain areas in the Central, North and Northwest 
Highlands, some officials are using new methods, including denial of 
government benefits, to encourage followers (primarily recently 
converted Protestants) to abandon their faith. While religious leaders 
themselves have told us that these cases are not widespread, we take 
these allegations seriously and raise them with Government of Vietnam 
authorities. Furthermore, the government has continued to ban and 
actively discourage participation in certain unrecognized religious 
groups, including the Unified Buddhist Church of Vietnam, and certain 
Hoa Hao, Cao Dai, and Protestant Church groups. We continue to press 
the Vietnamese Government to expand freedom of religion for all 
citizens.
                                 ______
                                 

    Prepared Statement of Andre Sauvageot, Colonel, U.S. Army (Ret.)

    I am a retired U.S. Army officer, with 9 tours (years) of duty in 
wartime Vietnam, followed by post-war U.S. Government service to do 
political analysis of Vietnam and assist with the MIA/POW issue. 
Following this, I helped American companies develop markets in Vietnam 
and create jobs for American workers, in strict compliance with U.S. 
policy.
I. Vietnam provides stable, friendly, predictable environment
    The Vietnamese have forged a society in which 85 million people of 
some 54 different ethnic groups with a wide variety of religions all 
live peacefully together, free of the ethnic and religious strife with 
which so many other countries are afflicted.
    After the September 11, 2001, attacks on the World Trade Center and 
the Pentagon, the Political and Economic Research Company (PERC) based 
in Hong Kong upgraded its assessment of the security among 14 Asian 
Pacific countries to reflect the changing post-9/11 perceptions of 
entrepreneurs. Their assessment soon after
9/11 ranked Vietnam as the most secure of those 14 countries.
II. Human Rights
            A. Already relatively good considering: (relative to other 
                    countries among some 190 sovereign nations 
                    including, (sadly) the post 9/11 United States
    The frequent atrocities occurring in so many countries, such as 
floggings, amputations and death by stoning, long prison sentences for 
consensual sex between adults (e.g., United States--and worse in some 
countries governed by Sharia law) roundups, torture, and killing of 
gays, all would be unthinkable in Vietnam.
    A few years ago people were shocked when religious police forced 
little girls back to their deaths in a burning school because they did 
not meet the dress codes as they fled the flames. More recently, the 
world was shocked again when the same country sentenced a female rape 
victim to prison and 90 lashes because she was in a car with an 
unrelated male when the couple were kidnapped and raped by 7 men. The 
female victim's punishment was for being in a car with an unrelated 
male. When her lawyer courageously appealed her sentence, the 
punishment increased to 200 lashes and his license to practice law was 
suspended.
    By contrast, with the above, Vietnam is a tolerant humane country 
for all of its citizens regardless of race, ethnicity, gender, or 
sexual orientation. A paucity of hate crimes based on the foregoing 
factors obviates any need for hate crimes legislation. Women and ethnic 
minorities are well represented in the National Assembly. The 
Vietnamese Communist Party has committed itself (Article 4, 
Constitution of 1992) to work within the laws passed by the National 
Assembly and continues steady progress toward this commitment.
            B. And improving (improvement will continue, but the United 
                    States can be a supportive, negative, or neutral 
                    factor)
    A basic reason that human rights in Vietnam is continuing to 
improve is that Vietnam's leadership has an enlightened concept of its 
self interest. But enlightened self-interest does not entail self 
destruction, e.g., yielding quickly to foreign or hostile pressures to 
undermine the leadership role of the Communist Party.
    Therefore, if the SRV leadership perceives that an approach to 
improve a particular aspect of human rights is sincere, i.e., based on 
human rights qua human rights and therefore potentially beneficial to 
Vietnam or maybe even of mutual benefit to Vietnam and the United 
States there is a real chance for progress.
    On the contrary, if the SRV leadership perceives a human rights 
approach is superficial, unrealistic, or basically posturing for an 
American constituency, the end result may be no change. And again, if 
it perceives a hostile intent, the result could be to elicit tightened 
security procedures, which could constitute a regression in civil 
liberties.
    Vietnam's Constitution (Article 4) stipulates the leadership role 
of the Communist Party and is supported by most of the population (in 
Vietnam) because the party (from enlightened self-interest) has spear-
headed political and economic reform under difficult conditions from 
the the 6th Party Congress which concluded in December 1986 through the 
10th Party Congress which concluded in April 2006.
            (C) Threat perception (plays key role--can be positive or 
                    negative)
    The degree of civil liberties granted to the citizens of any 
country may be greatly influenced by the degree to which a country's 
leadership believes it (or the country at large) is threatened by 
hostile forces--whether domestic or external or a combination thereof. 
The U.S. regression in human rights and civil liberties after the 9/11 
terrorist attack provides a recent stark example.
    Vietnam's leadership understands the role of threat perception and 
that it applies in some degree to all countries. The difference is that 
the perception of threat may be paranoid or pathological in the case of 
ruthless dictatorships as existed under the former Taliban regime in 
Afghanistan, Saddam Hussein's Baath Party in Iraq, or the Khmer Rouge 
in Cambodia to cite some of the most extreme examples.
    However, even relatively moderate governments will restrict civil 
liberties given a reasonable perception of threat.
    The United States provides a number of examples:
    During the civil war President Abraham Lincoln suspended habeous 
corpus.
    After Japan attacked the U.S. Navy at Pearl Harbor 7 December 1941, 
President Roosevelt signed an Executive order to imprison many 
Japanese-Americans who were not guilty of any crimes and against whom 
there was no evidence.
    After the terror attack of 11 September 2001, Congress quickly 
passed the Patriot Act, and the executive branch has assumed many 
powers which remain very controversial in the United States and abroad.
    Vietnam provides other examples. Although committed to political 
and economic reform it is not surprising that Vietnam's Communist Party 
leadership is very sensitive to the possibility that they may face 
covert, hostile actions against Vietnam's basic political system. 
Consider:

--The United States maintained a trade embargo against Vietnam during 
    the same time that it advocated and practiced ``constructive 
    engagement'' with China.
--The United States supported China and the genocidal Khmer Rouge 
    against Vietnam's liberation of Cambodia, e.g., by lobbying the 
    U.N. to keep ``Democratic Kamphuchea's'' seat at the U.N. and 
    lobbying ASEAN to form a united front against Vietnam in Cambodia.
--Various groups from the United States have from time to time 
    infiltrated into Vietnam through Thailand or Cambodia. Even if 
    these activities were illegal and had no support from the U.S. 
    Government they still exacerbated Vietnam's threat perception.

    Therefore, the more that Vietnam ascertains that the United States 
is serious about improving overall relations in a serious manner based 
on mutual benefit the less Vietnam will feel threatened by unreasonable 
hostility. And the sooner that Vietnam's leadership will be amenable to 
constructive U.S. ideas on human rights. Setting a better example would 
also help--not only with Vietnam but many other countries with human 
rights situations much worse than either Vietnam or the United States.
            (D) Freedom of religon
    Vietnam with its ``live and let live'' attitude about religion 
provides a relaxed atmosphere from the very devout to agnostics and 
atheists. My secular humanist philosophy did not dissuade a devote 
Roman Catholic friend from episodic efforts to convert me through 
conversation and books such as a Vietnamese language copy of the new 
testament. Vietnam's Party leadership is strongly supportive of 
religious freedom qua religion, maintains strict separation of church 
and state, with no stigma attached to being an atheist or agnostic.
    The Vietnamese enjoy essentially 100 percent freedom of religion 
qua religion. Buddhists, Roman Catholics, Protestants, Muslims, Hoa 
Hao, and Cao Dai are all free to practice their religion. Vietnam's 
secular state combines freedom to believe in any religion with the 
freedom to not believe in any religion. Thus, there are no pressures 
against agnostics or atheists. It is ``live and let live.''
    Some religious leaders get into trouble mixing politics with 
religion in a manner that violates existing law and exacerbates 
perceptions of threat reasonably derived from experience. For example, 
some foreigners visiting Vietnam have visited rural villages in the 
highlands and presented themselves as Protestants who offered money and 
a so-called religious or political rationale to entice people to flee 
to Cambodia and request political asylum.
    In view of the history, it is quite commendable that Vietnam's 
leadership has put the past behind and that devout Roman Catholics 
attend mass and are very open about and proud of their religion. Their 
brand of religion tends to be humane, long on self-discipline and 
ethics and short on marginalizing others who do not share their 
religion.
III. United States and Vietnam have many shared interests. Consider:
    (1) United States and Vietnam (SRV) have full diplomatic relations; 
(2) United States has granted Vietnam PNTR status in compliance with 
our respective WTO membership; (3) United States now Vietnam's single 
largest export market, with implicit leverage to work cooperatively 
toward shared objectives; (4) SRV is one of the 21 most trade dependent 
nations (trade as percent of GDP) in the world--North Korea is the 
least; (5) SRV plays an increasingly important role in ASEAN in which 
it is the second most populous member and among the most politically 
stable; (6) the United States and SRV have shared geopolitical 
interests in a prosperous, peaceful region in which critical sealanes 
are not dominated by East Asia's emerging giant; (7) Vietnam maintains 
a secular state--a natural ally against terrorism generated by Islamic 
(or any) extremism; (8) SRV cooperates with the United States against 
trafficking in drugs and people.
IV. Vietnam's cooperation on MIA accounting
    I had the honor of serving as the interpreter for the U.S. 
Government's most senior officials heading delegations visiting Hanoi 
with, at first the sole, but always the primary objective of achieving 
the fullest possible accounting of Americans missing in action from the 
war in Vietnam. These included Richard Armitage (1982-1986, first 
Deputy Assistant and later Assistant Secretary of Defense, 
International Security Affairs; General John W. Vessey, U.S. Army 
retired) then-Special Emissary for MIA/POW Affairs for Presidents 
Reagan and Bush (1987-1991) and Senator John Kerry, then-chairman, 
Senate Select Committee on MIA/POW Affairs (1991-1992).
    Since then I have continued to follow events from personal 
interest, both because of its intrinsic value (to families who lost 
loved ones) and also because it is an important component of the 
overall bilateral relationship from which both countries derive 
significant and growing benefit.
    My key observations from years of intense, albeit episodic, 
exposure are:
    1. Vietnam's cooperation has increased through the years as a 
function of improvement in the overall relationship, e.g., lifting the 
trade embago, establishing diplomatic relations, signing a bilateral 
trade agreement, waiving the Jackson-Vanik amendment, ship visits, etc.
    2. Vietnam's aforementioned humanitarian and pragmatic propensities 
have combined to enable its leadership and specialists to work 
effectively with the U.S. Government and our MIA/POW specialists, 
notwithstanding initial perceptions (understandably) among many 
Vietnamese who suffered more dead or missing from the war than we did, 
that there was something unseemly about their own leaders devoting so 
much effort (and publicity) to MIA accounting for their erstwhile 
enemies who many perceived had ``invaded'' their country. Tough sell, 
but sell it they did, and public cooperation has grown over the years.
    3. The U.S. Government's effort over the years has been of the 
highest quality, from the senior officials for whom I had the honor of 
interpreting to the many specialized and dedicated officials, most 
notably Department of Defense personnel, who worked directly with the 
Vietnamese though the years.
    The facts speak for themselves: Since the end of the war in 
Vietnam, the United States has repatriated and identified the remains 
of 627 Americans lost in Vietnam during the war. Efforts continue to 
account for some 1,353 remaining. The Joint POW/MIA Accounting Command 
(JPAC) normally executes three joint field activities (JFAs) per year 
in Vietnam. The next JFA is scheduled for March 1-April 14, 2008.
    My current contacts at the Department of Defense tell me that they 
appreciate Vietnam's assistance in the accounting mission, but also say 
that they are urging Vietnam to take some additional steps with 
potential mutual benefit to both countries. These are quite technical 
and Department of Defense personnel would be better to address these 
point by point. However, whatever the technical issues, I strongly 
believe that on MIA accounting, past is prologue, i.e., Vietnam's 
cooperation, for years amazingly good, will only grow as our overall 
relationship continues to move forward in accordance with our 
multifaceted interests.
                               conclusion
    The Vietnamese leadership's commitment to economic reform and to 
the diversification of Vietnam's international relationships, poverty 
alleviation and the growth if individual freedom adumbrate a bright 
future for Vietnam and an increasingly significant regional role.
    The strategic geopolitical question is how close a relationship 
will we form with Vietnam--a natural ally against terrorism and 
political or religious extremism. Clearly, as the United States-Vietnam 
relationship continues to improve on the basis of mutual respect and 
mutual benefit, progress will continue on all fronts.

                                  <all>

</pre></body></html>
